<html>
<title> - CONFRONTING THE CORONAVIRUS: PERSPECTIVES ON THE COVID-19 PANDEMIC ONE YEAR LATER</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                CONFRONTING THE CORONAVIRUS: PERSPECTIVES 
                ON THE COVID	19 PANDEMIC ONE YEAR LATER

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2021

                               __________

                            Serial No. 117-3

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                            
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-393 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Andrew S. Clyde, a Representative in Congress From 
  the State of Georgia:
  Prepared Statement.............................................     6

                               Witnesses

Ms. A. Nicole Clowers, Managing Director, Health Care Team, U.S. 
  Government Accountability Office (GAO):
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Ms. Crystal R. Watson, DrPH, Senior Scholar, Johns Hopkins Center 
  for Health Security, and Assistant Professor, Department of 
  Environmental Health and Engineering, Johns Hopkins Bloomberg 
  School of Public Health:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Dr. Ngozi O. Ezike, MD, Director, Illinois Department of Public 
  Health:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. J. Ryan McMahon, II, County Executive, Onondaga County, New 
  York:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Bill...........................................................    41
The Honorable Andrew S. Clyde, a Representative in Congress From 
  the State of Georgia:
  Letter, February 19, 2021......................................    65
The Honorable Val Butler Demings, a Representative in Congress 
  From the State of Florida:
  Letter, February 23, 2021......................................    83

                               Appendix I

The Honorable Diana Harshbarger, a Representative in Congress 
  From the State of Tennessee:
  Statement of Matthew J. Rowan, President and CEO, Health 
    Industry Distributors Association............................    99

                              Appendix II

Questions From Chairman Bennie G. Thompson for A. Nicole Clowers.   113
Questions From Chairman Bennie G. Thompson for Crystal R. Watson.   115
Question From Honorable Michael Guest for Crystal R. Watson......   116
Questions From Honorable Michael Guest for Ngozi Ezike...........   116

 
CONFRONTING THE CORONAVIRUS: PERSPECTIVES ON THE COVID-19 PANDEMIC ONE 
                               YEAR LATER

                              ----------                              


                      Wednesday, February 24, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., via 
Webex. Hon. Bennie G. Thompson [Chairman of the committee] 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Correa, Slotkin, Cleaver, Green, Clarke, Swalwell, 
Titus, Watson Coleman, Demings, Barragan, Gottheimer, Torres, 
Katko, Higgins, Guest, Bishop, Van Drew, Norman, Miller-Meeks, 
Harshbarger, Clyde, Gimenez, LaTurner, Meijer, Cammack, 
Pfluger, and Garbarino.
    Chairman Thompson. Good morning. Our Ranking Member will be 
joining us shortly.
    The Committee on Homeland Security will come to order. The 
committee is meeting today to receive testimony on confronting 
coronavirus perspectives on the COVID-19 pandemic 1 year later.
    Without objection the Chair has authorized to declare the 
committee in recess at any point.
    This gentlelady from Florida, Ms. Demings, shall assume the 
duty of the Chair in the event that I run into technical 
difficulties.
    With that, I recognize myself for an opening statement.
    Almost 1 year ago, on March 4, 2020, the Committee on 
Homeland Security held a first Congressional hearing to examine 
the novel coronavirus that had begun spreading around the 
world. A week later, on March 11, 2020, the World Health 
Organization declared COVID-19 a global pandemic. Since then, 
over half a million Americans have died from the virus, a 
tragic, catastrophic loss of life. In remembrance of those who 
have lost their lives to COVID-19, I ask the committee to 
observe a moment of silence.
    Thank you.
    The committee is meeting today to examine perspectives on 
the COVID-19 pandemic 1 year later. We are fortunate to be 
joined today by witnesses representing 2 of the same 
organizations that came before the committee at our March 2020 
hearing, and I look forward to resuming our discussion. 
Examining the failures in the Federal responses so far and 
applying lessons learned are essential to ending the pandemic 
and keeping Americans safe.
    Unfortunately, President Trump ignored intelligence on 
COVID-19, made States compete for PPE and testing supplies, 
rejected science on masking and distancing, silenced medical 
and scientific experts in his own administration, and failed to 
develop a comprehensive plan for testing and vaccine 
distribution. The American people have paid dearly for those 
failures and continue to do so today, in some cases with their 
lives.
    Late last month, the Government Accountability Office 
released a scathing report on the Trump administration's 
persistent failure to address critical problems in the COVID-19 
response. Nearly 90 percent of GAO's recommendations remain 
unimplemented as President Trump left office, leaving the 
normally reserved Government watch dog agency deeply troubled. 
Among the most significant failures identified was the lack of 
a comprehensive plan for COVID vaccine distribution. According 
to GAO, without a plan each State was left to create its own 
plan for locally distributing the shots and launching programs 
for getting them into people's arms. We all know how that is 
going. I doubt to say that every Member on this committee has 
received calls from constituents asking how and when can I get 
a shot. Long waits for appointments at under-resourced local 
public health departments, older people trying to navigate a 
patchwork of overwhelmed private pharmacy websites to get a 
shot, and minority and underserved communities being left 
behind, despite suffering disproportionate illness and death 
from the virus.
    This is a situation the Biden administration was handed by 
its predecessor. President Biden has taken aggressive action to 
try to rectify these failures and bring the pandemic under 
control, but it will not be an easy task. Executing the 
National strategy for the COVID-19 response and pandemic 
preparedness will take a coordinated effort along Federal, 
State, local, Tribal, and territorial governments and private-
sector partners.
    I hope to hear from our witnesses today how Congress can be 
helpful in that endeavor. Getting the pandemic under control 
will also take addressing the disproportionate toll COVID-19 
has taken on minority and underserved communities. The risk of 
dying from COVID is nearly 7 times higher in Hispanics and 5\1/
2\ times higher in African Americans than others, yet minority 
and underserved communities are having trouble accessing life-
saving COVID vaccines. In my State of Mississippi, only 20 
percent of the vaccines have gone to African Americans, even 
though African Americans comprise 38 percent of the State's 
population. In one Mississippi county, less than 9 percent of 
vaccines have gone to African Americans even though 26 percent 
of residents are African American.
    President Biden's Executive order and task force on COVID-
19 health equity are a good start. But more needs to be done to 
ensure equitable vaccine access and outcomes.
    I was heartened to hear of the creation of a civil rights 
advisory group within FEMA that will be working on this issue 
and Americans can be assured this committee will be conducting 
close oversight of their work and supporting their efforts. The 
Federal Government is paying for these vaccines with taxpayers' 
money and it must ensure that all Americans have equitable 
access to them.
    I thank the witnesses for joining us and Members for their 
participation and look forward to a robust discussion.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           February 24, 2021
    Almost 1 year ago, on March 4, 2020, the Committee on Homeland 
Security held the first Congressional hearing to examine the novel 
coronavirus that had begun spreading around the world. A week later, on 
March 11, 2020, the World Health Organization declared COVID-19 a 
global pandemic. Since then, over half a million Americans have died 
from the virus--a tragic, catastrophic loss of life.
    In remembrance of those we have lost to COVID-19, I ask the 
committee to observe a moment of silence. Thank you.
    The committee is meeting today to examine ``Perspectives on the 
COVID-19 Pandemic One Year Later.'' We are fortunate to be joined today 
by witnesses representing two of the same organizations that came 
before this committee at our March 2020 hearing, and I look forward to 
resuming our discussion. Examining the failures in the Federal 
responses so far and applying lessons learned is essential to ending 
the pandemic and keeping Americans safe.
    Unfortunately, President Trump ignored intelligence on COVID-19, 
made States compete for PPE and testing supplies, rejected science on 
masking and distancing, silenced medical and scientific experts in his 
own administration, and failed to develop comprehensive plans for 
testing and vaccine distribution. The American people have paid dearly 
for those failures and continue to do so today, in some cases with 
their lives.
    Late last month, the Government Accountability Office released a 
scathing report on the Trump administration's persistent failure to 
address critical problems in its COVID-19 response. Nearly 90 percent 
of GAO's recommendations remained unimplemented as President Trump left 
office, leaving the normally reserved Government watchdog agency 
``deeply troubled.''
    Among the most significant failures identified was the lack of a 
comprehensive plan for COVID vaccine distribution. According to GAO, 
without a plan each State was left to create its own plan for ``locally 
distributing the shots and launching programs for getting them into 
people's arms.'' We all know how that has gone.
    Long waits for appointments at under-resourced local public health 
departments, older people trying to navigate a patchwork of overwhelmed 
private pharmacy websites to get a shot, and minority and underserved 
communities being left behind despite suffering disproportionate 
illness and deaths from the virus. This is the situation the Biden 
administration was handed by its predecessor.
    President Biden is taking aggressive action to try to rectify these 
failures and bring the pandemic under control, but it will be no easy 
task. Executing his National Strategy for the COVID-19 Response and 
Pandemic Preparedness will take a coordinated effort among Federal, 
State, local, Tribal, and territorial governments and private-sector 
partners.
    I hope to hear from our witnesses today about how Congress can be 
helpful in that critical endeavor. Getting the pandemic under control 
will also take addressing the disproportionate toll COVID-19 has taken 
on minority and underserved communities. The risk of dying from COVID 
is nearly 7 times higher for Hispanics and 5\1/2\ times higher for 
African Americans than for others. Yet, minority and underserved 
communities are having trouble accessing life-saving COVID vaccines.
    In my State of Mississippi, only 20 percent of vaccines have gone 
to African Americans, even though African Americans comprise 38 percent 
of the State's population. In one Mississippi county, less than 9 
percent of vaccines have gone to African Americans even though 26 
percent of residents are African American. President Biden's Executive 
Order and Task Force on COVID-19 Health Equity are a good start, but 
more needs to be done to ensure equitable vaccine access and outcomes.
    I was heartened to hear of the creation of a Civil Rights Advisory 
Group within FEMA that will be working on this issue, and Americans can 
be assured this committee will be conducting close oversight of their 
work and supporting their efforts. The Federal Government is paying for 
these vaccines with taxpayer money, and it must ensure that all 
Americans have equitable access to them.

    Chairman Thompson. With that, I recognize the Ranking 
Member, the gentleman from New York, Mr. Katko, for an opening 
statement.
    You are going to have to unmute yourself.
    Mr. Katko. You had to me unmute me first, Mr. Chairman. I 
appreciate your comments.
    Thank you for holding this necessary hearing today as well. 
I appreciate you tackling this topic so early in the 
proceedings. The mere fact that this hearing is being held 
virtually demonstrates the degree to which the COVID-19 
pandemic has interrupted our daily lives. Like very few things 
during my lifetime, the COVID-19 pandemic has impacted every 
American in some way. It has had a crippling effect on our 
economy, forcing small businesses to shutter their doors, it 
has threatened the financial stability of millions of families, 
and it has taken a significant toll on the mental health of 
countless Americans, including our school children.
    We need to do everything we can to support those suffering, 
including by taking appropriate steps to get our kids back in 
the classrooms as quickly and as safely as possible.
    Not to mention the horrific number of deaths that have 
occurred. I saw media reports just last week that life 
expectancy in the United States fell by a full year in the 
first 6 months of 2020 resulting from the pandemic, with racial 
minorities, as you noted, suffering even greater declines. This 
is the largest drop since World War II and it is absolutely 
tragic. My thoughts and prayers go out to everyone who has 
suffered through this pandemic, especially those who have lost 
loved ones.
    Sadly, a year later, when many of us thought we would have 
returned to a semblance of normalcy, we are still deep in the 
throes of this pandemic. Although it is a positive sign that 
cases and deaths may be trending down, at the moment the 
numbers are still way too high. Many have become numb to the 
news on any given day in the United States that thousands more 
of our fellow Americans have lost their lives to this 
devastating virus. Just last week alone we lost more than 
10,000 Americans to COVID, and in the last few days surpassed 
500,000 deaths totally. Luckily, the vaccines have given us 
some much-needed hope, but we are still a long way from the 
end. We need to do absolutely everything we can to get as many 
Americans vaccinated as quickly as possible.
    Most of the news in 2020 surrounding the pandemic was 
awful, but I would be remiss for not mentioning that we saw 
enumerable feats of courage and perseverance. As we know, Mr. 
Chairman, the American people under the most horrendous 
conditions throughout history have always stepped up to defy 
the odds. Throughout the 2020 year, and continuing to this day, 
we see tremendous courage from health care workers and first 
responders on the front lines who continue to put their lives 
on the line to help their fellow Americans. I commend them for 
that.
    Although the media tends to focus on the largest cities 
where the cases are higher, I would like to use this 
opportunity to highlight that the pandemic is everywhere. In 
districts like yours in Mississippi, Mr. Chairman, in mine in 
central New York. I would argue that the pandemic has had an 
even equal or even larger impact on our smaller cities and more 
rural communities.
    I want to urge all those working on the response to the 
pandemic not to forget about the impact this deadly virus is 
having on communities in my district, such as Syracuse, New 
York, Auburn, New York, and Oswego, New York, and many, many 
others. In central New York we have seen the pandemic 
contribute to rising rates of mental illness, substance use 
disorders, and nearly doubling the overdose stats for heroin.
    My witness today will highlight some of those challenges. 
In my Congressional district we have seen north of 45,000 COVID 
cases and more than 800 deaths.
    Even though the country has been given a ray of hope with 
the vaccine, there is much left to do, including--and I hate to 
say it because I hope it never happens--plan for the next 
pandemic. Now that we know first-hand that something like this 
is possible, we need to compile lessons learned and best 
practices to ensure we build an effective and aggressive 
strategy to respond to public health crises of this magnitude. 
Pandemic preparedness is a critical part of the Homeland 
Security mission. We must ensure that the Federal, State, 
local, and Tribal governments have diligent plans in place for 
a public health response to this and future pandemics.
    Longer-term, we need to engage in a study about medical and 
pandemic response supply chains to identify where we are overly 
beholden to foreign nation-states, like China, that don't share 
our interests. I believe the Department can play a critical 
role in this work. Mr. Chairman, I see great opportunity, as 
always for bipartisan collaboration. We always accomplish the 
most when we work collaboratively across the aisle to address 
the needs of the American public.
    Again, Mr. Chairman, thank you for holding this most 
important hearing today. I look forward to the testimony of our 
witnesses.
    With that, I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you for holding this necessary hearing today. I appreciate 
your commitment to tackling this topic so early in the Congress. The 
mere fact that this hearing is being held virtually demonstrates the 
degree to which the COVID-19 pandemic has interrupted our daily lives.
    Like very few things during my lifetime, the COVID-19 pandemic has 
impacted every American in some way--it has had a crippling effect on 
our economy forcing small businesses to shutter their doors, it has 
threatened the financial stability of millions of families, and it has 
taken a significant toll on the mental health of countless Americans, 
including our school children.
    We need to do everything we can to support those suffering, 
including by taking appropriate steps to get our kids back in the 
classroom, as quickly and safely as possible!
    Not to mention the horrific number of deaths that have occurred. I 
saw media reports just last week that life expectancy in the United 
States fell by a full year in the first 6 months of 2020 resulting from 
the pandemic, with racial minorities suffering even greater declines. 
This is the largest drop since World War II--and it's absolutely 
tragic. My thoughts and prayers go out to everyone who has suffered 
through this pandemic, especially those who have lost loved ones.
    Sadly, a year later, when many of us thought we would have returned 
to a semblance of normalcy, we are still deep in the throes of this 
pandemic. Although it is a positive sign that cases and deaths may be 
trending down at the moment, the numbers are still way too high.
    Many have become numb to the news on any given day in the United 
States, that thousands more of our fellow Americans have lost their 
lives to this devastating virus. Just last week alone, we lost more 
than 10,000 Americans to COVID and in the last few days surpassed 
500,000 deaths total. Luckily, the vaccines have given us some much-
needed hope, but we are still a long way from the end. We need to do 
absolutely everything we can to get as many Americans vaccinated as 
quickly as possible.
    Most of the news in 2020 surrounding the pandemic was horrible, but 
I would be remiss without mentioning that we saw innumerable feats of 
courage and perseverance. As we know, Mr. Chairman, the American 
people, under the most horrendous conditions throughout history, have 
always stepped up to defy the odds.
    Throughout 2020 and continuing to this day, we see tremendous 
courage from health care workers and first responders on the front 
lines who continue to put their lives on the line to help their fellow 
Americans. I commend them for that.
    Although the media tends to focus on the larger cities where the 
cases are higher, I would like to use this opportunity to highlight 
that the pandemic is everywhere--in districts like your district in 
Mississippi, Mr. Chairman, and mine in Central New York.
    I would argue that the pandemic has had an equal or even larger 
impact on our smaller cities and more rural communities.
    I want to urge all those working on the response to the pandemic 
not to forget about the impact this deadly virus is having on 
communities such as Syracuse, Auburn, Oswego, and many, many others. In 
Central New York, we have seen the pandemic contribute to rising rates 
of mental illness, substance use disorders, and overdose deaths.
    My witness today will highlight some of those challenges. In my 
Congressional district, we have seen north of 45,000 cases and more 
than 800 deaths.
    Even though the country has been given a ray of hope with the 
vaccine, there is much left to do--including, and I hate to say it, 
plan for the next pandemic.
    Now that we know first-hand that something like this is possible, 
we need to compile lessons learned and best practices to ensure we 
build an effective and aggressive strategy to respond to public health 
crises of this magnitude. Pandemic preparedness is a critical part of 
the homeland security mission. We must ensure that Federal, State, 
local, and Tribal governments have diligent plans in place for a public 
health response to this and future pandemics.
    Longer-term, we need to engage in a study of our medical and 
pandemic response supply chains to identify where we are overly 
beholden to foreign nation-states--like China--that don't share our 
interests. I believe the Department can play a critical role in this 
work, and Mr. Chairman, I see great opportunity for bipartisan 
collaboration on this.
    We always accomplish the most when we work collaboratively, across 
the aisle to address the needs of the American people.
    Again, Mr. Chairman, thank you for holding this hearing today. I 
look forward to the testimony of our witnesses.

    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules opening statements may be 
submitted for the record.
    [The statement of Hon. Clyde follows:]
                   Statement of Hon. Andrew S. Clyde
                           February 24, 2021
    Thank you, Chairman Thompson.
    I would like to take this opportunity to address my grave concern 
with the Biden administration's decision to eliminate the Migrant 
Protection Protocols. This reckless decision will have the dual effect 
of putting Americans at risk of exposure to the coronavirus and 
creating conditions that mirror the 2019 border crisis.
    The increasing number of unaccompanied minors and families 
illegally crossing the border in the middle of a global pandemic is 
creating a recipe for disaster. President Biden's Executive actions 
have the potential to cause mass outbreaks at facilities and ports of 
entry, which would lead to temporary closures that could have a 
significant impact on commerce and further handicap our economic 
recovery efforts. A mass outbreak would also jeopardize the health and 
safety of our men and women who serve on the front lines protecting our 
Nation's borders. Finally, these Executive actions and a surge at the 
border have forced CBP officials to return to the dangerous policy of 
catch and release. This policy releases migrants who have not been 
properly vetted or sufficiently tested for coronavirus into our 
communities, putting the health and well-being of Americans at risk.
    The Biden administration's actions are unacceptable and serve as 
distractions from what this committee should be focusing on, which is 
how we can secure our borders and prevent our constituents from being 
exposed to the COVID-19 virus. I would like to submit for the record a 
letter my colleagues and I on the House Oversight and Reform Committee 
sent to Secretary Mayorkas highlighting these concerns. With that Mr. 
Chairman, I yield back my time.

    Chairman Thompson. Members are also reminded that the 
committee will operate according to the guidelines laid out by 
the Chairman and Ranking Member in our February 3 colloquy 
regarding remote procedures.
    Now, I welcome our witnesses.
    Ms. Nicole Clowers serves as the managing director of the 
Healthcare Team at the Government Accountability Office. She 
has been with GAO since 1998 and is one of the people leading 
GAO's reporting on the Federal Government's COVID-19 response.
    Dr. Crystal Watson is a senior associate at John Hopkins 
Center for Health Security and assistant professor in the 
Department of Environmental Health and Engineering. Her policy 
research focuses on public health, risk assessment, prices, and 
risk-based decision making regarding preparedness and response, 
biodefense, and emerging infectious diseases.
    Dr. Ngozi Ezike is the director of Illinois Department of 
Public Health. She is a board-certified internist and 
pediatrician and the testimony she provided to the committee 1 
year ago was invaluable to our understanding of a difficult 
road ahead. I thank her for agreeing to return today.
    I would now like to recognize the Ranking Member for the 
purposes of introducing our fourth witness.
    Mr. Katko. Thank you, Mr. Chairman.
    My witness' name is a little bit easier. His name is Ryan 
McMahon. I am proud to introduce a constituent by Mr. Ryan 
McMahon. Ryan is an Onondaga County executive and has been so 
since 2018. He started his career in public service as Syracuse 
city counselor in 2005 after being elected at the ripe old age 
of 25. He was reelected in 2007 for a second term and quickly 
distinguished himself as a bipartisan problem solver.
    In 2011 County Executive McMahon was elected to the 15th 
District of the county legislature of Onondago, which includes 
portions of the city of Syracuse, the Town of Geddes, and the 
Town of Onondaga. Ryan was subsequently elected chairman of the 
county leg in 2012 by his fellow legislators, becoming the 
youngest chairman in county history.
    Upon taking office as county executive, Ryan McMahon has 
placed a focus on 3 main initiatives, poverty, infrastructure, 
and economic development. Obviously, Mr. Chairman, Ryan's main 
focus now is COVID. He has done a remarkable job leading us 
through this pandemic in central New York and saw daily 
briefings that have been superb. I commend him for his 
leadership in that regard.
    I have enjoyed working with Mr. McMahon during my life in 
the House and I am thrilled that he is able to testify with us 
today.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. Thank you. Without objection, the 
witnesses' full statements will be inserted in the record.
    I now ask Ms. Clowers to summarize her statement for 5 
minutes.

STATEMENT OF A. NICOLE CLOWERS, MANAGING DIRECTOR, HEALTH CARE 
       TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Ms. Clowers. Thank you, Chairman Thompson, Ranking Member 
Katko, and Members of the committee. Thank you for the 
opportunity to discuss the Federal Government's on-going 
response to COVID-19.
    Through the CARES Act Congress directed GAO to provide on-
going real time oversight of the Federal Government's response 
to the pandemic. As of January we have issued 5 reports 
containing 44 recommendations. About a third of those 
recommendations were directed in the following public health 
areas, COVID testing, vaccine distribution, medical supply 
chain, COVID health disparities, and COVID data. My written 
statement details each of those recommendations. We believe 
each, if fully implemented, would improve the on-going Federal 
response.
    In my comments this morning I would like to focus on 3 of 
those areas, vaccine distribution, the medical supply chain, 
and COVID disparities.
    First, the topic that is on everyone's mind, vaccine 
distribution. As you know, as of today 2 vaccines have been 
authorized for emergency use and are being distributed. The 
emergency use authorization request for a third vaccine 
candidate is pending before the FDA. The rapid development of 
these vaccines is an achievement. But as we and others have 
reported, the distribution of the vaccines had not met 
expectations through January. While the distribution pace has 
recently increased, challenges continue to be reported. 
Distribution of authorized vaccines across the Nation is a 
daunting, complicated logistical endeavor in part because of 
the number of entities involved across all levels of the 
Government and the private and non-profit sectors. This is why 
we recommended in September 2020 that HHS, as part of a 
National plan for distributing and administering the vaccine, 
outline an approach for how efforts would be coordinated across 
Federal and non-Federal partners. To date this recommendation 
has not been fully implemented and we maintain doing so, 
especially ensuring local officials are part of the planning 
efforts, would improve the Nation's distribution efforts.
    The second topic that I would like to highlight is the 
medical supply chain. The pandemic has highlighted 
vulnerabilities in the Nation's medical supply chain, which 
includes personal protective equipment and other supplies 
necessary to treat individuals with COVID and to vaccinate 
people. Providing medical supplies to meet the continuing needs 
has been a persistent challenge.
    We have made multiple recommendations to improve the 
Federal Government's management of the medical supply chain. 
For example, we recommended that HHS should develop plans 
outlining specific actions the Federal Government would take to 
mitigate medical supply gaps for the duration of the pandemic. 
We also recommended that HHS work with Federal and non-Federal 
stakeholders to helps States enhance their ability to track the 
status of supply requests. Implementing both of these 
recommendations would help address the supply challenges.
    Finally, I want to highlight the health care disparities 
related to COVID-19. Available data from CDC and others show 
communities of color bear a disproportional burden of COVID-19, 
to include cases, hospitalizations, and death. For example, 
available data show that the rate of COVID-19 hospitalizations 
for Native Americans is almost 4 times the rate for White 
Americans.
    While CDC collects race and ethnicity data on indicators of 
COVID-19, we found gaps in the data. For example, data on race 
and ethnicity for COVID-19 vaccine recipients were missing for 
almost half of the recipients who received at least one dose. 
The lack of complete race and ethnicity data hinders the 
Government's ability to take corrective actions.
    In conclusion, over the past 2 weeks case counts and deaths 
have thankfully slowed since peaking in January, but public 
health officials caution that we should not become complacent 
in our efforts as new variants emerge. Until the country better 
contains the spread of the virus, the pandemic will continue to 
lay bare the fragmented nature of the public health sector, the 
fragility of the medical supply chain, and long-standing 
disparities in health care access, treatment, and outcomes.
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, this concludes my prepared statement. I would be 
happy to answer questions at the appropriate time.
    Thank you.
    [The prepared statement of Ms. Clowers follows:]
                Prepared Statement of A. Nicole Clowers
                           February 24, 2021
                               highlights
    Highlights of GAO-21-396T, a testimony before the Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    As of February 17, 2021, the United States had about 27 million 
cumulative reported cases of COVID-19 and more than 486,000 reported 
deaths, according to the Centers for Disease Control and Prevention. 
The country also continues to experience serious economic 
repercussions.
    Five relief laws, including the CARES Act, have appropriated $3.1 
trillion to address the public health and economic threats posed by 
COVID-19. The CARES Act also includes a provision for GAO to report on 
its on-going monitoring and oversight efforts related to COVID-19.
    This testimony summarizes GAO's insights from its oversight of the 
Federal Government's pandemic response in a series of comprehensive 
reports issued from June 2020 through January 2021. In particular, the 
statement focuses on the public health response, including testing, 
vaccines and therapeutics, medical supply chain, health disparities, 
and health data.
    GAO reviewed data, documents, and guidance from Federal agencies 
about their activities and interviewed Federal and State officials and 
stakeholders for the series of reports on which this testimony is 
based. See https://www.gao.gov/coronavi- rus/.
What GAO Recommends
    GAO has made 44 recommendations for agencies and 4 matters for 
Congressional consideration in its comprehensive series of bimonthly 
reports on the Federal response to COVID-19 over the last year. GAO 
will issue its next report in this series in March 2021.
  covid-19.--key insights from gao's oversight of the federal public 
                            health response
What GAO Found
    More than a year after the United States declared COVID-19 a public 
health emergency, the pandemic continues to result in catastrophic loss 
of life and substantial damage to the economy. It also continues to lay 
bare the fragmented nature of our public health sector, the fragility 
of the Nation's medical supply chain, and long-standing disparities in 
health care access, treatment, and outcomes.
    GAO has made 44 recommendations to Federal agencies. Of these 
recommendations, 16 relate to the following public health topics:
    COVID-19 Testing.--GAO has made 2 recommendations to date to 
improve the Federal Government's efforts in diagnostic testing for 
COVID-19, critical to controlling the spread of the virus. In January 
2021, GAO recommended that the Department of Health and Human Services 
(HHS) develop and make publicly available a comprehensive National 
COVID-19 testing strategy.
    Vaccines and Therapeutics.--GAO has made 2 recommendations to 
improve transparency, communication, and coordination around the 
Government's efforts to develop, manufacture, and distribute vaccines 
and therapeutics to prevent and treat COVID-19. For example, in 
September 2020, GAO recommended that HHS establish a time frame for a 
National vaccine distribution and administration plan that follows best 
practices, with Federal and non-Federal coordination.
    Medical Supply Chain.--GAO has made 7 recommendations for the 
Federal Government to respond to vulnerabilities highlighted by the 
pandemic in the Nation's medical supply chain, including limitations in 
personal protective equipment and other supplies necessary to treat 
individuals with COVID-19. In January 2021, GAO recommended that HHS 
establish a process for regularly engaging with Congress and non-
Federal stakeholders as the agency refines and implements its supply 
chain strategy for pandemic preparedness, to include the role of the 
Strategic National Stockpile.
    COVID-19 Health Disparities.--GAO has made 3 recommendations to 
improve COVID-19 data by race and ethnicity, as available data show 
communities of color bear a disproportionate burden of COVID-19 
positive tests, cases, hospitalizations, and deaths. In September 2020, 
GAO recommended that the Centers for Disease Control and Prevention 
involve key stakeholders to help ensure the complete and consistent 
collection of demographic data.
    COVID-19 Data.--GAO has made 2 recommendations to improve the 
collection of data needed to respond to COVID-19 and prepare for future 
pandemics. GAO recommended in January 2021 that HHS establish an expert 
committee to help systematically define and ensure the collection of 
standardized data across the relevant Federal agencies and related 
stakeholders; the absence of such data hinders the ability of the 
Government to respond to COVID-19, communicate the status of the 
pandemic with citizens, or prepare for future pandemics.
    Although the responsible agencies generally agreed with the 
majority of the 16 recommendations, only 1 has been fully implemented. 
GAO maintains that implementing these recommendations will improve the 
Federal Government's public health response and ability to recover as a 
Nation.
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee: Thank you for the opportunity to discuss the Federal 
Government's on-going response to Coronavirus Disease 2019 (COVID-19). 
The pandemic has resulted in catastrophic loss of life and substantial 
damage to the global economy, and to the stability and security of our 
Nation. As of February 17, 2021, the United States had more than 27 
million reported cases and 486,000 reported deaths, according to the 
Centers for Disease Control and Prevention (CDC).
    The country also continues to experience serious economic 
repercussions. In January 2021, there were more than 10.1 million 
unemployed individuals, compared to nearly 5.8 million individuals in 
January 2020.
    Over the past 2 weeks, case counts and deaths have slowed since 
peaking in January 2021. But public health officials warn that we 
should not become complacent in our efforts, as new variants of virus 
appear across the country. Until the country better contains the spread 
of the virus, the pandemic will continue to lay bare the fragmented 
nature of our public health sector, the fragility of our medical supply 
chain, and long-standing disparities in health care access, treatment, 
and outcomes, as well as impeding a more robust economic recovery.
    In response to this on-going public health emergency, and the 
resulting economic challenges, Congress and the administration have 
taken a series of actions to protect the health and well-being of 
Americans. Notably, in March 2020, Congress passed, and the President 
signed into law, the CARES Act, which provided over $2 trillion in 
emergency assistance and health care response for individuals, 
families, and businesses affected by COVID-19.\1\ To date, the 5 
enacted COVID-19 relief laws, including the CARES Act, have 
appropriated $3.1 trillion.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 116-136, 134 Stat. 281 (2020). As of January 1, 
2021, 4 other relief laws were also enacted in response to the COVID-19 
pandemic: The Consolidated Appropriations Act, 2021, Pub. L. No. 116-
260, 134 Stat. 1182 (2020); Paycheck Protection Program and Health Care 
Enhancement Act, Pub. L. No. 116-139, 134 Stat. 620 (2020); Families 
First Coronavirus Response Act, Pub. L. No. 116-127, 134 Stat. 178 
(2020); and the Coronavirus Preparedness and Response Supplemental 
Appropriations Act, 2020, Pub. L. No. 116-123, 134 Stat. 146. We refer 
to these 5 laws, each of which was enacted as of January 1, 2021, and 
provides appropriations for the COVID-19 response, as ``COVID-19 relief 
laws,'' and the funding appropriated by these laws as ``COVID-19 relief 
funds.'' In January 2020, the novel coronavirus was declared a public 
health emergency.
---------------------------------------------------------------------------
    The CARES Act includes a provision for us to conduct monitoring and 
oversight of the Federal Government's efforts to prepare for, respond 
to, and recover from the COVID-19 pandemic, including issuance of bi-
monthly reports to Congress.\2\ We are to report on, among other 
things, the effect of the pandemic on public health and the economy. To 
date, our work in response to this provision includes 5 comprehensive 
issued reports from June 2020 through January 2021; we will issue our 
next Government-wide report on the Federal response to the COVID-19 
pandemic at the end of March.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 116-136,  19010, 134 Stat. at 579-81.
---------------------------------------------------------------------------
    In our 5 reports we have made 44 recommendations to Federal 
agencies, and raised 4 matters for Congressional consideration to 
improve the Federal Government's response efforts.\3\ Our 
recommendations are tailored to specific Federal programs and 
initiatives, and, if implemented, will strengthen the efficiency, 
effectiveness, and accountability of these Federal efforts. We urge the 
new Congress and administration to consider these recommendations as 
well as the principles of an effective Federal response that we have 
previously identified.
---------------------------------------------------------------------------
    \3\ See https://www.gao.gov/coronavirus/ for our comprehensive 
reports and other COVID-19-related reports.
---------------------------------------------------------------------------
    My comments today will summarize the key findings and 
recommendations from our oversight of the Federal Government's 
continued efforts to respond to and recover from the COVID-19 pandemic. 
I will focus my comments on our findings related to the public health 
response, including COVID-19 testing, vaccines and therapeutics, the 
medical supply chain, COVID-19 health disparities, and COVID-19 health 
data.
    We conducted the work on which this statement is based, which was 
completed on January 15, 2021, with updates to Federal agency data, as 
available, in accordance with generally accepted Government auditing 
standards.\4\ Those standards require that we plan and perform the 
audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \4\ We reviewed data, documents, and guidance from Federal agencies 
about their activities and interviewed Federal and State officials and 
stakeholders for the series of reports on which this testimony is 
based.
---------------------------------------------------------------------------
 key insights from gao's oversight of the federal response to covid-19
    In February 2020, at the outset of the COVID-19 pandemic, we 
identified key principles that are essential for an effective Federal 
response.\5\ Specifically, based on our prior work examining responses 
to large-scale catastrophic disasters or public health emergencies, we 
emphasized the need for Federal agencies to coordinate, establish, and 
define roles and responsibilities among those responding to the crisis, 
and to provide clear, consistent communication. In June 2020, we 
reinforced the importance of these key principles and also emphasized 
the need to collect and analyze data to inform decision making and 
future preparedness; establish clear goals; establish mechanisms for 
accountability and transparency to help ensure program integrity; and 
address fraud risks. Incorporating these principles into on-going or 
new COVID-19-related programs and policies will improve the 
effectiveness of the Federal Government's response.
---------------------------------------------------------------------------
    \5\ A. Nicole Clowers, Managing Director of GAO's Health Care team, 
Roundtable: Are We Prepared? Protecting the U.S. from Global Pandemics, 
testimony before the Senate Committee on Homeland Security and 
Governmental Affairs. 116th Cong., 2d sess., Feb. 12, 2020.
---------------------------------------------------------------------------
    Of the 44 recommendations we have made to date, 16 fall into one of 
the following public health areas: COVID-19 testing, vaccines and 
therapeutics, medical supply chain, COVID-19 health disparities, and 
COVID-19 health data.
COVID-19 Testing
    Diagnostic testing for COVID-19 is critical to controlling the 
spread of the virus, according to CDC. We have made 2 recommendations 
to improve the Federal Government's COVID-19 testing efforts, as shown 
in table 1. Most recently, in January 2021, we found that the 
Department of Health and Human Services (HHS) had not issued a 
comprehensive and publicly available National testing strategy. For 
example, stakeholders involved in the response efforts told us that 
they either were unaware of the National strategy or did not have a 
clear understanding of it. Without a comprehensive, publicly-available 
National strategy, HHS is at risk of key stakeholders and the public 
lacking crucial information to support an informed and coordinated 
testing response.
    In January 2021, we recommended that HHS develop and make publicly 
available a comprehensive National COVID-19 testing strategy that 
incorporates all 6 characteristics of an effective National strategy. 
Such a strategy could build upon existing strategy documents that HHS 
has produced for the public and Congress to allow for a more 
coordinated pandemic testing approach. (See table 1.)

       TABLE 1: GAO'S RECOMMENDATIONS RELATED TO COVID-19 TESTING
------------------------------------------------------------------------
              Recommendation                           Status
------------------------------------------------------------------------
The Secretary of Health and Human Services  Open. HHS partially
 (HHS) should develop and make publicly      concurred with our
 available a comprehensive National COVID-   recommendation. HHS agreed
 19 testing strategy that incorporates all   that the Department should
 6 characteristics of an effective           take steps to more directly
 National strategy. Such a strategy could    incorporate some of the
 build upon existing strategy documents      elements of an effective
 that HHS has produced for the public and    National strategy, but
 Congress to allow for a more coordinated    expressed concern that
 pandemic testing approach (January 2021     producing such a strategy
 report).                                    at this time could be
                                             overly burdensome on the
                                             Federal, State, and local
                                             entities that are
                                             responding to the pandemic,
                                             and that a plan would be
                                             outdated by the time it was
                                             finalized or potentially
                                             rendered obsolete by the
                                             rate of technological
                                             advancement.
The Secretary of Health and Human Services  Open. HHS concurred with our
 should ensure that the director of the      recommendation, noting that
 Centers for Disease Control and             CDC officials typically
 Prevention (CDC) clearly discloses the      consult with scientific
 scientific rationale for any change to      stakeholders when issuing
 testing guidelines at the time the change   guidance and that HHS will
 is made (November 2020 report).             continue to evaluate its
                                             processes in this area.
------------------------------------------------------------------------
Source GAO/GAO-21-396T.

Vaccines and Therapeutics
    Multiple Federal agencies support the development and 
manufacturing, and now distribution, of vaccines and therapeutics to 
prevent and treat COVID-19. Agencies involved in the Federal 
partnership (formerly called Operation Warp Speed) include the 
Department of Defense (DOD) and HHS, including HHS's Biomedical 
Advanced Research and Development Authority (BARDA), Food and Drug 
Administration (FDA), CDC, and the National Institutes of Health (NIH). 
DOD is supporting HHS in Nation-wide distribution efforts of any 
licensed or authorized vaccine. As of February 18, 2021, 2 of the 6 
Operation Warp Speed vaccine candidates had been authorized by FDA for 
emergency use, and vaccine distribution and vaccine administration 
began in December 2020. A third company submitted a request for 
emergency use authorization for its vaccine to FDA on February 4, 2021.
    In addition, the Federal Emergency Management Agency (FEMA) 
provides funding to States (including the District of Columbia), Tribes 
and territories, for expenses related to COVID-19 vaccination. In 
accordance with a January 21, 2021, Presidential memorandum, FEMA will 
reimburse States, territorial, local, and Tribal governments for costs 
associated with vaccine distribution and administration through the 
Disaster Relief Fund, which had a balance of more than $12.2 billion, 
as of February 7, 2021, according to FEMA.\6\ The agency has also 
deployed staff across the Nation to support vaccine centers with 
Federal personnel and technical assistance.
---------------------------------------------------------------------------
    \6\ White House, Memorandum to Extend Federal Support to Governors' 
Use of the National Guard to Respond to COVID-19 and to Increase 
Reimbursement and Other Assistance Provided to States, (Washington, DC: 
Jan. 21, 2021), accessed on February 4, 2021, https://
www.whitehouse.gov/briefing-room/presidential-actions/2021/01/21/
extend-federal-support-to-governors-use-of-national-guard-to-respond-
to-covid-19-and-to-increase-reimbursement-and-other-assistance-
provided-to-states/. According to FEMA, as of February 7, 2021, it had 
provided more than $2.29 billion to 32 States, the District of 
Columbia, 3 territories, and 2 Tribes for expenses related to COVID-19 
vaccination efforts.
---------------------------------------------------------------------------
    As shown in table 2, we have made 2 recommendations to improve the 
Government's efforts related to vaccines and therapeutics. In 
particular, in September 2020, we reported that clarity on the Federal 
Government's plans for distributing and administering vaccine, as well 
as timely, clear, and consistent communication to stakeholders and the 
public about those plans, is essential. In September 2020, we 
recommended that HHS, with the support of DOD, establish a time frame 
for documenting and sharing a National plan for distributing and 
administering COVID-19 vaccines that, among other things, outlines an 
approach for how efforts would be coordinated across Federal agencies 
and non-Federal entities.
    In our January 2021 report, we noted that vaccine distribution and 
administration had, as of January, fallen short of expectations. We 
reiterated the importance of fully implementing our September 2020 
recommendation. (See table 2.)

     TABLE 2: GAO'S RECOMMENDATIONS RELATED TO COVID-19 VACCINES AND
                              THERAPEUTICS
------------------------------------------------------------------------
              Recommendation                           Status
------------------------------------------------------------------------
The Secretary of Health and Human Services  Closed. FDA developed a
 should direct the Commissioner of the       process for working with
 Food and Drug Administration (FDA) to       drug sponsors to disclose
 identify ways to uniformly disclose to      its scientific review
 the public the information from FDA's       documents for therapeutic
 scientific review of safety and             EUAs and has released this
 effectiveness data--similar to the public   information for the EUAs it
 disclosure of the summary safety and        has already issued. For
 effectiveness data supporting the           vaccine EUAs, FDA is
 approval of new drugs and biologics--when   holding public Vaccines and
 issuing emergency use authorizations        Related Biological Products
 (EUA) for therapeutics and vaccines, and,   Advisory Committee
 if necessary, seek the authority to         meetings, through which FDA
 publicly disclose such information          and sponsors are making
 (November 2020 report on vaccine and        information from scientific
 therapeutics).                              reviews publicly available.
                                             The agency also released
                                             decision memos with
                                             detailed information about
                                             the agency's review of
                                             safety and effectiveness
                                             data for the 2 vaccines
                                             authorized to date.
The Secretary of Health and Human           Open. The Department of
 Services, with support from the Secretary   Health and Human Services
 of Defense, should establish a time frame   (HHS) neither agreed nor
 for documenting and sharing a National      disagreed with our
 plan for distributing and administering a   recommendation. In November
 COVID-19 vaccine and, in developing such    2020, we reported that HHS
 a plan, ensure that it is consistent with   and the Department of
 best practices for project planning and     Defense had released
 scheduling and outlines an approach for     initial planning documents
 how efforts will be coordinated across      for the distribution and
 Federal agencies and non-Federal entities   administration of potential
 (September 2020 report).                    COVID-19 vaccines, but also
                                             reported that stakeholders
                                             indicated that they would
                                             like to see additional
                                             information as planning
                                             continued.
------------------------------------------------------------------------
Source GAO Analysis/GAO-21-396T.

Medical Supply Chain
    The pandemic has highlighted vulnerabilities in the Nation's 
medical supply chain, which includes personal protective equipment and 
other supplies necessary to treat individuals with COVID-19. Ensuring 
the availability of medical supplies to meet the continuing needs of 
State, local, Tribal, and territorial governments, as well as point-of-
care providers, such as nursing homes, has been a persistent challenge 
for Federal agencies. Continued supply chain constraints may also 
hamper HHS's goal of building a 90-day supply of certain key items in 
the Strategic National Stockpile (SNS).
    Multiple Federal agencies have responsibility for coordinating and 
managing the medical supply chain, and HHS and FEMA lead the Federal 
response through the Unified Coordination Group.\7\ HHS is designated 
as the lead agency to address the public health and medical portion of 
the response and FEMA is designated as the lead agency for coordinating 
the overall Federal response. The agencies are responsible for 
supporting and informing decisions made by the Unified Coordination 
Group regarding the allocation, distribution, and procurement of COVID-
related supplies (see fig. 1).
---------------------------------------------------------------------------
    \7\ The Unified Coordination Group (UCG) is the primary field 
entity for the Federal response. The group integrates diverse Federal 
authorities and capabilities and coordinates Federal response and 
recovery operations. The UCG is jointly led by the administrator of 
FEMA, the assistant secretary for preparedness and response, and a 
representative of CDC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We have made 7 recommendations to improve the Federal Government's 
efforts to address medical supply challenges highlighted by the 
pandemic (see table 3.) In our January 2021 report, we focused on the 
role of the SNS, which is an important piece of HHS's strategy to 
improve the medical supply chain to enhance pandemic response 
capabilities and was being finalized during the course of our review. 
However, the Department has yet to develop a process for engaging about 
the strategy with key non-Federal stakeholders that have a shared role 
for providing supplies during a pandemic, such as State and territorial 
governments and the private sector. Our work has noted the importance 
of directly and continuously involving key stakeholders, including 
Congress, in the development of successful agency reforms and in 
helping to harness ideas, expertise, and resources.
    In January 2021, we recommended that HHS establish a process for 
regularly engaging with Congress and non-Federal stakeholders--
including State, local, Tribal, and territorial governments and private 
industry--as the agency refines and implements its supply chain 
strategy for pandemic preparedness, to include the role of the SNS.

 TABLE 3: GAO RECOMMENDATIONS RELATED TO MEDICAL SUPPLY CHAIN CHALLENGES
------------------------------------------------------------------------
              Recommendation                           Status
------------------------------------------------------------------------
To improve the Nation's response to and     Open. HHS generally
 preparedness for pandemics, the assistant   concurred with our
 secretary for preparedness and response     recommendation, and added
 should establish a process for regularly    that improving the pandemic
 engaging with Congress and non-Federal      response capabilities of
 stakeholders--including State, local,       State, local, Tribal, and
 Tribal, and territorial governments and     territorial governments is
 private industry--as the Department of      a priority.
 Health and Human Services (HHS) refines
 and implements a supply chain strategy
 for pandemic preparedness, to include the
 role of the Strategic National Stockpile
 (January 2021 report).
The assistant secretary for preparedness    Open. HHS concurred with our
 and response, in coordination with the      recommendation and stated
 appropriate offices within HHS, should      that it has taken steps to
 accurately report data in the Federal       manually identify its other
 procurement database system and provide     transaction agreements in
 information that would allow the public     its contract writing system
 to distinguish between spending on other    to allow the public to
 transaction agreements and procurement      distinguish between
 contracts (January 2021 report).            spending on agreements and
                                             procurement contracts in
                                             the Federal Procurement
                                             Data System--Next
                                             Generation. HHS also plans
                                             to update its contract
                                             writing system.
The Commissioner of the Food and Drug       Open. HHS neither agreed nor
 Administration (FDA) should, as the         disagreed with our
 agency makes changes to its collection of   recommendation. In HHS's
 drug manufacturing data, ensure the         response, FDA said that as
 information obtained is complete and        the agency continues
 accessible to help it identify and          efforts to enhance relevant
 mitigate supply chain vulnerabilities,      authorities and close data
 including by working with manufacturers     gaps, it will consider
 and other Federal agencies (e.g., the       GAO's recommendation.
 Departments of Defense and Veterans
 Affairs), and, if necessary, seek
 authority to obtain complete and
 accessible information (January 2021
 report).
The Secretary of Health and Human           Open. HHS disagreed with our
 Services, in coordination with the          recommendation at the time
 administrator of the Federal Emergency      the report was issued and
 Management Agency (FEMA)--who head          noted, among other things,
 agencies leading the COVID-19 response      the work that the
 through the Unified Coordination Group--    Department had done to
 should immediately document roles and       manage the medical supply
 responsibilities for supply chain           chain and increase supply
 management functions transitioning to the   availability.
 Department of Health and Human Services,
 including continued support from other
 Federal partners, to ensure sufficient
 resources exist to sustain and make the
 necessary progress in stabilizing the
 supply chain, and address emergent supply
 issues for the duration of the COVID-19
 pandemic (September 2020 report).
The Secretary of Health and Human Services  Open. HHS disagreed with our
 in coordination with the administrator of   recommendation at the time
 FEMA--who head agencies leading the COVID-  the report was issued and
 19 response through the Unified             noted, among other things,
 Coordination Group--should further          the work that the
 develop and communicate to stakeholders     Department had done to
 plans outlining specific actions the        manage the medical supply
 Federal Government will take to help        chain and increase supply
 mitigate remaining medical supply gaps      availability.
 necessary to respond to the remainder of
 the pandemic, including through the use
 of Defense Production Act authorities
 (September 2020 report).
The Secretary of Health and Human           Open. HHS disagreed with our
 Services--who heads one of the agencies     recommendation at the time
 leading the COVID-19 response through the   the report was issued and
 Unified Coordination Group--consistent      noted, among other things,
 with the Department's roles and             the work that the
 responsibilities, should work with          Department had done to
 relevant Federal, State, territorial, and   manage the medical supply
 Tribal stakeholders to devise interim       chain and increase supply
 solutions, such as systems and guidance     availability.
 and dissemination of best practices, to
 help States enhance their ability to
 track the status of supply requests and
 plan for supply needs for the remainder
 of the COVID-19 pandemic response
 (September 2020 report).
The administrator of FEMA--who heads one    Open. The Department of
 of the agencies leading the COVID-19        Homeland Security, on
 response through the Unified Coordination   behalf of FEMA, disagreed
 Group--consistent with the Department's     with our recommendation at
 roles and responsibilities, should work     the time the report was
 with relevant Federal, State,               issued and noted, among
 territorial, and Tribal stakeholders to     other things, the work that
 devise interim solutions, such as systems   the Department had done to
 and guidance and dissemination of best      manage the medical supply
 practices, to help States enhance their     chain and increase supply
 ability to track the status of supply       availability
 requests and plan for supply needs for
 the remainder of the COVID-19 pandemic
 response (September 2020 report).
------------------------------------------------------------------------
Source GAO/GAO-21-396T.

COVID-19 Health Disparities
    Available data from CDC and others demonstrate disparities in 
COVID-19 indicators by race and ethnicity, with communities of color 
bearing a disproportionate burden of COVID-19 cases, hospitalizations, 
and deaths. For example, the available data on COVID-19 
hospitalizations show that as of February 12, 2021, the rate of COVID-
19-associated hospitalizations for non-Hispanic American Indian/Alaska 
Native persons is 3.7 times the rate for non-Hispanic White persons, 
when adjusting for age.\8\ Available data from CDC on the percentage of 
positive COVID-19 tests and on recipients of COVID-19 vaccinations also 
demonstrate racial and ethnic disparities.
---------------------------------------------------------------------------
    \8\ Hospitalization data through January 30, 2021, are from CDC's 
COVID-19-Associated Hospitalization Surveillance Network (COVID-NET), 
which collects data on COVID-19 hospitalizations that are confirmed by 
laboratory testing from select counties in 14 States, representing 10 
percent of the U.S. population. It includes data from hospitals in 
select counties in California, Colorado, Connecticut, Georgia, Iowa, 
Maryland, Michigan, Minnesota, New Mexico, New York, Ohio, Oregon, 
Tennessee, and Utah. American Indian/Alaska Native, Asian, and Black, 
and White persons were non-Hispanic. Hispanic or Latino persons might 
be of any race.
    Age-adjusted case, hospitalization, and death rates were 
standardized to the 2019 U.S. intercensal population. Age-adjusted 
rates, which hold constant the age distributions between different 
population groups, allow researchers to focus analyses on other 
demographics, such as race and ethnicity, without being concerned about 
differences that are due to different age distributions of the racial 
and ethnic groups. Age-adjusted rates are particularly important to 
consider for indicators of COVID-19 because persons in older age groups 
are more likely to experience hospitalizations and racial and ethnic 
groups have different age distributions in the U.S. population.
---------------------------------------------------------------------------
    Testing.--As of January 7, 2021, among COVID-19 diagnostic test 
        results reported to CDC from laboratories in 48 jurisdictions, 
        the percent of tests that were positive by each racial and 
        ethnic group was: 17.9 percent for Hispanic or Latino persons, 
        13.2 percent for non-Hispanic Native Hawaiian or Other Pacific 
        Islander persons, 12.4 percent for non-Hispanic American 
        Indian/Alaska Native, and 11.2 percent for non-Hispanic Black 
        persons, compared to 9.5 percent for non-Hispanic White 
        persons.\9\
---------------------------------------------------------------------------
    \9\ Department of Health and Human Services, Centers for Disease 
Control and Prevention. Report to Congress on Paycheck Protection 
Program and Health Care Enhancement Act Disaggregated Data on U.S. 
Coronavirus Disease 2019 (COVID-19) Testing, 8th 30-Day Update (January 
2021). CDC data represent viral COVID-19 laboratory test results from 
laboratories in the United States, including commercial laboratories, 
public health laboratories, and other testing locations from 48 
jurisdictions. The data represent total laboratory tests, not 
individual people, and exclude antibody and antigen tests.
---------------------------------------------------------------------------
    Vaccinations.--Data showed disparities by race and ethnicity in 
        vaccine recipients who received at least one dose whose race 
        and ethnicity was known as of February 8, 2021:
    <bullet> 62.9 percent were non-Hispanic White (compared to 60.1 
        percent of the U.S. population),
    <bullet> 8.9 percent were Hispanic or Latino (compared to 18.5 
        percent of the U.S. population), and
    <bullet> 5.9 percent were non-Hispanic Black (compared to 13.4 
        percent of the U.S. population).\10\
---------------------------------------------------------------------------
    \10\ CDC COVID Data Tracker, https://covid.cdc.gov/covid-data-
tracker/#vaccination-demographic, accessed February 9, 2021.
---------------------------------------------------------------------------
    While CDC collects and makes race and ethnicity data on indicators 
of COVID-19 available to the public, we found gaps in the data for 
COVID-19 indicators. For example, as of February 2, 2021, race and 
ethnicity was missing for 48.8 percent of COVID-19 cases with case 
report forms received by CDC, or 61.5 percent of total cases 
reported.\11\ Additionally, as of February 8, 2021, data collected from 
States and jurisdictions on race and ethnicity for COVID-19 vaccine 
recipients were missing for almost half (45.6 percent) of recipients 
who received at least 1 dose.
---------------------------------------------------------------------------
    \11\ CDC officials reported that the number of cases with case 
report forms received by CDC is less than the total number of reported 
cases because there is generally a 2-week lag from when total cases are 
reported by State and jurisdictional health departments to when CDC 
receives the case report forms. Total cases reported by CDC include 
both probable and confirmed cases as reported by States or 
jurisdictions. A probable case does not have confirmatory laboratory 
evidence, but meets certain other criteria.
---------------------------------------------------------------------------
    We made 3 recommendations to address the gaps in race and ethnicity 
data (see table 4). CDC agreed with the recommendations.

  TABLE 4: GAO'S RECOMMENDATIONS RELATED TO COVID-19 HEALTH DISPARITIES
------------------------------------------------------------------------
              Recommendation                           Status
------------------------------------------------------------------------
As the Center for Disease Control and       Open. CDC agreed with our
 Prevention (CDC) implements its COVID-19    recommendation. In response
 Response Health Equity Strategy, the        to our recommendation, CDC
 director of CDC should determine whether    stated in January 2021 that
 having the authority to require States      the agency is committed to
 and jurisdictions to report race and        having discussions, both
 ethnicity information for COVID-19 cases,   internally and with
 hospitalizations, and deaths is necessary   stakeholders, to assess
 for ensuring more complete data and, if     whether having and
 so, seek such authority from Congress       implementing authority to
 (September 2020 report).                    require States and
                                             jurisdictions to report
                                             race and ethnicity
                                             information for COVID-19
                                             cases would result in
                                             improved reporting.
As CDC implements its COVID-19 Response     Open. CDC agreed with our
 Health Equity Strategy, the director of     recommendation. In response
 CDC should involve key stakeholders to      to our recommendation, CDC
 help ensure the complete and consistent     stated in January 2021 that
 collection of demographic data (September   the agency is working with
 2020 report).                               State and local health
                                             departments, in addition to
                                             other stakeholders, to
                                             accelerate the reporting of
                                             demographic data and
                                             improve data quality,
                                             including for information
                                             on race and ethnicity.
As CDC implements its COVID-19 Response     Open. CDC agreed with our
 Health Equity Strategy, the director of     recommendation. In response
 CDC should take steps to help ensure        to our recommendation, CDC
 CDC's ability to comprehensively assess     noted in October 2020 that
 the long-term health outcomes of persons    the agency is convening a
 with COVID-19, including by race and        team to develop a plan to
 ethnicity (September 2020 report).          monitor the long-term
                                             health outcomes of persons
                                             with COVID-19 by
                                             identifying health care
                                             surveillance systems that
                                             can electronically report
                                             health conditions to State
                                             and local health
                                             departments.
------------------------------------------------------------------------
Source GAO/GAO-21-396T.

COVID-19 Data Collection and Standardization
    The Federal Government does not have a process to help 
systematically define and ensure the collection of standardized data 
across relevant Federal agencies and related stakeholders to help 
respond to COVID-19, communicate the status of the pandemic with 
citizens, or prepare for future pandemics. As a result, COVID-19 
information that is collected and reported by States and other entities 
to the Federal Government is often incomplete and inconsistent.
    The lack of complete and consistent data limits HHS's and others' 
ability to monitor trends in the burden of the pandemic across States 
and regions, make informed comparisons between such areas, and assess 
the impact of public health actions to prevent and mitigate the spread 
of COVID-19. Further, incomplete and inconsistent data have limited 
HHS's and others' ability to prioritize the allocation of health 
resources in specific geographic areas or among certain populations 
most affected by the pandemic. For example, HHS's data on COVID-19 in 
nursing homes do not capture the first 4 months of the pandemic, 
because the agency did not require nursing homes to report until May 8, 
2020. The gaps in reporting limits the usefulness of data in helping to 
understand the effects of COVID-19 in nursing homes. GAO has made 2 
recommendations to improve the collection of data needed to respond to 
COVID-19 and prepare for future pandemics.
    In January 2021, we recommended that HHS immediately establish an 
expert committee comprised of knowledgeable health care professionals 
from the public and private sectors, academia, and nonprofits or use an 
existing one to systematically review and inform the alignment of on-
going data collection and reporting standards for key health 
indicators.
    In addition, in September 2020, we recommended that HHS, in 
consultation with CMS and CDC, develop a strategy to capture more 
complete data on COVID-19 cases and deaths in nursing homes 
retroactively back to January 1, 2020.
    In conclusion, we have made 16 recommendations to improve the 
Government's pandemic response in the areas of COVID-19 testing, 
vaccines and therapeutics, medical supply chain, COVID-19 health 
disparities, and COVID-19 health data. Most of the recommendations have 
not been implemented. We maintain that doing so would improve the 
Government's response. We will continue to monitor the implementation 
of our past recommendations as part of our on-going oversight of the 
Government's COVID-19 response and recovery efforts on behalf of 
Congress.
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, this concludes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.

    Chairman Thompson. Thank you very much.
    Now I ask Dr. Watson to summarize her statement for 5 
minutes.

 STATEMENT OF CRYSTAL R. WATSON, DR PH, SENIOR SCHOLAR, JOHNS 
 HOPKINS CENTER FOR HEALTH SECURITY, AND ASSISTANT PROFESSOR, 
   DEPARTMENT OF ENVIRONMENTAL HEALTH AND ENGINEERING, JOHNS 
           HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH

    Ms. Watson. Mr. Chairman, Ranking Member Katko, and Members 
of the committee, thank you very much for the opportunity to 
testify to you today.
    One year ago the director of our center, Dr. Tom Inglesby, 
testified to this committee about the grave threat of COVID-19 
and the need for a robust response. There was significant 
uncertainty at that time about how the pandemic would play out.
    Today we have answers to many of the early unknowns and are 
now vaccinating millions of Americans per day, but on balance 
our National response has not met its potential and many 
thousands of deaths have occurred unnecessarily as a result.
    As has been said, we have just reached a terrible total of 
half a million deaths Nation-wide. More Americans have now died 
from COVID-19 than in all 20th Century wars combined. Despite 
having only 4 percent of the world's population, our country 
has contributed 25 percent of the global total of cases and 21 
percent of reported deaths. These are just the officially 
reported statistics. The true burden of COVID-19 is unknown, 
but is estimated to be much higher than what is recorded.
    As has been stated already, the consequences of the 
pandemic have been appalling unequal. When adjusted for age, 
people of color and indigenous people have been over twice as 
likely to die from COVID.
    Yet while the last year has been a nightmare, there are now 
some glimmers of hope. The number of U.S. cases, 
hospitalizations, and deaths are all dropping rapidly from the 
winter peak. I expect that this trend will continue due to a 
combination of mitigation measures and vaccinations. While the 
vaccine roll-out has been anything but smooth, it is improving. 
The emergence of consequential SARS-CoV variants of concern are 
troubling, but I am hopeful that vaccination and current 
mitigation measures will prevent a severe resurgence in the 
United States this spring. However, it is something that we 
obviously have to watch very closely.
    Vaccination is the centerpiece of the current U.S. 
response, but it is also important to note that low- and 
middle-income countries are mostly still waiting for a vaccine. 
This is a humanitarian crisis for those countries, and it also 
represents a significant risk for the world because it could 
prolong the pandemic.
    Now, I would like to take a few moments to briefly 
highlight some of the successes and failure of the U.S. 
response over the last year. First, the successes. It is so 
important to recognize that the response represents collective 
work from tens of thousands of people across the country. We 
should be truly thankful for the heroic efforts of those who 
have worked to reduce the [inaudible]. Of course, the biggest 
and most visible success over the past year has been the 
development of multiple highly safe and effective vaccines and 
therapeutics. I can't emphasis enough what a technical feat 
this is.
    Now, to the challenges. Over the last year health officials 
and experts who tried to follow the evidence and protect the 
public's health, including implementing masking, contact 
tracing, and business restrictions, have faced harassment and 
political pressure and have at times been stripped of or 
resigned their positions. In addition, risk communication has 
been severely challenging in the face of high-level denial of 
the severity of the pandemic and overt politicization of public 
health measures intended to keep people safe. These failings 
have allowed the virus to flourish.
    Historically, our public health agencies have not been 
sufficiently resourced to respond to a crisis of this 
magnitude. As just one example, during this response only $200 
million was provided to States to support distribution and 
administration of vaccines during the largest max vaccination 
campaign in our Nation's history.
    Support for our health care response has been similarly 
dismal. States often had to go it alone when procuring 
important things like ventilators, testing supplies, and PPE 
for front-line health workers.
    Finally, the withdrawal from the WHO and withholding of 
contributions from COVAX both weakened our position as a global 
health security leader and limited global vaccination efforts.
    With the new administration and Congress in place I am 
hopeful that our response to the rest of the pandemic will be 
much more evidence-based, coordinated, and effective. The 
American Rescue Plan currently being considered by Congress 
would provide significant support for the response, as well as 
authorization for new programs that will begin our investment 
in future preparedness. I look forward to the passage of this 
bill and better days ahead.
    This concludes my testimony. I am grateful to the committee 
for inviting me and would be happy to take questions.
    Thank you.
    [The prepared statement of Ms. Watson follows:]
                Prepared Statement of Crystal R. Watson
                           February 24, 2021
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, thank you for the opportunity to speak with you today about 
the COVID-19 pandemic.
    My name is Crystal Watson. I am a senior scholar at the Johns 
Hopkins Center for Health Security and an assistant professor in the 
Johns Hopkins Bloomberg School of Public Health. The opinions expressed 
herein are my own and do not necessarily reflect the views of The Johns 
Hopkins University. Today, I will provide comments on the status of the 
COVID-19 pandemic and the U.S. Government's response efforts to date, 
as well as the major successes and failures of the last year, and what 
we should look forward to, and prepare for in the coming weeks and 
months.
                 the covid-19 pandemic: a retrospective
    One year ago, the director of our Center, Dr. Tom Inglesby, 
testified to this committee about the grave threat of COVID-19 and the 
need for a robust Federal, State, and local response. Dr. Inglesby's 
warning about the need for resources and coordination was made amidst 
significant uncertainty about how the pandemic would play out. At that 
time, there were only 100 recognized cases of COVID-19 and 6 deaths 
reported here in the United States. We did not know how severe the 
pandemic would be, what mitigation measures would be most effective at 
reducing transmission, whether we would be able to develop vaccines in 
time to prevent illness and save lives, and whether masks would be a 
significant and socially accepted means of limiting transmission, among 
other unknowns. What we did have at the time was a strong sense that 
the COVID-19 pandemic could be a once in a generation event, and that 
great attention and effort would be needed to prevent the worst-case 
outcomes.
    One year later, thanks to the efforts of scientific and public 
health leaders, we have answers to many of the open questions of early 
2020 and are beginning to vaccinate Americans in large numbers. 
Significantly though, we also have evidence that our National response 
did not meet its potential and that many thousands of unnecessary 
deaths have occurred as a result.
    As of February 21, 2021, the world has now surpassed 111 million 
reported cases and 2.4 million reported deaths. In the United States 
alone, we have just reached a terrible cumulative total of half a 
million deaths Nation-wide and about 30 million cases.\1\ More 
Americans have now died from COVID-19 than in WWI, WWII, Vietnam, 
Korea, and Gulf wars combined.\2\
---------------------------------------------------------------------------
    \1\ Johns Hopkins Coronavirus Resource Center. https://
coronavirus.jhu.edu/map.html.
    \2\ Hedges C. What every person should know about war. The New York 
Times. July 6, 2003. https://www.nytimes.com/2003/07/06/books/chapters/
what-every-person-should-know-about-
war.html#:?:text=In%20the%20twentieth%20century%2C%20approximately,148%2
0in%20the%20- Gulf%20War.
---------------------------------------------------------------------------
    For the last year, the United States has held the dubious 
distinction of leading the world in COVID-19 cases. Despite having only 
4 percent of the world's population, our country has contributed 25 
percent of the total number of reported cases and 21 percent of 
reported deaths.\3\ We are also 8th in the world in terms of deaths per 
100,000 population despite having significant success in improved 
treatment for COVID-19 patients. For those who might suggest that our 
case numbers are merely a result of more robust testing and 
surveillance capacity, it should be noted as an example that our 
Canadian neighbors, who are doing excellent surveillance, have 1/3 as 
many deaths, with only 58 per 100,000 population compared to our 152 
per 100,000.\4\
---------------------------------------------------------------------------
    \3\ Andrew S. The U.S. has 4 percent of the world's population but 
25 percent of its coronavirus cases. June 30, 2020. https://
www.cnn.com/2020/06/30/health/us-coronavirus-toll-in-numbers-june-trnd/
index.html.
    \4\ Johns Hopkins Coronavirus Resource Center. Mortality Analysis. 
https://coronavirus.jhu.edu/data/mortality.
---------------------------------------------------------------------------
    And these are just the officially reported statistics. The true 
burden of COVID-19 is unknown but is estimated to be much higher than 
what is recorded. For example, the U.S. Centers for Disease Control and 
Prevention (CDC) estimates that there are actually between 4 and 5.4 
times as many infections than what we have recognized.\5\
---------------------------------------------------------------------------
    \5\ U.S. Centers for Disease Control and Prevention. Estimated 
Disease Burden of COVID-19. Updated January 19, 2021. https://
www.cdc.gov/coronavirus/2019-ncov/cases-updates/burden.html.
---------------------------------------------------------------------------
                           beyond the numbers
    All of these numbers are so large that they are difficult to 
comprehend. The real toll of this last year cannot be captured in the 
facts and figures alone. Many of those lost to the pandemic had family, 
loved ones, friends, and coworkers whose lives have been irreparably 
altered by their passing.
    There are many also who live with the aftereffects of this disease 
even if their symptoms were initially mild. Recent findings in JAMA 
show that on the order of 30 percent of people may have ``post-COVID 
syndrome'' with persistent symptoms such as fatigue, loss of taste and 
smell, memory problems, shortness of breath, and chest pain, which 
affect the ability to perform everyday activities like household chores 
or exercise.\6\
---------------------------------------------------------------------------
    \6\ Gupta S. Almost a third of people with `mild' COVID-19 still 
battle symptoms months later, study finds. CNN Health. February 19, 
2021. https://www.cnn.com/2021/02/19/health/post-covid-syndrome-long-
haulers-gupta-wellness/index.html.
---------------------------------------------------------------------------
    Many of us have experienced loss during this last year. Every death 
witnessed by a health care worker has taken a toll. People have lost 
their jobs, livelihoods, been evicted, suffered from isolation and 
loneliness, and faced extreme burnout from the prolonged intensity of 
this crisis.
    Children have lost a year of in-person school and connection with 
peers, and families with young children are facing incredible pressures 
without adequate child care.
    The consequences of COVID-19 have been appallingly inequitable. 
People of color and indigenous people have been disproportionately 
affected by this virus. When adjusted for age, Black, Pacific Islander, 
Latino/x, and Indigenous people have all been over twice as likely to 
die from COVID-19 than White people.\7\
---------------------------------------------------------------------------
    \7\ APM Research Lab. COVID-19 Deaths by Race and Ethnicity in the 
U.S. February 4, 2021. https://www.apmresearchlab.org/covid/deaths-by-
race.
---------------------------------------------------------------------------
    The reason for this inequity is multifaceted, but we know that it 
stems from deeply-rooted problems that long pre-dated the COVID-19 
pandemic. First, there are imbedded and long-established disparities in 
access to health care, so getting quality treatment is a challenge. We 
also know that a history of abuses has resulted in loss of trust in 
Government and the health care system, which translates to lower care-
seeking behavior and vaccine acceptance among these populations. 
Furthermore, underlying health problems including diabetes and heart 
disease, which are more prevalent in minority populations because of 
systemic inequities and racism, also increase the risk for severe 
disease and death from COVID-19.
              where we are right now in the united states
    While the last year has been a nightmare, in the past few weeks 
there are now glimmers of hope. The number of U.S. cases, 
hospitalizations, and deaths are all dropping rapidly from the winter 
peak, which was the highest of the pandemic. Daily case numbers have 
fallen from a high of over 295,000 reported on January 8 to about 
72,000 as of February 20. Similarly, hospitalizations have come down 
dramatically from a National 7-day average of about 130,000 to about 
63,000; and deaths are following, having dropped from a 7-day average 
of over 3,500 per day to around 2,000 per day. This is still far too 
many deaths, but the trend is in the right direction.\8\ Ideally, we 
will need to reduce daily incidence of COVID-19 to under 10 cases per 
day per 100,000 population to truly get back to a place where we can 
effectively contact trace and manage individual cases. If we can do 
that, we will continue to drive infections down and hopefully prevent 
future surges.
---------------------------------------------------------------------------
    \8\ The COVID Tracking Project. The Data. https://
covidtracking.com/data#summary-charts. Accessed February 21, 2021.
---------------------------------------------------------------------------
    I hope and expect that we will continue to see cases decrease to a 
much lower and more manageable level due to a combination of personal 
and public health mitigation measures like masking, social distancing, 
business restrictions, and contact tracing; and an increase in 
population immunity from vaccination and prior COVID infections. As of 
February 21, about 12.9 percent of the U.S. population has been 
vaccinated,\9\ and more people in the United States have now received 
at least one dose of vaccine than the number of people reported to have 
had COVID.\10\
---------------------------------------------------------------------------
    \9\ Huang P, Carlsen A. How is the COVID-19 vaccination campaign 
going in your state? NPR Shots. February 21, 2021. https://www.npr.org/
sections/health-shots/2021/01/28/960901166/how-is-the-covid-19-
vaccination-campaign-going-in-your-state.
    \10\ U.S. Centers for Disease Control and Prevention. COVID Data 
Tracker. https://covid.cdc.gov/covid-data-tracker/#vaccinations. 
Accessed February 21, 2021.
---------------------------------------------------------------------------
    This is great news, and while the vaccine rollout has been far from 
easy or smooth, it continues to improve. I expect that vaccination 
rates will continue to increase as manufacturers deliver supplies and 
other vaccines become available for use in the near future.
    My optimism here is somewhat tempered by the emergence of SARS-CoV-
2 variants of concern. For example, the B.1.1.7 variant that has been 
shown to be more transmissible, and the B.1.351 and P.1 variants that 
have been shown to have some level of immune escape rendering 
vaccination and natural immune defenses less protective. Currently, the 
variant of most immediate concern in the United States is B.1.1.7 
because our surveillance shows that it is already in at least 42 States 
and is outcompeting other variants, but it is still unclear whether 
this will result in yet another surge in U.S. cases. In the United 
Kingdom, B.1.1.7 necessitated National stay-at-home orders because of 
the steep increase of cases. But the United Kingdom surge also 
coincided with the winter holidays and occurred before mass vaccination 
had started in earnest, which was the worst possible timing. I am 
tentatively hopeful that vaccination and current limitations on 
business occupancy and travel will prevent a similar resurgence in the 
United States. However, it is something we must watch closely.
    Variants with mutations that escape our immune defenses like P.1. 
and B.1.351 may yet become a greater threat, particularly in the fall 
and winter of 2021. If we are to avoid a resurgence of cases at that 
time, we need to make sure that our vaccines are as protective as 
possible, which may require a third dose or vaccine booster. Vaccine 
manufacturers, scientists, and Government officials are currently 
working hard to plan for this possibility, but it is a significant 
scientific and logistical challenge that remains for the country.
                         current global picture
    I am focusing largely on the U.S. response in today's testimony but 
would be remiss if I didn't at least touch on the global status of the 
pandemic and vaccine rollout.
    There are a handful of countries that have been so successful at 
keeping the SARS-CoV-2 virus out and quenching any introductions before 
they can turn into epidemics, that they are virtually virus-free. In 
these parts of the world, citizens are able to live largely apart from 
the pandemic and go about their normal lives. There are also countries 
with virtually zero capacity to respond to COVID-19, and in those 
places, we do not have enough disease surveillance to know how people 
are affected.
    Vaccination has been the center piece of the response in the United 
States and other high-income countries since December, while low- and 
middle-income countries still wait for vaccine. The international 
leader in vaccination thus far is Israel, which has over 30 percent of 
its population fully vaccinated. The good news from Israel is that 
preliminary data seems to show that vaccination there has provided both 
significant protection from infection and from severe disease and 
death, even in the face of the B.1.1.7 variant as the dominant variant 
in the country.\11\
---------------------------------------------------------------------------
    \11\ Mitnick J, Regalado A. A leaked report shows Pfizer's vaccine 
is conquering COVID-19 in its largest real-world test. MIT Technology 
Review. February 19, 2021. https://www.technologyreview.com/2021/02/19/
1019264/a-leaked-report-pfizers-vaccine-conquering-covid-19-in-its-
largest-real-world-test/.
---------------------------------------------------------------------------
    While this is heartening, the success of Israel is in sharp 
contrast to low-income countries that have not even begun vaccinating 
their health care workers, much less the general population, and will 
likely not have sufficient vaccine for many months to come. This global 
inequity is resulting in a humanitarian crisis for low- and middle-
income countries, and it also represents a significant risk for the 
entire world; the longer this virus circulates at high levels, the 
greater the risk of new mutations that could result in dangerous 
variants which are resistant to vaccines and could prolong the 
pandemic.\12\
---------------------------------------------------------------------------
    \12\ Shah S, Steinhauser G, Solomon F. Vaccine delays in developing 
nations risk prolonging pandemic. The Wall Street Journal. https://
www.wsj.com/articles/faltering-covid-19-vaccine-drive-in-developing-
world-risks-prolonging-pandemic-11613557801.
---------------------------------------------------------------------------
                successes of the u.s. pandemic response
    Next, I would like to take a few moments to highlight some of the 
successes and failures of the U.S. response over the last year.
    First, the successes. It is so important to recognize that the U.S. 
response represents collective work of tens of thousands of people 
across the country, as well as millions of Americans who had to 
sacrifice tremendously to take protective actions. People working 
collectively and non-stop over the past year in Federal agencies; 
State, territorial, Tribal, and local governments; hospitals and Dr. 
offices; mental health organizations; universities; laboratories; 
mortuaries, and many other organizations. It has been a year of 
constant and extreme stress, and life-and-death decisions. Many lives 
have been saved by the actions of our responders, and we should be 
truly thankful for the heroic efforts of those who have worked to 
reduce COVID-19's impact.
    We also owe a great debt of gratitude to essential workers who have 
kept our society functioning, our supply chains moving, our shelves 
stocked, and our power running. People have shown great courage in the 
face of the virus and have maintained continuity of critical societal 
functions, allowing us to be more resilient than we might have 
imagined.
    Finally, the biggest and most visible success of the past year is 
the development of multiple highly safe and effective COVID-19 vaccines 
in under a year. I cannot emphasize enough what a technical feat this 
is. The reasons for this success are many, but it is anchored in 
planning, capabilities, and science that have been developed over time 
by the U.S. Government, international partners, industry, and academia. 
This experience should shape our medical countermeasures development 
planning and investment for the future. There are additional lessons 
and new technologies that we can harness to be ready for the next 
pandemic. The COVID-19 pandemic has taught us that we cannot simply 
plan for known viral threats and limit ourselves to a list-based 
approach to medical countermeasure development. The Department of 
Health and Human Services and the Department of Defense should also 
invest in pathogen-agnostic platform technologies with the goal of 
quickly developing new medical countermeasures against novel viruses.
                 failures of the u.s. pandemic response
    My time to testify here does not adequately allow for a full 
reckoning for the failures of the U.S. response over the last year, but 
there are some that I want to make sure to highlight for this 
committee.
    Over the last year, public health leaders, scientists, and many 
others who have spoken out in defense of scientific fact and truth 
about the pandemic have suffered retribution and terrible treatment. 
Health officials and experts who have implemented or recommended 
evidence-based interventions including masking, contact tracing, and 
business restrictions, have been threatened both verbally and 
physically. They have been harassed on-line and had threatening 
packages mailed to their homes. They have faced political pressure and 
backlash from elected officials from the top of Government on down and 
have at times been stripped of or resigned their position in the midst 
of the pandemic. More than 27 health officers in 13 States have 
resigned or been fired in the last year, leaving our public health 
agencies even less equipped to respond. This is unacceptable and 
dangerous.\13\
---------------------------------------------------------------------------
    \13\ Mello M, Greene JA, Sharfstein JM. Attacks on public health 
officials during COVID-19. JAMA. August 5, 2020. https://
jamanetwork.com/journals/jama/fullarticle/2769291.
---------------------------------------------------------------------------
    As colleagues eloquently stated in a recent JAMA commentary, 
``Instead of attacking their health officials, elected leaders should 
provide them with protection from illegal harassment, assault, and 
violence.''\13\ They should also be turning to their health officers 
for public health advice and providing them with the resources that 
will make their jobs more successful.
    This leads me into a second and related failing of this response: 
The politically-driven failure to heed expert advice, silencing or 
sidelining of Federal experts, and censoring or cherry-picking of data. 
As examples, the previous administration reportedly sought on several 
occasions to withhold important data from the public about the 
impending crisis. And, on multiple occasions in 2020, political 
appointees altered CDC's Morbidity and Mortality Weekly Report 
publications and other reports that did not align with the White 
House's messaging about pandemic risk or preferred courses of 
action.\14\
---------------------------------------------------------------------------
    \14\ Viglione G. Four ways Trump has meddled in pandemic science--
and why it matters. Nature News. November 3, 2020. https://
www.nature.com/articles/d41586-020-03035-4.
---------------------------------------------------------------------------
    High-level denial of the severity of the pandemic and 
disempowerment of scientists and public health experts led both to 
under-resourcing of the response and significant confusion for the 
public. Furthermore, overt politicization of the public health measures 
intended to keep people safe allowed the virus to flourish as people 
were convinced that wearing a mask was weak, that public health 
officials were trying to steal their identities when conducting contact 
tracing, and that restrictions on businesses were scientifically 
unfounded. This is why we have so many more cases and deaths than other 
countries.
    Within the response itself, there are a few significant issues that 
should be highlighted. Our public health agencies have been underfunded 
and overburdened long before COVID-19, through multiple Republican and 
Democratic administrations, but they were also not sufficiently 
resourced or supported by the Federal Government during this response. 
While funds from the Cares Act did go to health departments, it was not 
enough.
    Support for State, territorial, and Tribal vaccination planning is 
a particularly damaging failure. While the U.S. Government has 
understandably spent billions of dollars on vaccine development, only 
$200 million was provided to States for the actual distribution and 
administration of vaccine in the largest mass vaccination effort that 
our country has ever undertaken. This is despite pleas from public 
health experts for additional funding and guidance.\15\
---------------------------------------------------------------------------
    \15\ Florko N. Trump officials actively lobbied to deny States 
money for vaccine rollout last fall. Stat News. January 31, 2021. 
https://www.statnews.com/2021/01/31/trump-officials-lobbied-to-deny-
states-money-for-vaccine-rollout/.
---------------------------------------------------------------------------
    Support for our health care response has been similarly dismal. 
States often had to `go it alone' in ensuring supply chains for 
important things like ventilators, testing supplies, and personal 
protective equipment for front-line health workers.
    Last, but certainly not least, the United States' withdrawal from 
the World Health Organization and the withholding of contributions to 
COVAX both weakened our position as a global health security leader and 
limited burgeoning global vaccination efforts. I am encouraged to see 
that the United Stated has reversed these positions and has pledged 
significant support to COVAX.
          new administration priorities and continued progress
    With the new Biden administration and this Congress in place, I am 
hopeful that our response to the remainder of the COVID-19 pandemic 
will be much more evidence-based, coordinated, and effective.
    Recent decisions to support acquisition of additional vaccine and 
enable health and scientific experts to communicate directly and 
honestly with the American people are already paying dividends.
    The administration should continue to prioritize strong leadership 
for the response in Federal agencies, including by appointing an 
Assistant Secretary for Preparedness and Response (ASPR) within the 
Department of Health and Human Services as soon as possible; ensuring 
that sufficient Federal support and resources are being provided to 
enable equitable access to vaccine; and making every investment 
necessary to prepare for the possibility of updating vaccines to 
protect against immune escape variants.
    Finally, I am glad to see that the American Rescue Plan legislation 
currently being considered by Congress provides significant support for 
the on-going response as well as funding and authorization for new 
programs that will begin our investment in our future preparedness. I 
look forward to the passage of this bill and better days ahead.
    That concludes my testimony. I am grateful to the committee for 
inviting me to contribute to the hearing and would be happy to take any 
questions.

    Chairman Thompson. Thank you. Thank you very much.
    I now ask Dr. Ezike to summarize her statement for 5 
minutes. I apologize if I mispronounced the word. Charge it to 
my hearing, not my heart.

STATEMENT OF NGOZI O. EZIKE, MD, DIRECTOR, ILLINOIS DEPARTMENT 
                        OF PUBLIC HEALTH

    Dr. Ezike. No problem, sir. Thank you. Chairman Thompson, 
Ranking Member Katko, and distinguished Members of the 
committee, thank you for inviting me here to speak today about 
Illinois' response to the coronavirus pandemic.
    We have had more than 1.1 million cases of COVID-19 in 
Illinois and, even more deplorable, over 20,000 parents, 
grandparents, and children who have succumbed to this baleful 
disease. From the outset of the pandemic our response has been 
guided by a focus on data, science, and equity. 2020 
mitigations necessary to curb infection transmission and 
protect health care capacity still left an indelible mark on 
the State of Illinois and the lives of our residents.
    As a State we have made significant investments in testing 
and contact tracing. Our State lab was the first in the country 
to validate and run in-house the CDC's PCR test and we are 
proud to rank fifth among States for a total number of COVID 
tests run.
    As vaccines are distributed, the benefit of vaccination 
will depend on: (1) How rapidly and broadly we can turn vaccine 
into vaccination and (2) how effectively we limit viral 
replication, thus limiting the creation of new variants of 
concern. In Illinois more than 2.3 million doses have been 
administered. Currently we have administered 90 percent of all 
delivered doses outside of the long-term care pharmacy 
partnership program. We currently rank fifth among States in 
total vaccines administered.
    The Department of Public Health has been intentional about 
engaging disproportionately-impacted communities. From the 
beginning of our response, we created a health equity work 
group that was embedded into all aspects of the response. We 
assembled a diverse speakers bureau to support multilingual 
virtual town halls for cultural groups, work groups, faith 
communities, and other special groups. Our Ambassador program 
enlists nearly 1,000 Illinois residents to share information 
via personal social medial channels to their friends and family 
and peers on prevention, testing locations, treatments, and 
vaccines. We aim to create confidence and trust in the 
available vaccines through education and culturally appropriate 
respectful engagement. Our hope is that when people get the 
facts, then they will get the vax.
    When I testified before this committee a year ago, one of 
our primary concerns was a lack of PPE for health care workers 
and first responders. Today, we are in a much better position 
as production and demand have equalized. Even so, we learned a 
very valuable lesson about the global supply of medical 
products that must inform our future planning for Strategic 
National Stockpile and domestic production.
    One of the biggest hurdles to a successful response over 
the past year has been a lack of clear and consistent 
communication and modeled messaging from the highest levels of 
government on down. While we appreciate the increased planning, 
transparency, invocation of the Defense Production Act for 
vaccine supplies and PPE and the securing of 600 million doses 
by July, today we still have to contend with the good trouble 
of having more rolled-up sleeves than vaccine-filled syringes.
    We are seeing increases in our vaccine supply and welcoming 
the strong commitment from the Federal Government to augment 
the States' vaccination efforts. The promise of a 3-week lead 
time on vaccine allocation has been welcome news both to the 
States and to all of our local partners. Last month Governor 
Pritzker announced the activation of the Illinois National 
Guard to assist local health departments in administering 
vaccines. To date, 44 teams have been deployed with the plan to 
reach 100 total Guard teams in the coming weeks.
    FEMA is another great partner in our efforts and the 100 
percent Federal cost coverage allows us to support additional 
high-priority areas. We have also discussed mass vaccination 
centers and are hopeful that this Federal-State partnership 
will come to fruition.
    To bring this pandemic to an end we need to stay focused on 
the multi-layered approach of masking, social distancing, 
testing, genomic sequencing, contact tracing, in addition to 
vaccination. To maintain all these efforts States need 
consistent resources, but also expertise and National guidance. 
Yes, National strategies have a clear role and function in 
battling pandemic because State borders do not keep out the 
virus. Yes, our National strategy has to include control of the 
virus in other countries, especially developing countries, 
because as we have also learned, no one is truly safe until all 
of us are safe and viruses are only as far as away as the 
furthest flight or the furthest cruise voyage.
    I look forward to continued collaboration with Congress and 
the administration to see the other side of this pandemic, 
where pandemic fatigue, frustration, and fear is replaced with 
the post-pandemic side of relief.
    Thank you.
    [The prepared statement of Dr. Ezike follows:]
                  Prepared Statement of Ngozi O. Ezike
                           February 24, 2021
    Chairman Thompson, Ranking Member Katko, and distinguished Members 
of the committee, thank you for inviting me here today to speak about 
Illinois' response to the coronavirus pandemic. Over the past year in 
Illinois, we have had more than 1.1 million cases of COVID-19 and, 
unfortunately, more than 20,000 of our people have succumbed to this 
baleful disease.
    From the outset of the pandemic, our response has been guided by a 
focus on data, science, and equity. The year 2020 was marked by 
mitigations necessary to curb infection transmission and protect health 
care capacity, but they also left an indelible mark on the State of 
Illinois and the lives of our residents.
    As a State we have made huge investments in testing and contact 
tracing and are proud to rank 5th among States and territories for the 
number of COVID tests administered. Illinois was the first State in the 
country to validate the Centers for Disease Control and Prevention's 
(CDC) COVID-19 PCR test and all 3 of our State laboratories began 
running samples early in the pandemic. These 3 laboratories began 
State-wide sentinel surveillance testing almost a year ago, enabling 
Illinois to determine how COVID-19 was circulating in our communities.
    So, it is with great hope that we embrace the advent of vaccines 
that are a pathway to ending this calamitous period in our State and 
National history. Through efficient and effective distribution of the 
vaccine, we can suppress the spread of the virus and save many lives. 
The Illinois Department of Public Health (IDPH) has been working in 
close partnership with our 97 local health departments, hospitals, 
retail pharmacies, Federally-qualified health centers (FQHCs), and many 
other partners across the State to ensure vaccination occurs with both 
velocity and equity. To date we have enrolled hundreds of new providers 
to receive and administer COVID vaccines. We have also expanded scopes 
of practice to allow more health care providers to administer vaccines, 
such as dentists, pharmacists, and EMTs above the basic level.
    In Illinois, vaccines are currently distributed according to the 
population of each county, adjusted to ensure health equity using the 
COVID-19 Community Vulnerability Index (CCVI), a measure of 
vulnerability to COVID-19 at the State, county, or census tract level 
that combines health determinants such as epidemiology of underlying 
chronic conditions and access to care with the CDC Social Vulnerability 
Index.\1\ Due to the initial limited supply of vaccine and the 
established priority groups, we directed our allocations of vaccine to 
local health departments (with subsequent distribution to hospitals) 
and our large retail pharmacy partners. As vaccine availability 
continues to increase, we will allocate across a growing, more 
expansive provider network throughout the State.
---------------------------------------------------------------------------
    \1\ Surgo Ventures. (2020, December). COVID-19 Community 
Vulnerability Index (CCVI) methodology. https://covid-static-
assets.s3.amazonaws.com/US-CCVI/COVID-19+Community+- 
Vulnerability+Index+(CCVI)+Methodology.pdf.
---------------------------------------------------------------------------
    The ultimate benefits of vaccination against COVID-19 will depend 
on how well we are controlling the spread of the virus and how swiftly 
and broadly we can implement the vaccine.\2\ In Illinois, 1,779,143 
people have received their first dose of vaccine as of February 21, 
2021.\3\ We are doing everything we can to vaccinate our share of the 
more than 200 million people necessary to achieve herd immunity against 
COVID-19.\4\
---------------------------------------------------------------------------
    \2\ Paltiel, A.D., Schwartz, J.L., Zheng, A., & Walensky, R.P. 
(2020). Clinical outcomes of a COVID-19 vaccine: Implementation over 
efficacy. Health Affairs, 40(1). https://doi.org/10.1377/
hlthaff.2020.02054.
    \3\ Centers for Disease Control and Prevention. (2021, January 31). 
Number of people receiving 1 or more doses reported to the CDC by 
State/territory and for selected Federal entities per 100,000 [Data 
set]. Retrieved from https://covid.cdc.gov/covid-data-tracker/
#vaccinations.
    \4\ Randolph, H.E., & Barreiro, L.B. (2020). Herd immunity: 
Understanding COVID-19. Immunity, 52(5), 737-741. https://dx.doi.org/
10.1016/j.immuni.2020.04.012.
---------------------------------------------------------------------------
    In order to reach populations that have been disproportionately 
impacted by COVID, IDPH has been intentional about engaging hard-hit 
communities across the State with the most up-to-date information, 
answering questions and addressing any concerns people may have, 
particularly around vaccine hesitancy and distrust. False narratives 
abound--especially in our communities of color--and we must come 
together to create confidence and trust in the available vaccines. To 
this end we created a COVID-19 Ambassador program to support State 
efforts to stop the spread of COVID-19 by enlisting individuals to 
promote and share information among their friends, family, peers, and 
neighbors on prevention measures, testing resources, vaccines and other 
relevant information.
    While we await additional vaccine supply and the approval of new 
vaccines by the Food and Drug Administration (FDA), we must continue 
the public health measures that will control the spread of the virus: 
Masking, testing, and social distancing. A multi-pronged approach 
supported by the Federal Government that includes the following could 
improve the effectiveness of nonpharmaceutical interventions in 
Illinois and across the country:
  <bullet> An aggressive expansion of genomic sequencing infrastructure 
        to assess the threat of new variants, including the ability to 
        analyze higher numbers of COVID-19 samples and easily transfer 
        data between the CDC, State-run labs, and public health 
        practitioners to inform mitigation efforts.
  <bullet> Continuation of paid sick leave as required by the now-
        expired Families First Coronavirus Response Act (FFCRA), which 
        one study found led to more than 400 fewer reported cases of 
        COVID-19 per State per day compared to the pre-FFCRA period and 
        to States that had already enacted paid sick leave.\5\
---------------------------------------------------------------------------
    \5\ Pichler, S., Wen, K., & Ziebarth, N.R. (2020). COVID-19 
emergency sick leave has helped flatten the curve in the United States. 
Health Affairs, 39(12). https://doi.org/10.1377/hlthaff.2020.00863
---------------------------------------------------------------------------
  <bullet> Support for wide-spread molecular testing and isolation,\6\ 
        especially for high-priority populations, and rapid point-of-
        care testing in high-priority settings, including schools and 
        workplaces.
---------------------------------------------------------------------------
    \6\ Rannan-Eliya, R.P., Wijemunige, N., Gunawardana, J.R.N.A., 
Amarasinghe, S.N., Sivagnanam, I., Fonseka, S., Kapuge, Y., & Sigera, 
C.P. (2020). Increased intensity of PCR testing reduced COVID-19 
transmission within countries during the first pandemic wave. Health 
Affairs, 40(1). https://doi.org/10.1377/hlthaff.2020.01409.
---------------------------------------------------------------------------
  <bullet> Additional direct payments to individuals to encourage 
        compliance with public health guidance for quarantine, 
        isolation, and stay-at-home orders,\7\ especially in 
        economically marginalized communities.\8\
---------------------------------------------------------------------------
    \7\ Wright, A.L., Sonin, K., Driscoll, J., & Wilson, J. (2020). 
Poverty and economic dislocation reduce compliance with COVID-19 
shelter-in-place protocols. Journal of Economic Behavior & 
Organization, 180, 544-554. https://dx.doi.org/10.1016/
j.jebo.2020.10.008.
    \8\ Chang, S., Pierson, E., Koh, P.W., Gerardin, J., Redbird, B., 
Grusky, D., & Leskovec, J. (2020). Mobility network models of COVID-19 
explain inequities and inform reopening. Nature, 589, 82-87. https://
doi.org/10.1038/s41586-020-2923-3.
---------------------------------------------------------------------------
  <bullet> Distribution of masks, preferably medical-grade,\9\ to every 
        person to enable universal masking.\10\
---------------------------------------------------------------------------
    \9\ Tufekci, Z., & Howard, J. (2021, January 13). Why aren't we 
wearing better masks? The Atlantic. https://www.theatlantic.com/health/
archive/2021/01/why-arent-we-wearing-better-masks/617656/.
    \10\ Howard, J., Huang, A., Li, Z., Tufekci, Z., Zdimal, V., van 
der Westhuizen, H., von Delft, A., Price, A., Fridman, L., Tang, L., 
Tang, V., Watson, G.L., Bax, C.E., Shaikh, R., Questier, F., Hernandez, 
D., Chu, L.F., Ramirez, C.M., & Rimoin, A.W. (2021). An evidence review 
of face masks against COVID-19. Proceedings of the National Academy of 
Sciences of the United States of America, 118(4). https://doi.org/
10.1073/pnas.2014564118.
---------------------------------------------------------------------------
  <bullet> Grants to improve indoor air ventilation \11\ in high-
        priority settings, including schools and long-term care 
        facilities.
---------------------------------------------------------------------------
    \11\ Noorimotlagh, Z., Jaafarzadeh, N., Martinez, S.S., & Mirzaee, 
S.A. (2020). A systematic review of possible airborne transmission of 
the COVID-19 virus (SARS-CoV-2) in the indoor air environment. 
Environmental Research, 193, 110612. https://doi.org/10.1016/
j.envres.2020.110612.
---------------------------------------------------------------------------
  <bullet> Promulgation of National standards and practices for contact 
        tracing, especially for data collection.
  <bullet> Workforce expansion strategies for vaccinators and other 
        public health personnel, including deployment of Federal 
        personnel to Illinois as a force multiplier to our already 
        substantial but inadequate immunization resources.
  <bullet> Intentional community engagement and education strategies to 
        promote vaccine science as a preventive method to thwart 
        vaccine misinformation and distrust for any future campaigns.
    Much has transpired over the past year; we have endured unthinkable 
loss and mounted a forceful response to contain the spread of this 
disease, save lives and rollout a massive effort to vaccinate our 
population.
    One of the biggest hurdles to a successful response over the past 
year has been a lack of communication and muddled messaging from the 
highest levels of government. Though it is still early, the Biden 
administration has already demonstrated a strong desire to better 
engage the States and this is a major improvement from where we were a 
year ago. In concert with improved communication, we are seeing 
increases within our vaccine supply chain and commitment from the 
Federal Government to augment what States have already implemented. The 
promise of a 3-week lead time on vaccine allocation projections has 
been welcome news to States and our partners on the ground. In 
Illinois, as may be the case in other States, addressing the large 
number of second doses due to the public and its impact on available 
first doses has been challenging. An informative and transparent 
discussion on vaccine allocation to the States on the part of the 
Federal Government could go a long way to helping States like Illinois 
address the angst felt by local governments who receive small 
quantities of doses.
    While we appreciate the increased planning and transparency, this 
has not eliminated the need for additional vaccine supply. In testimony 
I made a few weeks ago to the House Energy and Commerce Committee, I 
urged the Federal Government to leverage all resources and powers at 
their disposal to ramp up the manufacturing and purchase of additional 
vaccine and associated supplies. I applaud news that the Biden 
administration has invoked the Defense Production Act to increase 
production of vaccines, at-home coronavirus tests and additional 
personal protective equipment (PPE); as we know, the advent of vaccines 
does not eliminate the need for PPE or testing. With production 
increases and the pending approval of an additional vaccine on the 
market, we are hoping to see significant increases to vaccine 
allocations in the next few weeks. Our local health departments, FQHCs, 
hospitals and other partners are standing ready to ramp up 
exponentially.
    Looking back to where we were last year and the difficulty we faced 
in procuring PPE, I am grateful for how far we have come. When I 
testified before this committee a year ago, our largest concern was the 
lack of PPE for health care workers and for our residents. I discussed 
our challenges in supplying local health departments and hospitals with 
required PPE and the State's extraordinary efforts to source common 
products like masks and gloves. Today we are in a much better position 
as production and demand have equalized. Even so we learned a valuable 
lesson about the global supply of medical products that must inform our 
future planning for strategic stockpiles and domestic production. We 
trust the Federal Government is acknowledging that lived experience and 
look forward to discussions with you to harden our systems against 
future crises.
    Being a National leader in COVID-19 testing comes with a commitment 
to maintaining and increasing testing levels. Illinois began its COVID-
19 testing mission in its 3 State laboratories with very small supplies 
of reagents, viral transport media (VTM) and consumables required to 
run tests. Further, a year ago we did not have a comprehensive network 
of public laboratories capable of rapidly scaling to meet a demand such 
as COVID-19. Like today's vaccine crunch, IDPH with assistance from the 
Federal Government went about resourcing needed supplies to not only 
maintain but increase by orders of magnitude the availability of 
testing. Not leaving our fate in the hands of others, IDPH developed 
its own recipes for VTM and reagents. We optimized our PCR processes to 
reduce time and resource consumption. Automation and high-throughput 
equipment allowed the State health department labs to go from 
processing hundreds to thousands of samples per day.
    Going forward Illinois acknowledges the need for a robust and 
enduring public health lab infrastructure, we ask the Federal 
Government to join with us in building increased education 
opportunities for people interested in becoming laboratorians and 
researchers. This must be accomplished by investing in public 
universities and colleges, both for increasing degrees as well as by 
providing laboratory infrastructure that serves as a training platform 
in good times and back up lab capacity in troubled times.
    Public health infrastructure was again critical as Illinois 
approached vaccine delivery. Long before COVID-19, IDPH along with 
Federal and local partners developed medical countermeasure plans for 
mass vaccination in Illinois. Even so, in September 2020, IDPH 
organized its COVID-19 vaccination plan with an understanding that 
unlike other crises, this potential antidote would come in small 
quantities to start and with significant handling challenges. A 
different approach involving local and National providers, focused on 
equity and compassion for those people most ravaged by this disease 
would be required.
    Notwithstanding our planning, Illinois has experienced the same 
difficulties as other States. Vaccination efforts in Illinois were 
hampered by conflicting Federal messaging a lack of consistent 
information on vaccine deliveries. Operation Warp Speed's many unmet 
promises left Illinois holding the bag as our people sought reliable 
answers to when they could expect to be vaccinated. Reduced or 
postponed allocations and outright cancellations left Illinois 
receiving far fewer doses than advertised. We have taken great 
satisfaction in the improvements made in both communication and actual 
doses delivered since late January and stretch forth our hands in 
anticipation of even higher allocations of vaccine to shortly come.
    We have distributed vaccine with equity garnishing our every 
thought. We have also focused on speed, partnering with those who could 
vaccinate the population the fastest, while working with others to 
improve their delivery of services, such as the activation of the 
National Guard to increase capacity and support local operations across 
the State. Illinois is ready for more vaccine and we will not delay in 
its use.
    On January 25, 2021, the State moved into Phase 1B of our vaccine 
rollout.\4\ Initial advice from the CDC Advisory Committee on 
Immunization Practices (ACIP) targeted front-line workers and adults 
aged 75 years and older for Phase 1B.\12\ In keeping with our 
commitment to equity and understanding the disparities in life 
expectancy, generally, and age at death from COVID-19 in Illinois 
specifically,\5\ IDPH chose to expand our priority populations for 1B 
to include adults aged 65 years and older. In doing so, Illinois sought 
to save lives in a truly equitable manner, recognizing that 
longstanding inequities, as well as institutional racism has reduced 
access to care, caused higher rates of environmental and social risk, 
and increased co-morbidities for people of color. After taking into 
account the expectation of increased vaccine supply in the coming 
weeks, Governor JB Pritzker announced that on February 25 the State 
will expand Phase 1B eligibility to include people aged 16 to 64 years 
with co-morbidities and underlying conditions associated with increased 
risk for more severe COVID-19 as defined by the CDC,\13\ along with 
individuals with disabilities.
---------------------------------------------------------------------------
    \12\ Dooling, K., Marin, M., Wallace, M., McClung, N., Chamberland, 
M., Lee, G.M., Talbot, H.K., Romero, J.R., Bell, B.P., & Oliver, S.E. 
(2020, December 22). The Advisory Committee on Immunization Practices' 
updated interim recommendation for allocation of COVID-19 vaccine--
United States, December 2020. Morbidity and Mortality Weekly Report, 
69(5152), 1657-1660. http://dx.doi.org/10.15585/mmwr.mm695152e2.
    \13\ Centers for Disease Control and Prevention. (2021, February 
3). People with certain medical conditions. https://www.cdc.gov/
coronavirus/2019-ncov/need-extra-precautions/people-with-medical-
conditions.html.
---------------------------------------------------------------------------
    In late January, Governor Pritzker also announced the activation of 
the Illinois National Guard to assist local health departments in 
administering vaccinations; a move that was made possible by the Biden 
administration approving 100 percent Federal coverage of the cost. To 
date 44 teams have been deployed across the State and over the course 
of February more than 50 total National Guard teams will be deployed to 
expand access to vaccines in high-need areas across the State, in 
concert with clinics hosted by local health departments, hospitals, and 
pharmacies. The Federal Emergency Management Agency (FEMA) has been a 
great partner in our efforts and the increase to 100 percent (up from 
75 percent initially) Federal cost coverage of these sites has allowed 
us to support more high-priority areas in the State than we initially 
expected.
    Finally, in order to expeditiously administer vaccinations I have 
urged the Federal Government to assist State efforts by partnering with 
us to establish Federally-run mass vaccination centers. Since then, we 
have discussed the idea of such mass vaccination centers in Illinois 
with the Federal Government and are hopeful that this Federal/State 
partnership will come to fruition.
    In order to bring this pandemic to an end, States need continued, 
consistent support and resources from the Federal Government. New, 
highly-contagious variants are threatening our progress and we need our 
Federal partners to align their efforts with ours to help solve 
practical, operational issues; thankfully we seem to be moving in this 
direction.
    Thank you for the opportunity to share Illinois' experience over 
this past year. We will continue to let data, science, and equity guide 
our approach and I look forward to working with Congress and the 
administration to see the other side of this pandemic.

    Chairman Thompson. Thank you very much.
    I now ask Mr. McMahon to summarize his statement for 5 
minutes.

 STATEMENT OF J. RYAN MC MAHON, II, COUNTY EXECUTIVE, ONONDAGA 
                        COUNTY, NEW YORK

    Mr. McMahon. Thank you. Chairman Thompson, Ranking Member 
Katko, Members of the committee, it is an honor and a privilege 
to be here today to tell the story from the local government 
perspective. Our story isn't unique to our community, but to 
local governments throughout this pandemic. The reality is it 
is important when we tell this story that people understand 
what we do.
    Our county government does different things in each State. 
That has been part of the challenge in the global pandemic at 
the local level. In our county in New York State--and I know 
there are Members from New York State on this panel as well 
that know this--in New York City--New York City is actually a 
county as well--in New York State, the rest of the counties, we 
take care of our community's most vulnerable. We have the 
children and family service departments to watch our children, 
we have the adult long-term care departments to take care of 
our elderly, we have our economic security departments to take 
care of our poor, and we have our local health departments that 
help deal with health equity and public health, day in and day 
out. During a pandemic everybody is vulnerable. We were the 
local government on the front lines of this. When we look at 
what we do and what we had to do, reliving the last year and 
our responses, is actually a traumatizing experience if we 
think about all we have been through together collectively in 
this country.
    We went from planning, when we learned of this virus, to 
preparing to having to do mitigation at the local level, 
canceling community gatherings, canceling parades, before we 
even had a case. Then we went to response to a pandemic at the 
local level. In our community--we are in central New York--
our--in New York City, in Long Island, and the Hudson Valley 
was ground zero for this pandemic. We had a 2-week head start 
to implement mitigation, implement our plans, and prepare for a 
response.
    What is response? We got very familiar very quickly with 
terms like contact tracing, testing for a virus, competing for 
tests throughout the committee, quarantine. These are all 
things that we never thought we would have to do at this point 
in time. We then went into a situation where we are focused in 
on shutdowns to help mitigate the spread of the virus 
throughout the State. We then we through a restart process 
where we started to reopen our economy, where our government 
were now responsible for regulating social distancing, physical 
distancing, capacity amongst businesses, things we never 
thought we would be.
    As we restart the economies, the Operation Warp Speed and 
the vaccination came to fruition. We are now in the process of 
vaccinating, developing distributing, underutilized 
infrastructure, how do we get to specific communities within 
our community that are underserved intentionally. That is 
something that we have focused on in Onondaga County. We will 
be the front line leaders in recovery as well.
    One thing I do really want to highlight is that once we are 
done vaccinating, and we will at some point, this emergency is 
not over whatsoever. The reality is the victims of this 
pandemic are far more than just those who become COVID-
positive. We have had 31,000 COVID-positive residents in my 
county, we have had over 650 people in my county die, but it is 
becoming clearer and clearer every day the crisis of mental 
health, opioid overdoses, where we have seen increases between 
40 to potentially 70 percent in our county. What we are seeing 
what is happening to our children as hybrid learning schedules 
are not meeting the needs of our children for school.
    But this is the macro level. What are some of the unique 
experiences that we had that I think bring value to you as you 
form policy. In the beginning we were not prepared for PPE. We 
were scrambling for test kits. Every night we were looking for 
test kits throughout our community to get people just tested 
for this virus on March 16 when the virus came to our 
community. We were scrambling for masks, for gowns, for gloves 
with all of our partners. We were competing not only against 
other local governments and hospitals, but States and the 
Federal Government as well. It is abundantly clear that there 
needs to be a supply chain repatriotization to our country to 
address this moving forward.
    We communicated daily at the local level, as other did at 
the Federal level and State level. That helped provide comfort 
and calm to our community, but we had new challenges. Everyone 
was vulnerable. We had to implement continuity of food 
operations, we had to implement continuity of care operations 
for our essential workers where they had free day care. Things 
that were never in the traditional response to an emergency, 
but now local governments were fronting these costs to make 
sure that we had nurses going into hospitals, to make sure that 
we had other essential workers going on so society moved on.
    We did this all at a point where we were the largest 
community in the country to receive no direct CARES Act 
support. CARES Act funding flowed through the States. There was 
money earmarked for local governments. Not all States passed 
that money onto the local governments. This led to a huge 
economic challenge for us in Onondaga County, a community of 
462,000 people that would have normally received $80+ million 
if we had over half a million people. We received no direct 
CARES Act funding for response because of the way the emergency 
aid flowed.
    We quickly utilized and worked with our partners at up-
State hospitals, Syracuse University, to implement great 
testing strategies. We implemented these testing strategies to 
help restart both Pre-K through 12 education, but also higher 
education. We continue to asymptomatically test in our schools 
and the positive rates are phenomenal because of this. We took 
the strategy that we should not be embarrassed to identify the 
virus anywhere because the only way we get our arms around this 
virus and end this pandemic is to identify it everywhere. We 
test and we test and we test today. Because of that our 
positive rate in our community today, after a surge from 
Halloween through Christmas, is at 1 percent for a 7-day 
average. Our active caseload on January 3 was 6,000 cases, 
today it is 660 cases.
    We are now in the process of vaccinating and vaccinating is 
something that counties do. The Federal Government funds us to 
actually put together mass vaccination plans. We put together 
these plans, we are ready for this process. To date we feel we 
have been underutilized. The supply we know is an issue and we 
know it is getting better. But specifically, to intentionally 
get to the hard-to-reach communities, our new American 
communities, our minority communities, nobody is better served 
to do that than county governments. We have the human service 
partners. These are our clients day in and day out. We can get 
the job done. We need to be brought into the game in a larger 
aspect.
    Thank you, Mr. Chairman. I am prepared to take questions 
when appropriate.
    [The prepared statement of Mr. McMahon follows:]
               Prepared Statement of J. Ryan McMahon, II
    Good morning Chairman Thompson, Ranking Member Katko, and the rest 
of the House Homeland Security Committee. Thank you for the opportunity 
to address you today regarding our community's efforts to confront the 
Coronavirus pandemic and the perspective gained 1 year later.
    Located nearly 250 miles from the epicenter of COVID-19 in New York 
State, Onondaga County had the benefit of understanding how COVID-19 
affected our neighbors in the Hudson Valley and New York City before 
the virus reached our community. The devastation would be undeniable 
and we moved quickly to activate our plan to mitigate loss and keep 
people safe.
    Our first confirmed case of COVID-19 in Onondaga County occurred on 
March 16, but our teams in Emergency Management and the Health 
Department had been preparing for months. As you probably know, it is 
the local governments who are on the front lines fighting any pandemic 
and COVID-19 is no different. With a State of Emergency already 
declared and an aggressive campaign under way encouraging people to 
practice physical distancing, we quickly moved to bring together all of 
our community partners including hospitals, local governments, 
epidemiologists, and others to ensure we could take decisive action as 
the data merited.
    We partnered with a local Health Center and set up community 
testing. Just as important, we made efforts to ensure that our 
neighbors who lived in communities often hardest-hit by public health 
emergencies had easy access to the resources they needed to stay safe.
    Schools also were shut down, but not before ensuring every district 
had a plan to take care of their most vulnerable. We know that for many 
children, school is the only place they receive at least 2 meals a day 
and we worked tirelessly to make sure those children continued to 
receive the meals they needed. We also partnered with Childcare 
Solutions to arrange for our first responders, essential employees, 
doctors, nurses, and nursing-home staff to have child care. If these 
folks could not get to work during a global health pandemic, then the 
entire system collapses.
    Acquiring personal-protective equipment was--let's say--
challenging. The PPE chain was the Wild, Wild West. Masks that you 
could get for under a dollar were now $8 or $9. People reached out to 
us who miraculously had contacts in Singapore, China, and Taiwan for a 
small advance of $500,000. Legitimate governments, however, do not make 
these deals. We pressed on, qualifying different supply chains, and 
finally bought PPE at decent prices. We even secured ventilators in the 
event we needed to transform the Manley Field House at Syracuse 
University into a hospital.
    At the heart of our response to COVID-19 was our communication with 
the public. We held briefings twice a day, once via Facebook Live at 
noon and another briefing with the press at 3. These briefings were 
televised across northern and Central New York and we took the 
opportunity to emphasize that we are all in this together and it would 
take everyone doing their part to ensure our community emerges stronger 
than before. As New York State continued to shut things down and we 
asked people to modify their social behavior, I was heartened at the 
number of people tuning in, listening, and buying in to these 
sacrifices they were being asked to make, as scary as they were. We 
spoke about testing, quarantines, the number of cases, food security, 
day care, and mental-health programs; anything and everything that was 
relevant to the well-being of the public. Our job was to tell the truth 
without the slant of politics. We were asking people to sacrifice, and 
they had to know why. I never Monday-morning quarter-backed the 
decisions at the Federal or State level. I just talked about how they 
impacted us, and I believe people appreciated our straight-forward 
approach.
    Emotionally, the loss of life was overwhelming, but I knew the 
unintended consequences of these shut-downs would be severe. Whether it 
was individuals unable to identify or report domestic violence or child 
abuse to the rising cases in opioid overdoses or just the sheer 
devastation of our local economy, the human toll of this virus extended 
beyond what anyone could have imagined.
    Over the last year, there has been a significant increase in the 
number of fatal opioid overdoses in Onondaga County. From January 
through September 2020 there was a 40 percent increase in opioid 
overdose deaths compared to the same time period in 2019 (121 deaths vs 
86 deaths, respectively). The pandemic has exacerbated the opioid 
epidemic, through risk factors such as high unemployment rates, social 
isolation, and despair, as well as the disruption of available 
treatment and harm reduction support services that individuals with 
substance use may depend on.
    We were shut down for months and lost millions of dollars in sales 
tax not to mention our room-occupancy tax essentially evaporated. We 
had to cut county government and execute rigorous austerity measures. 
Twice we offered retirement incentives, but still had to implement 
furloughs, voluntary and involuntary. We were facing a $70 to $80 
million shortfall as we prepared our next budget. Adding salt to the 
wound, our population is 461,000, just shy of the half a million 
Federal requirement to receive direct Federal aid which would have 
totaled at least $100 million from CARES Act funding. The current 
funding formula resulted in the Federal Government sending our money to 
the State, but it was never redirected to us. This means that we have 
funded, and continue to fund, every aspect of this fight using whatever 
resources we could muster at the local level. Everything from testing, 
contact tracing, purchasing PPE and setting up vaccination clinics was 
done without one single dollar from any other either the Federal or 
State government. To be clear, we have had some success in receiving 
reimbursement from FEMA, but this required our Government to upfront 
the cost. While we were fortunate enough to be able to do this, there 
is no doubt that Onondaga County would have more greatly benefited if 
we had received the same direct allocation that our neighbors in Monroe 
or Erie counties had received.
    So there we were, in the middle of a pandemic, with no additional 
money, forced to let go of staff while enforcing a host of new rules 
and policies including mask-wearing and physical distancing, necessary 
to keep our community safe. No upside to this, really, except that when 
businesses were finally able to reopen, they understood what was at 
stake. We did institute a system for residents to send concerns or 
complaints about establishments not following safety guidelines and we 
teamed up our legal, probation, and health departments to investigate 
them. State agencies would eventually also lean on us about complaints 
they received, asking us to investigate. More often than not, we 
learned our business owners simply did not understand or know all of 
the new rules they were being required to follow and after empowering 
them with the necessary information, they quickly and gladly complied. 
At the end of the day I am proud to say that our local restaurant 
industry quickly and willingly agreed to be our partners when it came 
to following and enforcing the rules. Neither we nor the restaurant 
owners had any interest in seeing them closed again and we worked 
together to make sure that didn't happen.
    As difficult as this past year has been, as a county we have many 
things of which to be proud. On top of the list is how the community 
came together, everyone pulling in the same direction. We planned and 
prepared for the needs of our residents, and we acted. There was no 
paralysis. Whatever the obstacle, we figured out a way to get it done. 
We were especially aggressive about testing--symptomatic and 
asymptomatic--which is one reason why we saw our positive infection 
rates drop as we began our restart. We were intent on finding those 
hidden asymptomatic cases because we saw what the virus was doing to 
our seniors. Therefore, we tested in assisted living facilities and 
independent living facilities to box in the virus. We were equally 
aggressive in our schools. We deployed county personnel to perform 
saliva-pool testing for teachers to start the school year and 
asymptomatic testing for the entire student body, teachers, and staff 
beginning in November. Simultaneously, we were building up the 
infrastructure every day so that we could quickly pivot once the 
vaccine arrived.
    Syracuse University was also planning on using the UpState Saliva 
Test to bring their students back in August, an effort which would 
provide a desperately-needed boost to our local economy. However, it 
had yet to get emergency approval from the State or the FDA. Two weeks 
before school started, they had a decision to make. We were telling 
them they needed to test the students before they came back and we knew 
it was a big ask because it was going to cost them $2 million. Syracuse 
University proved once again their commitment to our community and 
spent the money doing the right thing for public health. Testing kits 
were mailed to the student's home, they self-administered the test, 
sent them back and were subsequently sent the results. Our community 
then knew which students were positive before they returned and 
required them to stay home and isolate. Those with a negative test were 
allowed to return, but our efforts did not end there. When the kids got 
to campus, they were tested again and thanks to this impressive 
undertaking, Syracuse had a great start to the school year
    We were also able to give some relief to small businesses, 
especially our hard-hit restaurants which are an important source of 
pleasure for our residents and tax money for the county. The Industrial 
Development Agency appropriated $500,000 to cover the cost of COVID-
related expenses--tents, heaters, fire pits, and more, so that outdoor 
dining could be more comfortable and compensate for the loss of 
capacity indoors.
    While nothing has made me sadder than the hundreds of people we 
have lost to COVID-19, nothing makes me happier than to start quickly 
dispensing the vaccine so we can begin to reclaim our lives and move 
forward, together. Our community spent months planning, preparing, and 
mitigating; now our focus has shifted to equitably distributing the 
vaccine.
    Onondaga County has proven to be the best among the big counties in 
New York State in distributing the vaccine and doing so quickly. I 
think that is worth repeating, Onondaga County, with no additional 
dollars or resources, is the best among the big counties in New York 
State for distributing the vaccine and doing so quickly. In the past 2 
months our POD has administered more than 20,000 first doses. While we 
are proud of this effort, we have the ability to ramp up to 18,000 
shots a week. We just need supply. As I said earlier, it is local 
governments who are responsible for being on the front lines fighting 
this pandemic. It is literally the job of your local health and 
emergency management departments to plan, prepare, and train for such 
events as this. We are on the ground, doing the work, day in and day 
out to keep our community safe and eventually reclaim our lives.
    I want to conclude by taking this opportunity, with this audience, 
to thank the amazing team working for Onondaga County. They have worked 
countless hours, had many sleepless nights, and sacrificed a great deal 
for the good of our community and I am eternally grateful to be able to 
lead such an amazing and dedicated team. To Chairman Thompson, Ranking 
Member Katko, and the rest of the committee, thank you again for the 
opportunity to share my community's story and I am happy to answer any 
questions.

    Chairman Thompson. Thank you very much. I thank the witness 
for his testimony.
    I remind each Member that he or she will have 5 minutes to 
question the witnesses.
    I will now recognize myself for questions.
    Dr. Ezike, a year later in this pandemic, what more can the 
Federal Government do to help States like Illinois deliver 
vital medical care to those hospitalized by the virus and 
support State vaccination efforts?
    Dr. Ezike. Thank you for that question.
    So there is a plethora of needs that can be coordinated at 
the Federal level. Of course, as I mentioned in comments, we 
need Federal strategies that help unify the effort of the 
cities, which in turn unifies the efforts at the local level. 
We know that in terms of the variants, we need a very organized 
system of surveillance to identify ahead of time variants 
mutations as they come on board. We need to be able to collect 
all the different variants that are identified throughout the 
State in a very robust library to be able to track that.
    We need data. We need a comprehensive data technology 
upgrade such that we can have our systems, or State registries 
give the important information to the Federal Government so 
that we can see exactly what is happening across the country. 
We know that people live and work in different States and so 
being able to have a more seamless connection between our 
partners is also necessary. But the technology solutions are 
one of our biggest needs, the technology solutions to make sure 
that we can collate all this important information.
    Chairman Thompson. Thank you very much.
    Dr. Watson, based on your research, can you explain how 
America ended up with the highest number of COVID-19 cases and 
deaths in the world? What should have been done differently and 
what must be done now to overcome these mistakes?
    Ms. Watson. Thank you for that question, Chairman.
    I think it is obviously a combination of factors. But I do 
think high-level communication about the pandemic was very 
muddled, sometimes it undermined the advice of public health 
experts, and it did not help people to take the protections 
that they needed to take to keep themselves safe from becoming 
infected. So we have really seen this virus thrive in that type 
of communication environment.
    We have also seen support for public health agencies has 
not be enough. They do not have the resources they need to do 
testing at a level they needed to help keep people to stay home 
when they have been infected or have been exposed to the virus, 
to do contact tracing at a high-enough level to keep up with 
cases and contact. All of these things need to improve. We are 
seeing more direct and clear communication to the public now, 
but that must continue. We need to be able to back fill health 
departments who have been going into the red to try and conduct 
this response. Obviously that is also needed for vaccination 
efforts, which are still under-supported and need to ramp over 
the next month.
    Chairman Thompson. Thank you very much.
    I would like to hear from Mr. McMahon. As you know, FEMA is 
paying for 100 percent reimbursement for the costs associated 
with this pandemic. Are you current in your reimbursement 
requests? Or explain how that process is working for local 
government.
    Mr. McMahon. Thank you, Mr. Chairman for the question.
    Recently we were approved for our FEMA reimbursement for 75 
percent. Essentially President Biden I believe--whether it was 
an Executive Order--pushed us to potentially be eligible for 
100 percent reimbursement for our expenses that were spent in 
2020. I think one of the challenges, if you think about the way 
we budget in local government, in 2020 we never budgeted for 
COVID-19 pandemic response. We then had economic shut-downs. In 
New York State for local governments our largest driver of 
revenue is sales tax. So when our economies were shut down, we 
lost up to 40 percent of sales tax for that period of time. So 
we never budgeted for these expenses to begin with, so there 
was never revenue behind it. We then lost the flexible revenue 
and had to make cuts, mid-year cuts to our budgets.
    So even though now we may be receiving some response from 
FEMA at this point, the model is challenging in the middle of a 
pandemic to cash-flow expenses. Governments had to borrow at 
times to cover expenses due to the model of reimbursement. So 
certainly something that should be considered moving forward.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. Katko, for 
questions.
    Mr. Katko. Thank you, Mr. Chairman, and thank you to all 
the witnesses for the testimony. This is obviously vitally 
important to getting an understanding of what we can do better.
    County Executive McMahon, we have had many conversations 
over the past year and many meetings over the past year about 
some of the things you touched upon in your testimony, which I 
would like to highlight.
    The overarching observation from me from all those 
conversations and meetings is that there is a question of 
equitable distribution of supplies, equitable distribution of 
vaccines, and equitable distribution of funding that we have 
provided. You have highlighted a little bit about the CARES Act 
funding that went to New York State, but since you were just 
under the threshold of 500,000, you didn't get the funding 
directly like your neighbors to the west of you did, Rochester, 
and that had a dramatically negative impact on your budget.
    So you have touched on that, but I want to talk about 
FEMA's role in this equitable distribution. It seems to me like 
FEMA is somewhat hamstrung in their ability to equitably 
distribute the vaccination, equitably distribute the PPE 
because the New York State--goes to Albany and they decide who 
gets what and when and how much. I think a lot more of it went 
down-State than it should have. So, from an equitable 
distribution standpoint, could you tell us some of the 
shortcomings you have experienced and what you have had to do 
to try and overcome them?
    Mr. McMahon. Yes. So it is difficult, too, if you think 
about the beginning part of the pandemic when you have PPE and 
test kits were the big need. The challenge in our State was 
that New York City and down-State, Long Island, Hudson Valley, 
was really under siege at a greater level, so the State's 
attention went to that--appropriately went to those regions, 
but we still had challenges where were so. So the model of--in 
an emergency, in a pandemic, of just flowing things through the 
State doesn't necessarily mean it gets to every part of the 
State. We saw that with the CARES Act funding. Again, I know 
there are Members of the committee who represent Nassau County. 
Imagine if Nassau County didn't receive direct aid in the CARES 
Act because you would have received from my counterparts. We 
were the largest community in the country that didn't. So we 
had to mid-year budget cuts of $40 million in the middle of a 
pandemic response because we didn't get the help other 
communities got throughout the country.
    When you look at vaccine distribution, our frustration 
isn't at the point the speed, supply is an issue everywhere, it 
is that for everything and every curve ball we have been thrown 
during this pandemic, the one thing county governments were 
prepared to do was vaccinate. We plan and we prepare for that, 
whether it was Ebola or whether it was SARS, this is what we 
do. We get Federal funding to plan and prepare. We believe we 
should have taken a larger role in that, and we still think we 
can. Especially we think we should, specifically to the idea 
that we know how to vaccinate our most vulnerable communities 
better than anyone else because we work with them every day.
    So with vaccinations--I use sports analogies a lot--we are 
in the second quarter of a four-quarter game here. We can learn 
from what didn't work well in the first quarter and adapt and 
adjust and pivot to have great success.
    Mr. Katko. OK. To follow up on that a little more, FEMA 
doesn't have the discretion with respect to PPE or with respect 
to vaccinations, in at New York State at least, to decide where 
they go. To kind-of think about Chairman Thompson's point, I 
think because of that sometimes minority populations do suffer 
because of the lack of equitable distribution of the PPE and 
the vaccinations.
    So would it be fair to say that if FEMA had a little more 
discretion when an emergency declaration is declared with 
respect to equitably distributing the products? A better 
mechanism for that would help communities like yours? The 
smaller ones in New York State?
    Mr. McMahon. Yes. The intention is to get supply directly 
to us from the Federal level. The clearest path to do that is 
to give it to us. I understand the challenge of there are 50 
States and there are thousands of local governments with health 
departments. I appreciate that challenge, but logistically in a 
pandemic I think it is different from regular course of 
business funding models.
    Mr. Katko. Right. Just to put a little finer point on that, 
FEMA is dealing with its first--I think first--National 
disaster declaration. It means Nationally they are in charge of 
getting the stuff out to the front lines, the vaccinations, the 
PPE, and everything. It seems to me that given that model the 
communities like yours and communities like--Chairman Thompson 
talked about Mississippi--they should have more discretion 
instead of being held to the whims of a Governor or a 
legislature that may not be as competent at doing that.
    Then from a fundamental sense of fairness, teams should 
have more role in deciding how things get distributed in the 
State. Is that fair to say?
    Mr. McMahon. I think it would beneficial during the 
pandemic, from my experience. Not suggesting--we may do some 
things differently. Whether they are better than the State will 
do then, history will judge us all on that. I just think the 
reality is local health departments, these are our 
professionals. We have epidemiologists on staff. Our local 
health commissioner and their team, they are the best in the 
business in my opinion. We know how to get things done. This is 
our community.
    I am a county executive. I am accountable to every member 
of the public here. We have certain powers in a public health 
crisis that have even been somewhat challenged through the 
State emergency orders.
    So the intention of the Federal Government is to get 
funding to local health departments in an emergency. The 
easiest way to do that is to get the funding to us. There is no 
guarantee if it doesn't go to us that the intention from the 
Federal Government, that will is going to actually happen.
    Mr. Katko. Thank you very much, Mr. McMahon. I appreciate 
all you have done during this pandemic.
    Now, Mr. Chairman, I yield back. Thank you.
    Chairman Thompson. Thank you very much.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. I will recognize Members in 
order of seniority, alternating between Majority and Minority. 
Members are reminded to unmute themselves when recognized for 
questioning and to then mute themselves once they have finished 
speaking and to leave their cameras on so they are visible to 
the chair.
    The Chair now recognizes for 5 minutes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much and good morning. 
Thank you to all of the witnesses for your very important 
testimony.
    Texas remains a hot spot in the landscape of COVID-19 
cases. It is a State of almost 29 million persons and we have 
had 41,000 deaths and we continue to be a hot spot for 
infection and of course we are challenged as it relates to the 
hard-to-reach communities and people of color.
    So this is a very important hearing because we are not 
ending, we are beginning. I think this committee has to be very 
pivotal in that role.
    Let me ask Ms. Clowers of the GAO, regarding the issue of 
testing, just the memory lane, very briefly, if I might, where 
we went wrong in the testing protocol when COVID-19 first 
started. You had recommendations of GAO reporting regarding 
testing and where they were implemented. What were your 
recommendations, very briefly, and are they valid today?
    Ms. Clowers. Yes, they remain valid. One of the key 
recommendations that we made was for a National strategy. You 
have heard the other panel members talk about this need as 
well. There has been different testing strategy documents that 
have been put out, but not an overarching strategy that would 
contain all the information that you would expect from a 
comprehensive strategy, where it defines the goals and the 
problems and the risk and the benchmarks, as well as how are we 
going to fund this, what resources are needed. Defining the 
roles and responsibilities. Then, importantly, making that 
strategy publicly available.
    One of the things we found in our work in talking to non-
Federal stakeholders is that sometimes they weren't clear about 
their role in a National strategy and that is, you know, ripe 
for causing confusion and gaps. That is what you can't have 
during a public health emergency.
    Ms. Jackson Lee. If I might, the failure in the 
administration not having a testing protocol provided for the 
surge in COVID-positive cases.
    Ms. Clowers. The lack----
    Ms. Jackson Lee. No protocol, no--that----
    Ms. Clowers. I am sorry to interrupt. The lack of the 
strategy has certainly compounded the problems that we were 
seeing. As you know, from the start, the testing in our country 
had challenges with the roll-out of the test equipment from CDC 
that caused some inaccuracies and to the slow ramp-up, and then 
we got into the supply chain. So it was a snowballing effect.
    Ms. Jackson Lee. Thank you, thank you very much.
    Ms. Clowers. Mm-hmm.
    Ms. Jackson Lee. Mr. McMahon, I was moved, impressed by 
your testimony. You are obviously boots on the ground and we 
thank you for that.
    I introduced H.R. 936, delivering COVID-19 vaccinations to 
all regions in vulnerable communities, which really was to 
emphasize FEMA working directly with local counties and cities 
where you are managing your own health department.
    Can you dig a little deeper on how that would work, rather 
than waiting with hat in hand, as you had to do for PPE, as you 
had to do for testing test kits, and now vaccines. Would that 
help save lives? We failed to do that with the Trump 
administration. We saw that as Members of the Congress, but 
you, how do you see the idea of getting direct collaboration 
with the Federal Government through FEMA and reaching these 
hard-to-serve communities, vulnerable communities?
    Mr. McMahon. Thank you for the question and thank you for 
your service.
    I believe the reality is that we could be partners at the 
local level with the Federal Government. I have colleagues that 
we communicate throughout the country and they may be called 
county judges in different parts of the country or different 
things, but I have spoken to the Harris County executive or 
county judge about the challenges via our network that we have. 
We have the local health departments, the experts. My health 
commissioner is a graduate of Johns Hopkins. She is well 
renowned. We have followed the data in this process. We have 
looked at testing as the tool to identify and box in the virus, 
the risk to our community. Getting us the vaccine directly will 
certainly help us get to the communities that need to get it 
that are not participating at the right levels.
    Ms. Jackson Lee. Thank you.
    Mr. McMahon. Thank you, ma'am.
    Ms. Jackson Lee. Thank you.
    Dr. Watson, are we sicker now because we did not have 
protocols dealing with COVID-19 early on? Is America sicker 
now, lost more lives because of that?
    Ms. Watson. I think there is no question of that, 
representative, that we have experienced a lot of illness and 
death, not just from COVID but also from loss of access to 
health care for other diseases that are critical. Absolutely.
    Ms. Jackson Lee. Thank you. Mr. Chairman, may I submit into 
the record Delivering COVID-19 Vaccinations to All Regions and 
Vulnerable Communities Act? I ask unanimous consent.
    Chairman Thompson. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jackson Lee. Thank you.
    I yield back, Mr. Chairman. Thank you.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman, Mr. Ranking Member.
    We have shut down the world's economy and destroyed 
millions of American families' lives over a virus. Far beyond 
health concerns of the virus, 100 million American adults 
having difficulties covering their household expenses, millions 
of children are missing out on critical in-person education. 
The economic consequences of Government action in response to 
this virus is going to last a generation. Viruses come and go. 
There is a certain cycle, new virus impacts the world, the 
world responds. We are in the 21st Century now, we have 
unbelievable medical skills and technologies, we are responding 
very quickly, and yet we shut down the world's economies. 
Despite Americans being told to stay home--let me tie this 
together with what is going on at the border--America is being 
told to stay home and shut down their businesses, deny their 
children an education, but our newly-inaugurated President is 
right now allowing scores of thousands of migrants, illegal 
immigrants, who had been held in Mexico and attempted to enter 
our country illegally, allowing them access into America. We 
are a Nation of immigrants, a Nation of compassion, and I am 
willing to have that conversation about immigration laws with 
my colleagues, but I find it highly ironic that Americans are 
being asked to live under continued repressive COVID 
restrictions while the Biden administration has relaxed our 
borders in a way that will result in a mass migration of people 
from Central and South America. Nobody is talking about COVID 
there.
    We expect illegal immigrants to enter America relatively 
freely, then we should let American citizens ourselves live 
free.
    Families have been restricted from the death beds of their 
loved ones. It is an unbelievable emotional impact. At any 
other time my colleagues were talking about the--be talking 
about the emotional stress and the pain and the burden of 
anything imaginable, but no one is talking about this. It has 
been abhorrent the oppression of freedoms and the impact on 
American families. My colleagues and the respected panelists 
that mention statistics, statistics stating that the United 
States is worst in the world, statistics are very commonly 
lies. Compared to who? China? Seriously? Does anyone believe 
that any COVID data coming out of China is accurate? It is 
intellectually unsound.
    What is next, Mr. Chairman? What virus is next? What level 
of Government oppression is next? Many, many Americans believe 
that their Government does not want them to wear masks and 
tolerate un-Constitutional restriction of freedoms until the 
end of COVID, many Americans believe that governments wants us 
to wear masks and tolerate oppression until the end of time.
    We grow weary.
    Mr. McMahon, let us talk about our kids please.
    Mr. McMahon. Yes, sir.
    Mr. Higgins. Let us talk about the schools. Students have 
the highest risk of long-term negative effects due to 
Government actions in response to COVID. Parents unable to go 
back to work because their kids are not allowed to go back to 
school.
    Give us your opinion, share with America, how do we get our 
kids back in school? You mentioned in your opening statement 
regarding Syracuse University. Share some of that formula----
    Mr. McMahon. Sure.
    Mr. Higgins [continuing]. And how we can get our kids back 
in school please.
    Mr. McMahon. Thank you. Thank you for your service as well.
    The reality is that throughout the pandemic response on 
every issue we follow the data. The more data we can get, you 
can make better decisions and you find the appropriate balance 
at the appropriate time during the pandemic response. Certainly 
we are at a position now when we--over--getting, for example, 
higher education back into the community. We worked with 
Syracuse University to send test kits to every student 
throughout the country. They were tested. Those who tested 
positive needed to quarantine at home. The students then came 
back to the community that were negative. They were then tested 
again. Now we do weekly testing for higher ed so that these 
students can have an in-person experience.
    When you look at our Pre-K-12, in our community we have 
been going to school. Some of our smaller rural districts, due 
to the regulations set forth by the State, can meet in person 5 
days a week because of the physical space. Some of the larger 
districts have hybrid models where they are going in person 2 
days. Some in our urban districts, the model changed from a 
remote model to a hybrid model. We are very concerned about the 
hybrid models. We know our children are falling behind. We know 
that we have rising cases of child abuse. Our eyes and ears on 
our children are our educators, day in and day out. We need 
them in the game. Our kids need to be learning.
    So we look at the data. Like I said before, what we did 
before our Pre-K-12 started in the fall, we tested all the 
faculty going back. We have done random asymptomatic saliva 
testing in the school buildings to look for that asymptomatic 
carrier. Now we have been using the Binax antigen test on a 
weekly basis with our county teams going in with our schools to 
test asymptomatic students. Mind you, a symptomatic student is 
not allowed in the building. So our positivity rates in the 
schools, from the month of January 2021 to present, even though 
we were experiencing surges in the community, our positivity 
rates in the schools is really about a 0.2 percent, trending 
down.
    So we believe testing is the tool to keep schools open. You 
give the data to the public so the public feels comfortable 
about doing more in-person learning.
    Mr. Higgins. Thank you, sir.
    Chairman Thompson. The gentleman's time has expired.
    Let me caution the Members, if you speak for 4 minutes and 
ask a question that takes 3 minutes, you are not being fair to 
the next Member of the committee. So I am going to hold us to 
the 5-minute mark because we have a lot of Members, because we 
are in a full committee, who need to get a chance to ask their 
question.
    So the Chair will now recognize the gentleman from Rhode 
Island, Mr. Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for their testimony today.
    I want to turn our attention to how the disabilities 
community has been impacted by COVID in particular. 
Unfortunately, many of the 500,000 people that we have lost to 
COVID belong to the disability community. Reporting by, for 
example, NPR, shows that people with intellectual disabilities 
and autism dying from COVID-19 at higher rates than the general 
population. In early numbers from the United Kingdom show that 
people with disabilities accounted for nearly 60 percent of all 
COVID-19 deaths last year. A very sobering statistic indeed.
    As we continue working to provide an equitable response to 
the pandemic, I believe it is essential that we include the 
disability community in our conversation.
    So, Ms. Clowers, if I could start with you, in your 
testimony you discussed CDC data that illuminate the disparity 
in COVID-19 in cases, hospitalizations, and deaths when 
examined by race and ethnicity. Would standardized COVID-19 
data broken down by disability status also be useful in 
ensuring an equitable pandemic response?
    Ms. Clowers. Yes, sir, it would. We need better, more 
granular data on a variety of fronts, whether it is with the 
disabled population, different racial or ethnic groups. Without 
that data it limits our ability to take needed corrective 
action to monitor trends, to see where we are maybe 
experiencing problems and then attack those----
    Mr. Langevin. Thank you. Are you aware of any CDC data or 
reporting efforts that examine COVID-19 cases, 
hospitalizations, or death by disability status?
    Ms. Clowers. I have not seen that, but I will ask my team. 
We will comb through the data again and get back to you if we 
find it.
    Mr. Langevin. OK. I would appreciate that.
    Ms. Clowers. Mm-hmm.
    Mr. Langevin. I think that would be very helpful. I will 
say that the American Community Survey conducted by the U.S. 
Census Bureau examines difficulties in 6 categories, hearing, 
vision, cognitive, ambulatory, self care, and independent 
living. I wanted to mention that.
    Dr. Ezike, if I could, has the Illinois Department of 
Public Health been tracking data on the prevalence of COVID-19 
cases, infections in the disability community? Why did the 
State feel it was important to prioritize vaccination for 
individuals with disabilities?
    Dr. Ezike. Yes, sir. Thank you.
    So we absolutely thought that this was an important group 
that needed special attention beyond individuals who are in a 
congregate care facility. So that is why we intentionally moved 
the group of differently abled or disabled population into our 
1D category. With our forms of registrations for vaccination, 
we will be able to select--people will have to designate their 
eligibility for vaccination, so they will be able to check if 
disability is the eligibility criteria that they need. So we 
will be able to grow some information and data around that. 
That eligibility population begins tomorrow.
    Mr. Langevin. OK. That is helpful information. Hopefully I 
will get some--we will look to that going forward.
    Let me ask you this, it has also been reported that roughly 
a third of Americans--military personnel are declining to 
receive coronavirus vaccines when they are offered, which is 
certainly above the civilian population.
    Dr. Watson, if I could ask you, from a public health 
perspective, what could we do to ensure that our troops 
understand the importance of receiving a COVID-19 vaccine and 
feel comfortable about its safety and efficacy? This is also 
important given the fact that we are using the National Guard, 
for example, to help implement and assist with the COVID-19 
response, but also administering the vaccine.
    Ms. Watson. Thank you for that question.
    Yes, I think it is all about clear and consistent 
communication. It is also about speaking with individuals who 
have familiarity with groups that we want to reach who are 
trusted by those communities. So we need to reach out to 
community leaders and give them the information that they can 
pass on and have conversation with people to try and understand 
their hesitancy. Then give them data and information that can 
show them how safe and effective these vaccines are and why it 
is important for them to be vaccinated.
    Mr. Langevin. Yes. Very important. Especially as it could 
impact readiness and response.
    So I know my time has expired. Thank you, Mr. Chairman. I 
yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Mississippi for 5 
minutes, Mr. Guest.
    You need to unmute yourself.
    Mr. Guest. Thank you.
    Dr. Watson, in your testimony, on page 3 of your written 
testimony that you submitted, you have a paragraph that says 
what we are doing right now in the United States, and you talk 
about some of our recent successes. It says the number of U.S. 
cases, hospitalizations, and deaths are all dropping rapidly 
from a winter peak, which was the highest of the pandemic. 
Daily numbers have fallen from a high of 295,000 reported on 
January 8 to about 72,000 as of January 20. Similarly, 
hospitalizations came down from a dramatic National average of 
about 130,000 to 63,000. Deaths are following, having dropped 
from a 7-day average of about 3,500 a day to about 2,000 per 
day.
    You also go on in the following paragraph to talk about an 
increase in population immunity from vaccination and prior 
infections. You say as of February 20 about 12.9 percent of the 
United States population has been vaccinated and more people in 
the United States have now received at least one dose in the 
vaccine in number of people reported to have had COVID.
    Recent media reports as it relates to school reopenings, 
the Wall Street Journal said parents and officials in favor of 
reopening in-person education say their own experiences 
confirmed research that children are being harmed academically, 
emotionally, physically by the isolation of remote learning. 
Kids, they argue, need to be back in the classroom as soon as 
possible. They point to the U.S. Center for Disease Control and 
Prevention recent urging of schools to reopen under new safety 
guidelines and research that shows low transmission in schools 
where safety protocols are followed.
    ABC News reported that the Nation's top health agency said 
that in-person school learning can resume safely with masks, 
social distancing, and other strategies and vaccination of 
teachers, while important, is not a prerequisite to reopening 
schools.
    In my home State of Mississippi, the Chairman's home State 
of Mississippi, my son's high school, we have been successfully 
implementing in-person learning since August. So August, 
September, October, November, December, January, February, now 
heading in to March--for 8 months in the State of Mississippi 
we have been able to successfully implement in-person learning. 
Congress has appropriated $70 billion for K-12 schools to 
implement and to educate our children during this pandemic.
    So my question is, in light of the recent successes that 
you listed in your report, in light of the new CDC guidelines, 
in light of the fact that Congress has appropriated $70 
billion, why are we still unable to reopen our schools in many 
parts of the country?
    Ms. Watson. That is a good question. Thank you very much.
    I think that we still have very high incidents of this 
virus in our communities, and so as incidents continue to 
drop--it is not low yet, but as it continues to drop, it makes 
in-person learning much safer. I agree with you that when 
schools follow the CDC guidelines, when they are testing 
frequently, and especially now that we have vaccines, when 
adults can become vaccinated in schools, that in-person 
learning will become much more viable and much safer.
    So I think we are definitely headed on the path to resuming 
in-person learning for most schools across the country, but we 
have to do it safely. That is through following the CDC 
guidelines.
    Mr. Guest. But do you agree that children that are educated 
remotely, that they suffer harm academically, emotionally, and 
physically because of the remoteness? Would you also agree that 
there are many children who learn much better in in-person 
classroom settings than they do remotely?
    Ms. Watson. I think that there is no doubt that in-person 
learning is what we are all striving for and what kids need. We 
just have to make sure that we are getting back to it safely, 
and I think we are on the path to that.
    Mr. Guest. Well, then why are schools, such as the schools 
in Mississippi, again where my son has been enrolled in-person 
learning since August, why are some schools able to be very 
successful in that and other schools are even reluctant to try 
in-person learning? Because it seems like, from the recent CDC 
guidelines and the new research that we are getting, that 
schools can reopen safety, but is it reluctance on the behalf 
of many of the educators, many of the school boards to force 
schools to reopen and to educate our children as we are 
required to do?
    Ms. Watson. The guidance is also dependent on lower levels 
of transmission in the community, as well as comfort by 
teachers and other adults who have to be in the room, as well 
as parents in sending their kids to those schools. So it has to 
be a conversation with people. We can't force people to come 
back in person if they are not comfortable.
    Mr. Guest. Thank you, Mr. Chairman. My time is up, I yield 
back.
    Chairman Thompson. Thank you very much.
    Chair recognizes the gentleman from New Jersey for 5 
minutes, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Listening to my colleague, I would be remiss if I didn't 
mention that had the 45th President taken seriously this 
pandemic, we could potentially not be in this condition: 
505,000 people have succumbed to this disease. The 44th 
President met with the 45th President's administration and laid 
out 3 different incidents of disaster that could happen in the 
country. One was a pandemic scenario. But it was never taken 
seriously by the 45th President, and here we are.
    So my question is for Dr. Ezike and Dr. Watson. To get our 
children back into school is critical, but we must do it 
safely, obviously. President Trump pushed schools to reopen, 
but without funding States and local governments need to ensure 
distancing in schools and enough PPE for students and 
educators. He would not even reimburse State and local 
government for the costs necessary to operate school safely, 
such as masks or disinfectant.
    My piece of legislation, the Masks for Students Act, which 
passed the House unanimously last Congress, and a part of FEMA 
Assistance Relief Act, will require FEMA to reimburse school 
districts for the cost of masks. I am pleased that President 
Biden has followed our lead and directed FEMA to reimburse 
schools for these operating costs.
    Dr. Ezike and Dr. Watson, can you explain to the committee 
why it is important for the Federal Government to help schools 
pay for mitigation measures like masks and disinfectant 
supplies?
    Dr. Ezike. Thank you, Representative.
    This is an important measure that is needed because all 
school districts are not created equally. We know we have 
school districts in high socioeconomic areas versus very low 
socioeconomic areas. So the ability to have these supplies up 
and ready without the assistance is very varied. We know that 
class sizes, classroom size, the ability to do testing, a lot 
of those measures have been able to be done in higher economic 
areas, which causes the increased disparities.
    So we do agree that resources should be deployed so that is 
not another defining division to be making students have 
opportunities to be in person learning versus others, because 
we do all agree that that is where we want our kids to be.
    Mr. Payne. Thank you.
    Dr. Watson.
    Ms. Watson. Thank you very much.
    I completely agree with my colleague. I also think that we 
need to give consistent guidance to school districts across the 
country that is coming from the Federal level, which I believe 
we now have, but also from the State and local level, which has 
been quite variable. So if we can make clear our expectations 
of the steps that schools can take to keep their students safe, 
and then of course have the resources to do that, I think that 
will be very helpful.
    Mr. Payne. Thank you.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you. The gentleman yields back.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Bishop, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Dr. Watson, your testimony happened to be first in my 
packet and I read it with care. On the first page you say that 
significantly though we have offered up evidence that our 
National response did not meet its potential and that many 
thousands of unnecessary deaths have occurred as a result. I 
read with care specifically those parts of your testimony that 
spoke about successes and failures.
    I note I guess the--is this paragraph on page 5, you say 
finally--and I think this is--everybody pretty much agrees on 
this--finally the biggest and most visible success of the past 
year is the development of multiple, highly safe, and effective 
COVID-19 vaccines in under a year. I cannot emphasize enough 
what a technical feat this is. In fact, you have said also 
otherwise in your report that cases are dropping sharply and 
hospitalizations are at this point. Is that right?
    Ms. Watson. Yes, that is correct.
    Mr. Bishop. So by historical standards, I mean that is 
kind-of an unprecedented success, wouldn't you say?
    Ms. Watson. I think the development of the vaccines is 
absolutely an unprecedented success, yes.
    Mr. Bishop. Now, on the parts about the failures of the 
U.S. pandemic response, I read that and it is hard for me to 
condense some of it. I mean it is about the--you said that 
public health officials suffered retribution and bad treatment, 
that elected leaders didn't adequately protect and support 
them, that there was a politically-driven failure to heed 
expert advice.
    I think this is the best summary sentence maybe. It says 
high-level denial of the severity of the pandemic and 
disempowerment of scientists and public health experts led to 
both under-resourcing of the response and significant confusion 
of the public.
    So when you get past that sort-of section on just sort-of 
the generalities of that, you get into this paragraph that says 
within the response itself there are a few significant issues 
that should be highlighted. You say that public health agencies 
were overburdened and underfunded, and then you come to a 
specific. You say support for State, territorial, and Tribal 
vaccination planning is a particularly damaging failure. While 
the U.S. Government has understandably spent billions of 
dollars on vaccine development, only $200 million was provided 
to States for the actual distribution and administration of the 
vaccine. Is that in fact your testimony? You cite an article, 
but is that your testimony before the committee, that only $200 
million was spent for that?
    Ms. Watson. Was specifically made available for the 
planning and for mass distribution of the vaccine yes.
    Mr. Bishop. Well, I looked up the article that you cited 
and it says that that $200 million was released by CDC in 
September. In fact, there was a September 23 release to that 
effect. But at the end of the article it goes on to say 
Congress eventually did allocate $4.5 billion to State 
governments, but the money only began to flow to the States 
earlier this month.
    So is the figure $200 million or $4.5 billion?
    Ms. Watson. Two hundred million dollars was in reference to 
the planning phase for mass vaccination back in the fall.
    Mr. Bishop. At the time--I mean if that was only released 
in September, so the debate that this newspaper article refers 
to is what was happening in October, right?
    Ms. Watson. Yes, sir.
    Mr. Bishop. I think what caught my attention about it is 
when I was reading Ms. Flowers' testimony, over on page 5, it 
says that FEMA, as of February 7, had provided more than $2.29 
billion to 32 States, the District of Columbia, 3 territories, 
and 2 Tribes for expenses related to COVID-19 vaccination 
efforts.
    So there is another--is that an additional $2.29 billion 
that--because it didn't come from CDC, but FEMA?
    Ms. Watson. I defer to my colleague, Ms. Flowers, on that. 
That is a big issue. I would have to go back and look, sir.
    Mr. Bishop. When you were testifying that only $200 million 
had been given to help distribution efforts, you were intending 
of course to rely on that information. I assumed you researched 
it carefully, didn't you?
    Ms. Watson. Yes, sir. That was the funding that came to CDC 
to States and local--to State health departments to prepare for 
vaccination efforts, yes.
    Mr. Bishop. Well, I would say that from what I read in your 
own article and from Ms. Flowers' testimony, that seems to be a 
misleading figure. I would think, in light of the degree to 
which you anticipate and expect that rely on you as the expert, 
that you would be more careful about reporting such a 
disparity.
    I mean we are talking about probably 100 times misnumber or 
mistake in terms of the amount there.
    I notice that--or I point out, I am sure you are aware that 
in New York State Attorney General Letitia James released a 
report on the nursing home response there and that a larger 
number had died than had been reported, that there were 
suppressions of information by the State government there, 
because for political reasons that the number of deaths 
connected to New York nursing homes were about 15,000, up in 
the--this has ballooned up to that, from 12,743 in late 
January. So it is an on-going problem. I would think that it 
would be very important for maintaining trust that accurate and 
non-partisan, non-slanted information come forward from public 
health officials in order to justify the confidence and the 
reliance that you are saying should customarily reported.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    Chair recognized the gentleman from California for 5 
minutes, Mr. Correa.
    Mr. Correa. Thank you. Thank you, Mr. Chairman, for holding 
this most important hearing.
    Last year, as you know, the first Member of this committee 
to call for expert testimony about this emerging threat called 
the coronavirus today, and this committee, thank you very much, 
sir, was one of the first to hold a committee hearing on the 
subject matter. A lot has happened in almost a year, a lot of 
loss, a lot of our friends and neighbors that passed on.
    Ms. Clowers, in a GAO report on our COVID response you 
noted that the previous administration had not acted on 
recommendations to more fully address critical gaps in the 
medical supply chain. Lessons learned. Where did the prior 
administration fall short, what do we do today to fix that?
    Ms. Clowers. We made several recommendations in the area of 
medical supply chain, and I will highlight a few where I think 
if we took some action it would help improve on-going response.
    First, clarifying the roles and responsibilities of the 
number of actors involved. At times there has been a lot of 
maybe phonetic activity in trying to get the supplies and 
address the gaps that we are seeing, but they always have not 
been coordinated, leading to confusion and frustration.
    Mr. Correa. Let me interrupt you there.
    Ms. Clowers. Sure.
    Mr. Correa. Very quickly. You bring up a good point.
    Mr. McMahon, you are a county individual where the rubber 
meets the road. One of the issues that I see on every weekend 
that I am not with my county employees trying to vaccinate our 
communities is, you said, Ms. Clowers, confusion. I am seeing 
some of the change in the administration's response. This 
administration to use Federally-qualified health care centers 
to better communicate, distribute vaccines directly from the 
Federal Government, those people that are actually giving out 
the vaccinations. There are too many middle men right now. 
There are too many different agencies, State, local, counties 
involved. This is creating all kinds of confusion.
    So my question to both of you is can we--how fast can we 
get the Federal Government to streamline the system, use FQHCs, 
maybe go directly to those, you know, doctors at the corner 
that really treat the patients on the day-to-day basis? How can 
we execute more effectively right now and not have to wait 
another few weeks to get to an execution that is satisfactory 
to our community?
    You can answer that very quick, Ms. Clowers and Mr. 
McMahon.
    Thank you very much.
    Ms. Clowers. OK. I will go first if you want and I will 
just say really quickly it is involving local officials, like 
Mr. McMahon, in these efforts. To date, a lot of the plans have 
been developed maybe at the Federal or State levels and not 
always involving the locals, and the locals are the ones that 
know their community and can get that message out and help the 
distribution going.
    So I will turn it to my colleague now.
    Mr. McMahon. I would agree, sir. The reality is our local 
FQHC has been a great partner of ours. We had the first mobile 
testing site with them before we had a case. The challenge they 
would have is capacity. So we at the local level have the 
capacity, we have the human service relationships in the 
neighborhoods. The State of New York is working with us 
potentially on more vaccine supply to address this issue, but 
we are the ones that have the existing infrastructure that we 
can build off of, we have the relationships. These are our 
clients that we work with on a day in and day out in other 
departments, so really at the local levels the best way and the 
best strategy to get to our hard-to-reach communities.
    Mr. Correa. Ms. Clowers, we keep talking, we keep reading 
about these millions of vaccines that are coming our way, yet 
this last weekend I was at home. Megacenters shutting down 
because the vaccines were not there. How fast can we ramp up to 
really take care of this issue? I don't want the blame game, I 
just want to say how fast can we get the vaccines to main 
street?
    Ms. Clowers. Well, I think we heard very positive news out 
of testimony yesterday from the vaccine development companies 
in terms of getting to 3 billion in the next month or so. So 
the supply is growing, the supply is going to be there. It is 
really going to come down to these logistics of taking what the 
supply there and quickly it into the shots and into the arms of 
Americans. So that is going to involve our local officials, but 
also importantly the communication. It needs to be very clear 
and consistent.
    As you have heard from fellow panel members in terms of 
both educating the public on the safety of the vaccine, how to 
get the vaccine, as well as educating providers and encouraging 
them to help understand and promote that message as well.
    Mr. Correa. Thank you very much.
    Mr. Chairman, I am out of time. I yield.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from South Carolina for 
5 minutes.
    Mr. Norman. Thank you, Chairman, and Ranking Member Katko. 
Thanks for holding this hearing.
    I guess my question concerns the vaccine roll-out. Let me 
remind my colleagues on the--my friends on the left, that had 
it not been for Operation Warp Speed to produce this vaccine, 
there would be no vaccine. So other than the 7-year turnaround, 
which is normal, to have it within 12 months is really an 
accomplishment that the 45th President made happen. I just 
wanted to alert everyone to that.
    Let me ask the question as far as the roll-out. We have got 
right at 3,000 immigrants a day coming across that border due 
to the Biden administration. I have heard all through this 
testimony about shortages of vaccines among the minority, 
shortages among Americans, what are we doing as the 3,000 come 
across the border who will be entering our school systems, who 
will be entering our towns? What is our game plan to vaccinate 
them? Are we using masks? What is happening with that? Because 
if you look at the statistics--and I am one that follows the 
data. I think that is a good thing. The new cases domestically, 
according to the CDC's website, are 67,437. Internationally 
they are 384,448. You look at the new deaths domestically, 
2,356. This is as of February 19. Internationally 10,471. So 5 
times the numbers domestically.
    So in order to protect America--and, Ms. Clowers, I will 
address this to you--what is the game plan that you see to fund 
it for both the illegals coming across the border, and how are 
we going to deal with this?
    Ms. Clowers. Well, certainly as we roll out with our 
vaccine efforts and we are focusing on the United States, as 
one of the panel members mentioned earlier, this is a global 
crisis. As long as the pandemic, as the virus is spreading 
throughout other countries, that poses a security risk and a 
health and safety risk to us as well. So it is something that 
we are going to have to watch and participate in.
    I know there has been funding that is provided to State and 
other efforts to help control and mitigate the spread in other 
countries. It is work that we have on-going and happy to report 
back to you on this.
    Mr. Norman. So, specifically, are they being vaccinated as 
they come across or are they being tested, are they--I mean 
give me some--I know you say generally we are looking at it, 
what are the specifics?
    Ms. Clowers. Sir, at this point I don't have those details 
at my ready in terms of what we are doing at the border, but I 
can certainly get back to you and your staff on that.
    Mr. Norman. If we could, because it affects every American, 
it affects--this isn't a Democrat or a Republican issue, this 
is an American issue. So if you can get back with us on 
specifically what is being done all across the borders that are 
now pretty much open for anybody to come across, I would like 
to see the game plan that you have and others have before it 
gets to the pandemic--worsens the pandemic that we have here.
    Ms. Clowers. Yes, sir.
    Mr. Norman. Now, as we try to get a handle on the funding 
on how the COVID relief is being spent, was your team at GAO, 
Ms. Clowers, able to assemble the information that we need to 
track how the COVID-19 relief funds were actually spent? How 
was that done?
    Ms. Clowers. We are doing that--in the process of doing 
that. As new relief bills have been passed we have been 
updating our information. As of now about $3.1 trillion has 
been appropriated and that has gone across the Government, a 
variety of sectors. HHS has been one of the largest recipients 
of that given their responsibilities for the public health. We 
have been tracking that down through the obligations that have 
been made, as well as expenditures and trying to track that 
down, all the way down to the State and local governments in 
some cases.
    Mr. Norman. On the unspent funds, do you know the amount of 
unspent funds and when that is going to be released?
    Ms. Clowers. In terms of--I can give you some information 
on that in terms of the amount that has been obligated. Just as 
a little bit of data, because we are still updating the 
information, but as of November 30, so far at that point $2.7 
trillion had been appropriated, about $1.9 trillion had been 
obligated, and $1.7 had been expended. We will be updating that 
with new release consolidated act numbers that were passed at 
the end of December.
    Mr. Norman. OK. Well, I would ask if you could get this. 
When do you think you would have this information?
    Ms. Clowers. Yes, sir, we will be reporting out again in 
March. Congress directed us to report on a regular basis and 
our next report will have the latest spending figures in it. We 
will make sure to get that to you and happy to brief you and 
your staff on it as well.
    Mr. Norman. On the actual plans on the treating the 
illegals, will that be to us?
    Ms. Clowers. Yes. I can get that to you as soon as I get 
back to my team and get some specifics in terms of what the 
agencies are doing and I will follow up with your staff.
    Mr. Norman. Great. Thank you so much.
    I yield back.
    Chairman Thompson. Thank you very much.
    Ms. Watson, I did not give you time to respond to the 
testimony referencing the CDC expenditure for the vaccine. If 
you would like to respond to that, I will yield back to you.
    Ms. Watson. Thank you very much, Chairman.
    Yes, I specifically worked on the funding that went to 
State health departments to prepare for the vaccine roll out. 
So at that time it was a very small amount compared to what had 
been spent on vaccine development. That development was 
obviously very important. I am not taking away from that, but 
we did not adequately reimburse our health departments to 
undertake the unprecedented roll out of vaccine, certainly.
    Chairman Thompson. Thank you very much.
    Chair recognizes the gentlelady from Michigan, Ms. Slotkin, 
for 5 minutes.
    Ms. Slotkin. Thank you, Mr. Chairman, and thanks for the 
witnesses for being here.
    My question is related to this supply chain issue. I am 
sure everyone on this screen went through the experience back 
in, you know, April, March, where were just desperately trying 
to get ahold of masks and gowns and gloves and very basic 
things. I remember very clearly being on the phone with Chinese 
middle-men in the middle of the night just trying to get some 
KN95 masks for our health care workers who were using things 
like scuba equipment in order to protect themselves as they 
intubated patients and whatnot.
    Then I remember very clearly when we got our portion of the 
Strategic National Stockpile, it was a lot less than what we 
thought. We opened it up, it was moldy and expired. For us in 
Michigan I feel like we have been talking about how when you 
outsource supply chains, particularly on sensitive issues, on 
sensitive items, like it is going to come back to bite you, and 
I feel like it bit us.
    So the question is we have the President at the White House 
today announcing a new kind of made-in-America supply chain 
review.
    For Ms. Clowers, can you go through in specific terms what 
additional steps we need to take to if not bring back some of 
that supply chain to the United States, at least regionalize it 
so we are not dependent on countries we have sometimes a mixed 
relationship with, like China? What can the Defense Production 
Act and Buy American Requirements and the Government do to 
actually bring those supply chains home and make us less 
vulnerable?
    Ms. Clowers. Yes. This is an issue that we have been 
tracking for about 9 months now because, as you note, it has 
been a persistent challenge from right at the beginning from 
the lack of supplies. What we saw was that domestically there 
was an insufficient amount of supplies on hand, or in some 
cases they were outdated, the supplies were unusable.
    In terms of what can we do going forward, you know, we have 
called for a few things, including better clarifying the roles 
and responsibilities of all the different players. Again, we 
saw that confusion in terms of who was going to be providing 
what and how to get the supplies that were needed.
    I should note that this isn't surprising, because in the 
fall of 2019 the Government conducted a pandemic exercise and 
through that exercise they found--some of the key findings was 
that we had insufficient supplies and that we were going to 
have confusion and that it was going to lead to needed gaps.
    In terms of going forward, so we have called for clarifying 
the roles, assessing what gaps exist now, but also looking 
ahead to try to get ahead of this a little bit, you know, 6-12 
months, and also looking into the next pandemic. We do want to 
be looking at all the tools that are being used from the 
Defense Protection Act and other tools that we might be able to 
bring to bear in terms of financial incentives.
    Two other quick points I will make on the financial 
incentives. Especially in the area of medical countermeasures, 
we have been--as we have noted, the vaccine development, we 
were successful this time in terms of getting a vaccine 
developed within a year, but that is an inherently risk process 
that is very costly. Most medical countermeasures actually 
fail. So we need to incentivize companies to work in this area, 
conduct the R&D necessary.
    Then, finally, really examine the role of the Strategic 
National Stockpile. Is it to be a front line defense or a 
backstop? People need to have an understanding of what they can 
count on from this Strategic National Stockpile so State and 
local can plan.
    Ms. Slotkin. Yes. I mean I think the truth is Democrats and 
Republicans all talk about this, right. It is like a really 
common message that people are saying after the year that we 
have lived through. But what I fail to see is actual action, 
right. We all know we have to look at gaps, we have to 
coordinate better. But what are we going to do actually 
incentivize that production to be made here? That is going to 
take breaking some china for how our system works.
    Mr. Chairman, I would offer we could do maybe a bipartisan 
letter or something, particularly to DHS to talk about our 
concern about this and urge them forward so we get beyond this 
idea that we are all concerned and we actually start seeing 
changes in how the procure at places like DHS.
    With that, I yield back the rest of my time.
    Chairman Thompson. Well, staff will get with the gentlelady 
from Michigan and we will start drafting language for such a 
letter as you are talking about.
    The Chair recognizes the gentlelady from Tennessee, Ms. 
Harshbarger.
    Ms. Harshbarger. Thank you, Mr. Chairman.
    I have several questions. The first is for Dr. Watson. I 
have been a pharmacist for 34 years and I absolutely understand 
the vaccination process and the manufacturing supply chain. You 
know, I was looking at the testimony from Ms. Clowers and what 
it says is that in nursing homes they did not capture for the 
first 4 months of the pandemic because they weren't required 
until May 2020.
    My question to Dr. Watson is how important is accurate data 
collection as we continue to respond to this pandemic? The 
second part is how do we ensure that that data collection is 
consistent from State to State? What kind of parameters are in 
place to make sure that happens? Because this has to be data-
driven. You know, there can't be any gaps in this.
    Ms. Watson. Thank you very much.
    Yes, I completely agree with you. That should be a 
priority. As my colleagues have already stated, in order to 
make changes and to recognize where our response falls down, we 
need the data to drive that. So I think accurate data 
collection is very important. How we do that is in part having 
very consistent guidelines and guidance from the Federal 
Government, from the CDC in particular. That is really 
important to standardize how our data is collected.
    Thank you.
    Ms. Harshbarger. That is great.
    I do agree with my colleague, Ms. Slotkin, because I have 
been talking for 25 years that we need to do something about 
the supply chain, us being able to have a domestic supply chain 
for finished pharmaceuticals as well chemicals to produce those 
domestically. You know, it is imperative we do that. Maybe it 
is about time, I don't know.
    But, you know, what we did learn, and Mr. Norman touched on 
this, Warp Speed did provide us a vaccine in record time, and 
that really shows that these drug companies can get vaccines 
out from now on in a more timely fashion. It is not just that, 
it is other things as well. There is a lot of scrutiny when it 
comes to getting things to market.
    But Congresswoman Jackson Lee asked you is our society 
sicker now than it was before and you said yes. Now, I have 
read in your testimony that the post-COVID syndrome, there are 
certain things that we have to worry about with that. I 
understand that that is things like loss of taste and smell, 
fatigue, that type of thing. I have read some articles that say 
that lasts 8.9 days and then 98 percent of people are cleared 
up within 28 days.
    So in your testimony too, really 28 million reported cases 
of COVID what work is being done to understand those long-term 
effects of the virus? In my opinion, the long-term side effects 
are things like the school closures. You know, when are they 
going to do studies about what this detriment has done to the 
children in their learning capabilities. It put us back 10 
years. You know, the closures are shuttering small businesses 
completely. These are things that I look at, but what are you 
doing--how are we going to study the long-term impacts of this 
virus?
    Ms. Watson. I think certainly we need to study all of the 
long-term impacts of this pandemic, and that includes societal 
impacts from the pandemic itself and from the efforts we have 
had to take to control it. But in terms of the long-term 
impacts of COVID and post-COVID syndrome, I know that there are 
a number of studies on-going. They are actually trying to 
understand what those effects are and how we can help people to 
recover more effectively from this virus.
    But recent data has shown that many people months after 
they have recovered from the acute phase of COVID do have at 
least one of these symptoms and it is affecting their lives. So 
I think that is a really important thing that we need to look 
at.
    Ms. Harshbarger. You also spoke about different variants of 
this COVID-19 virus. Do you know how many have been identified 
or how bad those strains are going to be? I was on another 
conference call and they talked about those different strains. 
What have you learned about that and what should we know about 
that?
    Ms. Watson. I think we are trying to increase our 
surveillance across the country for these variants of concern. 
That is a really important effort that there is funding in the 
American Rescue Plan for additional surveillance capabilities. 
I think that is very critical.
    Some of the variants are very concerning right now, 
particularly B117, which has been shown to be much more 
transmissible. We are watching that to see if that will cause 
another spike in cases in the spring. I am hopeful that it 
won't because we have mitigation measures in place. But there 
are other variants that also escape our response that we need 
to watch carefully and then plan our update to a vaccination in 
line with those.
    Ms. Harshbarger. OK.
    Chairman Thompson. The gentlelady's time has expired.
    Ms. Harshbarger. I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
Missouri for 5 minutes, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    You know, one of the worst things that is going in this 
country, and I--you know, I have fear for my children and their 
children over the direction we are going. We try to politicize 
everything. It almost made me throw up to just hear the--you 
know, we have to politicize a pandemic. We politicize wearing 
masks, we politicize whether we drink bottled water or make a 
cup out of our hand, drink out of the faucet, drink out of a 
well. Whatever, it doesn't matter. We figured out how to 
politicize it and create some kind of a social battle on it. We 
have done it here. It just troubles me.
    But what I would like a guest, those who are testifying, to 
help me understand, is that, you know, last March, the 
President said, you know, we want to be back in church by 
Easter. In my real life, last year was the first time I wasn't 
in church on Easter in my whole life. I am usually there 52 
Sundays a year. Then he said it is going to be a great 
experience. I think when we start giving out false information 
it does damage.
    My question to you is, is there a system that we need to 
put in place? Can you help me at least, figure out a way 
something we can put in place that will allow the Government, 
you know, to take a back seat because of the system we put in 
place? I know we are going to need the President's leadership 
on things like this, but maybe there is something I am 
overlooking. I have been trying to--now what could we have done 
to prevent what was done that has in fact probably cost us 
lives? Can any of you help me create this and get the Nobel 
Peace Prize?
    Ms. Clowers. Well, sir, I would offer, you know, as we have 
looked back over the last year in terms of our work from 
lessons learned that have emerged--and actually these were 
lessons we also offered actually last February. I testified for 
a Senate panel as we were learning about COVID-19. Looking back 
through our work on H1N1, as well as responses to other public 
health emergencies, several things were clear about what we 
needed to be doing. I have mentioned some of them already, but 
we needed plans in place in terms of clarifying roles and 
responsibilities. Everyone needed to know what they were 
responsible for and who they should be working with.
    We needed clear and consistent communication in terms of 
messaging about where we were with the pandemic, what we were 
doing, and importantly, what steps we needed the public to 
take, because in a public health emergency you are asking the 
public to take certain steps. So you need to make sure that you 
are informing them in a clear and consistent way.
    The same thing in terms of using data to drive decisions 
was another lesson learned. Making that data as readily 
available and understandable to the public so they understand 
why we are asking them to take certain measures. Then, finally 
with transparency and being as transparent with our actions as 
possible. So when the Government is making decisions, whether 
it is around testing guidance or improving emergency use 
authorization, the public understands and it can increase the 
confidence level in the actions that the Government is taking.
    Mr. Cleaver. Thank you. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    Chair recognizes the gentleman from Georgia for 5 minutes, 
Mr. Clyde.
    Mr. Clyde. Thank you, Chairman Thompson.
    I would like to take this opportunity to address my grave 
concern with the Biden administration's decision to eliminate 
the migrant protection protocols. This reckless decision will 
have the dual effect of putting Americans at risk of exposure 
to the coronavirus and creating conditions that mirror the 2019 
border crisis. Increasing number of unaccompanied minors and 
families illegally crossing the border in the middle of a 
global pandemic is creating a recipe for disaster.
    President Biden's Executive actions have the potential to 
cause mass outbreaks at facilities and ports of entry which 
would lead to their temporary closure that could have a 
significant impact on commerce and further handicap our 
economic recovery efforts. A mass outbreak would also 
jeopardize the health and safety of our men and women who serve 
on the front lines protecting our Nation's borders.
    Finally, these Executive actions and a surge at the border 
have forced Customs and Border Patrol officials to return to 
the dangerous policy of catch-and-release. This policy releases 
migrants who have not been properly vetted or sufficient tested 
for coronavirus into our communities, putting the health and 
well-being of Americans at risk.
    The Biden administration's actions are unacceptable and 
serve as distractions from what this committee should be 
focusing on, which is how we can secure our borders and prevent 
our constituents from being exposed to the COVID-19 virus.
    I would like to submit for the record a letter that my 
colleagues and I on the House Oversight and Reform Committee 
send to Secretary Mayorkas highlighting these concerns. The 
letter is dated February 19.
    With that, Mr. Chairman, I yield back my time.
    Chairman Thompson. Thank you very much.
    Without objection, the letter will be included in the 
record.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Thompson. Chair recognizes the gentleman from 
Texas for 5 minutes, Mr. Green.
    Mr. Green. Thank you very much, Mr. Chairman. I am honored 
to have this opportunity to ask questions.
    Let me lay the predicate. President Trump led three-
quarters of the 69 press events during the first 13 weeks of 
the pandemic.
    First question, how important it is it for the 
professionals to give professional advice at the inception of a 
pandemic, in its nascency? Dr. Watson, would you kindly 
respond?
    Ms. Watson. Yes, sir. The professionals, the public health 
experts, the scientific experts need to be able to provide 
their expert judgment on the pandemic situation. It is not 
always totally clear-cut what the situation is, but they need 
to be able to weigh in with their experience and education and 
their related judgment. When they are prevented from doing that 
or when political pressures are put on them to say something 
that contradicts that experience and that judgment, that is 
where we run into trouble.
    Mr. Green. I think it is fair to say that--and I mean no 
disrespect--but that some of the advice that was given by the 
President, some of that advice proved to be harmful to some 
members of the public. I can recall persons taking certain 
chemicals to their bodies that were harmful to them.
    Is this the kind of thing that you can avoid if you allow 
the professionals to lead?
    Ms. Watson. Yes, sir. Good risk communication will tell 
people what they can expect in terms of risk, what actions they 
should take to protect themselves, and answer the questions 
they have, but won't lead them to do things that are more 
dangerous.
    Mr. Green. Now, on the other hand, juxtaposing the Biden 
administration to the previous administration, we have the 
Biden administration with a commitment to put shots in arms. In 
fact, in my Congressional district, the Biden administration is 
setting up a super site, 6,000 shots in arms per day, to have a 
total of 126,000 people vaccinated. This is coming from the 
Federal Government in concert with the State, the county 
government, and the city. This is a collaborative effort.
    Is this the kind of effort that you need in a pandemic so 
as to thwart the pandemic as quickly as possible?
    Ms. Watson. My colleagues and I like to say that the 
pandemic breaks systems. So what we need is people to come 
together at all levels of government to address this 
unprecedented challenge. Yes, that is the type of coordination 
that we need.
    Thank you.
    Mr. Green. Finally, minority communities are especially 
vulnerable--a multiplicity of reasons why, but it appears to me 
that we have to do more in terms of assuring minority 
communities that they will get the vaccine. But, on the other 
hand, we also have to assure minority communities that this 
vaccine is going to be safe. There are good reasons for 
minority communities to have consternation about injecting 
vaccines into their arms given the history that they have 
suffered in this country.
    What would you say to the minority community in my city 
that may be watching now? Because of certain circumstances that 
have occurred, what would you say them to encourage them to 
please get these vaccinations?
    Ms. Watson. I would say that I understand that there is a 
history of abuses that have made it difficult to trust both 
Government and health care systems, but I would encourage 
individuals in your community to listen to their local leaders, 
to try and understand the facts about the vaccine in particular 
and to judge for themselves how safe and effective it is.
    I hope that that will give them the information they need 
to make a good decision.
    Mr. Green. Thank you, Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much. The gentleman 
yields back.
    The Chair recognizes the gentleman from Florida, Mr. 
Gimenez, for 5 minutes.
    Mr. Gimenez. Thank you, Mr. Chairman. I appreciate it. Dr. 
Watson, a couple of questions for you. You state in your 
testimony that certain countries were very effectively keeping 
the virus out. What are those countries? Which countries were 
they?
    Ms. Watson. There are a number, but the ones that I have in 
mind are particularly New Zealand and Australia right now. 
Those are the ones that I have kind-of held at the top of mind, 
yes.
    Mr. Gimenez. What do you account that? How do you account 
for that? Why were they able to keep it up?
    Ms. Watson. Yes, there were a number of factors early on. 
They took very quick action to prevent cases from coming in, to 
identify cases early, and then to take the public health 
actions to prevent those cases from turning into epidemics by 
finding every case as much as possible. Then doing contact 
tracing and ensuring that the transmission didn't continue.
    Mr. Gimenez. They were able to return to basically a normal 
kind of existence, normal kind of life in those countries?
    Ms. Watson. Yes. In some cases, the life looks--has looked 
pretty normal over the last several months. With the exception 
of if there is an introduction of a case, then those countries 
often take pretty rapid action to shut things down to prevent 
epidemics, but then they are able to return again to more 
normalcy.
    Mr. Gimenez. Are they open to the world or are they shut 
off from the rest of the world?
    Ms. Watson. I don't know. I don't have the facts fully on 
that, but I think mostly that things have slowed like with the 
rest of the world. Transportation has slowed and so, it looks 
largely like the rest of the world in that way.
    Mr. Gimenez. Do you know if we test the migrants coming on 
the Southern Border, do we test them for COVID-19?
    Ms. Watson. Like my colleague, I don't have that 
information, but I am happy to get back to you on that.
    Mr. Gimenez. Does anybody on this call have that 
information? OK. Also, do you know if we are testing,--I guess 
nobody has the answer to that--if there is a different variant 
that they are bringing in from the south? Because I understand 
that the Brazilian--the Brazilian variant of COVID-19 is very 
similar to the South African variant, which is resistive to the 
vaccine?
    Ms. Watson. I think that the data on that is still a little 
unclear about the P.1 variant. But what we do know is that 
these variants are already here in the United States, and they 
have been identified in many States already.
    Mr. Gimenez. OK. I think final question is do we know the 
percentage of Americans that are refusing to get vaccinated?
    Ms. Watson. I am not up on the current number on that. I 
think there have been some significant polling, but I am not 
sure what the most recent number is.
    Mr. Gimenez. What number would that be that would make the 
vaccination--the vaccination program less effective, let's say, 
to getting back to a normal life?
    Ms. Watson. I think we need to aim for a high number of 
vaccinations around the country. In our very vulnerable 
populations, we should aim very high in the 80th, 80 percent 
range. In the general population, it is hard to pinpoint an 
exact number, but I think we need to reach at least 60 percent 
of people vaccinated. That should be our goal. But there is no 
hard and fast number to say that it will be a success or a 
failure.
    Mr. Gimenez. OK. Do we have--again I know that I heard 
somewhere else, I guess, in another hearing that there is a 
variant. The variant from South Africa is resistive to the--is 
resistive to the vaccine, but if you do get vaccinated and you 
get sick with that variant, that you won't die and it will be a 
much milder effect. Have you heard that also? Have you heard 
also that?
    Ms. Watson. The data we have seen so far shows that 
vaccines have been highly protective against hospitalization 
and death against many of these variants. So, that is a hopeful 
sign.
    Mr. Gimenez. Is there any variant that you are afraid of?
    Ms. Watson. I am afraid of those variants that escape our 
immune responses, whether it is natural immunity or 
vaccination. So, I think we need to track them very carefully 
and we need to plan for the future of the pandemic in this 
country. We may need to update our vaccines to respond to these 
threats.
    Mr. Gimenez. OK. Thank you very much. I appreciate it. I 
yield back my time.
    Chairman Thompson. Thank you. The gentleman yields back. 
The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. I thank you, Mr. Chairman. I thank our Ranking 
Member. Approximately 1 year ago, life as we knew it came to a 
screeching halt. Within that year, COVID-19 has claimed more 
than half a million lives. This many deaths did not have to 
happen. For decades to come, we will look back at the previous 
administration's handling of this crisis as a textbook case 
study of how not to handle a pandemic. Fortunately, President 
Biden has made it clear that going forward, we will let 
science, not politics, guide our response. I happen to 
represent a district that has been particularly hard hit by 
COVID-19 as part of the epicenter of the outbreak of the 
pandemic. We all know that communities of color have borne the 
brunt of the pandemic. Brooklyn is one of those areas. It is 
also home to countless essential workers, many of whom are 
immigrants. They are the heroic front line, the lifeline, and 
most vulnerable, all at the same time in this pandemic. They 
are a significantly crucial segment of the population of our 
communities in New York City who have faced some of the highest 
infection rates in the Nation.
    We must rapidly address the inequities in public health and 
eliminate the disparities from our COVID-19 response. Having 
said that, I want to turn your attention to Project Airbridge. 
I have to tell you, living in New York when we had to scramble, 
outbid, and do everything we could without the help of the 
Trump administration because the States were handling it. 
Project Airbridge to see Robert Kraft's airplane land at JFK 
with a New England Patriots sign on it and not a B-59, or 
whatever the plane is from our National Guard or our military, 
was such a slap in the face to Americans.
    Over the past year, when it came to securing PPE for front-
line medical workers, I certainly know why New York had 
significant struggles. The Trump administration repeatedly 
touted Project Airbridge as a success story in accelerating the 
importation of critical PPE. FEMA indicated that at least 50 
percent of its supplies were directed to hot spot areas. But 
there was a serious lack of transparency to confirm this 
occurred. As a matter of fact, it looked like a rewarding of 
some friends, i.e., New England Patriots.
    Despite repeated requests, we never received information on 
where the supplies went and other basic details. I raised this 
at the committee's July 14 hearing. Dr. Ezike, when it comes to 
securing PPE, could you share with us your thoughts on how 
States were forced to compete to secure PPE and what Governor 
Pritzker told the committee was akin to the Hunger Games and 
the degree to which Project Airbridge was effective in meeting 
Illinois' supply needs?
    Dr. Ezike. Yes, thank you, Congresswoman. Significant 
challenges in the securing of PPE, as I think another 
representative who was in the struggle last year, we were 
talking to middle men in various countries, in China, you know, 
I got a guy, I got a guy.
    Ms. Clarke. Mm-hmm.
    Dr. Ezike. We were sometimes outbidding trying to bid or 
outbid other States. In one situation where we did have an 
arrangement to have a large shipment, we then got outbid. Our 
order was canceled as the Federal Government was outcompeting 
us. We had to at one point, actually take State police to the 
airport to make sure that there wouldn't be any interception--
--
    Ms. Clarke. Mm-hmm.
    Dr. Ezike [continuing]. Of a shipment that was coming in. 
So, very uncharacteristic moves were undertaken to secure this 
life-saving PPE for the pandemic.
    Ms. Clarke. I thank you, Dr. Ezike. Let me just say that 
that was a disgrace. We need to really unpack what happened 
with Airbridge and make sure it never happens again. With that, 
Mr. Chairman, I yield back the balance of my time.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back. The Chair recognizes the gentlelady from Iowa, Ms. 
Miller-Meeks, for 5 minutes.
    Ms. Miller-Meeks. Thank you very much. I was trying to 
unmute myself. I appreciate it, Chair. If I could, I have a 
couple of very quick questions and then a more lengthy 
question. So, Mr. McMahon, you mentioned the local public 
health and local public health funding. Both as a physician and 
the former director of the Iowa Department of Public Health, I 
am wondering--and this is one of the things I advocate for--is 
that rather than money that is allocated to the States and then 
the State decides, could there not be funding go directly to 
CDC and then go to local public health grants, which would then 
go to our local public health agencies? Would that not be a 
pathway----
    Mr. McMahon. Yes.
    Ms. Miller-Meeks [continuing]. For us to get funding to 
local public health agencies so they both have adequate PPE and 
can vaccinate?
    Mr. McMahon. Yes, I think any time if the intention is to 
get us the funding, finding a way to get us directly, 
guarantees you get us the funding. We have great relationships 
with our State partners. But certainly, there are times where 
funding goes to the States and it doesn't flow back to the 
local governments.
    Ms. Miller-Meeks. Yes, I had that same conversation with my 
local public health agencies. Then, Dr. Ezike, can you--do you 
know what the number of non-COVID-related excess deaths are in 
the United States due to the pandemic? I ask that because in 
San Francisco published in January of this year--I have 
referred to this pandemic as life versus life. In January this 
year, San Francisco Chronicle published that there were 699 
deaths from overdose. It would have been much more than that 
had it not been for dispensation of Narcan. This was 57 percent 
greater than in 2019. So, vastly outstripping. The number of 
COVID deaths in San Francisco at that time were 121. So, do you 
know the number of non-COVID-related excess deaths in the 
United States during the past year?
    Dr. Ezike. Doctor, we have that number. I don't have it at 
my fingertips, but our team can get that back to you. But I 
think we had at least, it was at least 20 or 30 percent on top 
of the known COVID deaths. So, we would say that those may have 
been some missed COVID deaths as well as other non-COVID deaths 
within that number.
    Ms. Miller-Meeks. Yes, so, over the summer I had found a 
figure of approaching 98,000 at the end of summer. My next 
question and this can be to Ms. Clowers or any of the panel 
members. But, again, as a physician and former director of the 
Iowa Department of Public Health, one of the most concerning 
things to me at the start of the COVID-19 pandemic, was the 
issues of our country had with supply chain of pharmaceuticals 
and PPE. Given my time in the military, the supply chain is 
very concerning to me. In particular, I was concerned about our 
country's ability itself to produce medical supplies 
domestically.
    As you know, last spring the Chinese Communist Party issued 
threats to cut off the supply of medicine to the United States 
just as the virus was beginning to spread widely in our 
country. Thankfully, the Chinese Communist Party did not act on 
that threat. But it exposed the vulnerability of our medical 
supply chain when we rely on foreign countries and foreign 
nations for these critical supplies. Some of the supplies that 
some countries received were inadequate or deficient.
    So, Ms. Clowers, in your testimony you discussed several 
recommendations for addressing supply chain challenges. I 
appreciate those recommendations. What I am asking is that what 
lessons can we apply to further pandemic preparedness efforts? 
Are there steps that we as a Nation can take to ensure that we 
have critical medical supplies that are available domestically, 
rather than enacting the Defense Production Act to get those 
supplies produced here?
    Ms. Clowers. Yes, in addition to the recommendations that 
you mentioned, we do need to go back and look at our domestic 
supply chain as a Nation in terms of how we can make it more 
robust. Because what the pandemic illustrated when it started, 
we had inadequate supply of supplies on hand. The supply chain 
is made up of a number of players and a number of entities. So, 
we need to have a better understanding of what everyone has and 
what their capabilities are. Including in that is the Strategic 
National Stockpile.
    Ms. Miller-Meeks. Right.
    Ms. Clowers. Understanding what is the role that that is 
going to play and how we would stock that stockpile and how we 
are going to manage it. Those are important policy decisions 
for the Congress to consider. You also mentioned in terms of 
the supply chain that also we often think about PPE right now, 
but it is the drugs too. Most of our generic drugs are 
manufactured overseas, particularly in China and India. That 
creates a vulnerability for us as a Nation as well.
    Ms. Miller-Meeks. Thank you so much. Both drugs, PPE, and 
pharmaceuticals in the Strategic National Stockpile. Thank you 
so much. I yield back my time, Mr. Chair.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back. The Chair recognizes the gentleman from 
California, Mr. Swalwell, for 5 minutes.
    Mr. Swalwell. Thank you, Chairman. Thank you to the 
panelists. Many of us gathered last evening on the Capitol 
steps, House Members and Senators. We remembered the 500,000 
COVID victims that we have lost. As sad as it was to do that, a 
lingering thought I had was will we be back here shortly to 
remember 1 million lost? I think what we do as leaders on this 
committee and with our neighbors and people in the community 
will determine that.
    I want to turn to Dr. Watson and ask you a question, Dr. 
Watson, about misinformation. Because what we learn and how we 
act on that certainly will dictate future loss. We have seen 
harmless misinformation like mouthwash can stop COVID. We have 
seen harmful misinformation like ingesting bleach or 
disinfectants can stop COVID. We have seen reports of people 
showing up at emergency rooms because they have done this. So, 
what can we do to combat what is called infodemic? How deadly 
is infodemic to our ability to take this on?
    Ms. Watson. Thank you for that question. We have seen that 
misinformation, I think, on balance has had a very significant 
impact on public health and in the pandemic. As you mentioned 
from people taking treatments that are unsupported by science 
to not believing in the virus itself up until the point of 
death in some cases. So, I think this is a large factor in 
shaping how the pandemic evolved in this country.
    The WHO has proposed a research and policy agenda for 
combating misinformation, which really includes a combination 
of limiting its prevalence on-line and improving the reach of 
high-quality information that is health protective. But more 
research is needed into how we can effectively manage this. I 
also think that the United States needs a plan to combat mis- 
and disinformation especially as it relates to health.
    Mr. Swalwell. Thank you, Dr. Watson. Also, on the topic of 
communication, the National Biodefense Strategy lays out the 
importance of coordination between the Federal and State and 
local governments while responding to a pandemic like COVID-19. 
Last year, Governors reported that they had limited information 
from the Federal Government about when vaccines would become 
available. They only would learn a week ahead of time as to the 
number of vaccines they would receive, leaving many States 
scrambling to implement distribution strategies.
    President Biden has sought to increase coordination and 
communication with the States, especially to get the vaccine 
and numbers up earlier than just a week out. So, what other 
steps can the Federal Government do to coordinate with State 
and local governments? I will open this one up to any panelist.
    Dr. Ezike. This is from the Illinois response. We can say 
that we have really enjoyed in the last month communication, 
and if there is such a thing as overcommunication, from the 
COVID response team with this new administration. We are very 
grateful for the 3-week lead time in terms of allocations, 
which allows for appropriate planning at the State level and, 
of course, for our local partners who can determine the numbers 
of vaccine appointments that can be made based on knowing 3-
week allocations.
    We are really grateful to hear their priorities and then 
their plans for supporting us in implementing those National 
strategies and priorities. So, we are really grateful for on-
going communication and we see that as an important measure to 
getting on the other side of the pandemic. We have also seen 
responsiveness to issues from the boots on the ground. So, as 
we share concerns, those are taken back, acted on, and then 
brought back and collaborative decisions are made.
    Mr. Swalwell. Great. Thank you to the panelists. Thank you 
to the Chairman, and I yield back.
    Chairman Thompson. Thank you very much. The gentleman 
yields back. The Chair recognizes the gentlelady from--the 
gentleman from Kansas, Mr. LaTurner, for 5 minutes.
    Mr. LaTurner. Thank you, Mr. Chairman, and thank you to 
Ranking Member Katko, and to all the panelists. Mr. McMahon, in 
your written testimony, you addressed Syracuse University's 
opening in August. You talk about testing and as we know, the 
science tells us that college-age students are more susceptible 
to the coronavirus. They will spread it more easily than 
elementary students will. So, talk a little bit about that 
process.
    Mr. McMahon. Yes, and so, essentially the testing--the 
testing before the student actually comes into the community 
was done. Then when they got literally physically on campus, we 
tested them again. Then Syracuse University is doing a 
tremendous job implementing what is now-weekly testing. They 
have actually even invested into their own lab on campus so 
that they can meet the State restrictions related to positivity 
rates now. Before they were being held to a 2-week period of 
time, where to remain in-person learning, they could only have 
100 cases on a campus of 15,000 students. It is a pretty tough 
threshold.
    So, testing has been the key to our success in central New 
York related to our positivity rate. It has allowed us to 
rebalance the public health decisions we are making related to 
whether it is in-person learning for our pre-K-12, or 
certainly, our higher ed as well.
    Mr. LaTurner. Just to be clear, this is months before a 
vaccine that Syracuse was able to open. Tell me this, did 
they--you mention testing--did they have to spend millions of 
dollars upgrading ventilation systems or reconstructing spaces 
to accommodate social distancing?
    Mr. McMahon. They did. They spent money, obviously, on the 
testing infrastructure, right? That is a business decision the 
university makes to get their students back on campus. 
Certainly, they did look at updating and investing in 
ventilation systems, distancing, mask wearing. They were very 
strict related to, as we all know, the college experience 
brings different social aspects to it. We would have hiccups 
where you would have parties that would lead to cases. The 
university responded and responded quickly.
    But because of that and the management of that, to your 
point before the vaccine was ready, and again, at this point, 
students aren't even eligible to get the vaccine in this 
process now. We have had the spring semester has started and 
things are going quite well. The positive rate if they were 
their own State at Syracuse University's campus, they would be 
the best State in the country with the positive rate that they 
have.
    Mr. LaTurner. Thank you very much. Thank you, Mr. Chairman. 
I yield back my time.
    Chairman Thompson. Thank you very much. The gentleman 
yields back. The Chair recognizes the gentlelady from Nevada, 
Ms. Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. Thank you for holding 
this hearing. You know, we have heard a lot from some Members 
across the aisle about the folks who are at the border and the 
immigrants at the border. But we haven't really heard much 
discussion about the 11 million undocumented people who are 
already in this country. So, I would like to ask the panel, and 
maybe starting with Dr. Ezike, how the policies of the former 
President, including the public charge rule, have affected the 
undocumented community in terms of getting the virus, getting 
good information, dealing--I mean, getting the vaccine, getting 
good information, and dealing with the virus. You know, so many 
are distrustful of Government. They are fearful of being 
deported. They are worried that it will harm their chances of 
gaining permanent status.
    So, if you all could discuss how it has been a problem, how 
we can address it, how it makes it more difficult to deal with 
the broader community if you have a large segment like in my 
district of folks who aren't vaccinated or aren't willing to 
kind-of put themselves out there to get the information or get 
the shot in the arm.
    Dr. Ezike. Thank you for that question. So, as I started in 
my opening remarks, we understand that no one is safe if 
everyone isn't safe. When we have individuals living in our 
communities who have the virus, the virus doesn't care what 
color your passport is. It will spread to any individuals 
around. So, understanding that everyone needs to be tested, 
needs to be vaccinated, is the only way that the whole 
community will be able to move forward.
    We have heard on virtual town halls and community meetings 
that there is a hesitancy to come forward for fear of being 
reported, for fear of having information being turned over. So, 
we just understand that all of these individuals who form the 
fabric of our communities who care for children, who work in 
essential roles that are often engaging with the public in high 
numbers, they will go on to infect other people if, you know, 
if the infections and the infection transmission is not 
contained by either aggressive testing and/or vaccination. So, 
again, we just have to understand the basics of infectious 
disease spread that we have to control the spread by testing, 
contact tracing, and vaccination. We have to take care of all 
of the people in our midst to get beyond to the other side of 
the pandemic.
    Ms. Titus. Anybody else want to address that? Well, what 
you say, Doctor, is certainly true in my district because a lot 
of these folks work back of the house in gaming, back of the 
house in restaurants. They are in service positions where they 
could be spreading the virus.
    Also, we have the problem of multi-status families. In one 
family, one person is a citizen, one person is a dreamer, one 
person is on TPS, one person doesn't even know what they are, 
you know. So, if one person is afraid to come forward, then you 
have got a whole family that will be affected.
    Well, I think we need to figure out how to do a better job 
of getting information, not just into minority communities, but 
into these undocumented communities to try to reassure people 
and get the best health and science information to them to make 
them realize this is something in their own interest and not 
something that is going to come back to bite them like public 
charge.
    Dr. Ezike. Yes, ma'am. We have been trying to message 
directly in the native language in Spanish. Making documents 
available in Spanish and working with community-based 
organizations that already have a leg in those communities to 
make sure that they have trusted messengers telling them that 
it is OK, that there is no charge, that they should take 
advantage of testing and vaccination.
    Ms. Titus. Well, thank you. Thank you, Mr. Chairman, I 
yield back.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back. The Chair recognizes the gentleman from New 
Jersey, Mr. Van Drew, for 5 minutes.
    Mr. Van Drew. Thank you, Chairman Thompson and Ranking 
Member Katko. The coronavirus pandemic has had a devastating 
impact on our Nation with over 27 million confirmed cases and 
half a million deaths in the United States alone. This is a 
tragedy. In addition to the high death toll, our economy has 
suffered due to oppressive lockdowns, which have exacerbated 
the hardship experienced by so many people. States and cities 
across our Nation have seen record unemployment numbers. 
Atlantic City, New Jersey one of the most populous cities in my 
district, had the Nation's highest unemployment rate, 34 
percent, last summer.
    Not allowing people to safety and responsibly resume work 
is not the answer. Restaurants, gyms, and other essential 
businesses and industries have been decimated by the 
coronavirus. My district's economy heavily relies on summer 
tourism. Those summer months are what drive the regionals' 
economic success. But because of restrictive lockdowns, many 
businesses had to permanently close their doors forcing 
thousands of people out of work.
    Fortunately, there is light at the end of the tunnel. 
Thanks to the previous administration's steadfast initiatives 
like Operation Warp Speed, we now have multiple vaccines that 
are being distributed and administered every minute of the day.
    We must continue to focus on how we can safely reopen 
businesses and our schools and continue to get America 
vaccinated. America needs to get moving again. I look forward 
to that with my colleagues on the committee on how we, on how 
we can best facilitate moving forward again.
    I have a couple of questions for Nicole. For Nicole 
Clowers, what changes to regulations pertaining to the 
Strategic National Stockpile should be changed to ensure that 
we are better prepared for future disease outbreaks?
    Ms. Clowers. Well, one of the things that--first, thank you 
for the question. One of the things we have called for is as 
the administration continues to reexamine the supply chain, 
which is an effort that is on-going, that they include the 
Strategic National Stockpile. Because what the pandemic has 
demonstrated is there is not a good understanding of the role 
that it plays in terms of should it be the sort-of front-line 
defense? Or is it more of a backstop? What type of supplies 
should be in it? Should it be for high probability, but low 
consequence? Or the reverse? These are the discussions that 
need to happen. What we have encouraged is for the 
administration to reach out to the Congress, as well as non-
Federal stakeholders to have this conversation to make those 
decisions, because it affects multiple players in all levels of 
the government.
    Mr. Van Drew. Thank you. For Crystal Watson, how do we 
ensure that the data collection is consistent from State to 
State?
    Ms. Watson. I think that the best way to ensure that is to 
provide consistent Federal guidance to States about how and 
what data they should be collecting. Then giving them support 
to do that data collection.
    Mr. Van Drew. Are we working in that direction?
    Ms. Watson. I believe that CDC is working in that 
direction, yes.
    Mr. Van Drew. OK. So, your sense is that we are improving 
in that area from what you know and understand of it.
    Ms. Watson. Yes, sir.
    Mr. Van Drew. OK, thank you. Mr. Chairman, I yield back.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentlelady from New Jersey also, Ms. Watson 
Coleman.
    Ms. Watson Coleman. Thank you, Mr. Chairman. Thank you for 
this briefing to each of those who have participated here. I 
have got a quick question for Ms. Clowers. It is my 
understanding that the Biden administration is trying to track 
down this so-called 20 million doses of vaccine that were 
released by the Trump administration, however, no one knows 
where it is or who received it. Do you have any information on 
this?
    Ms. Clowers. We are looking at these issues as well. We 
have on-going work looking at vaccine distribution. What we are 
finding is there has been miscommunication about the number of 
doses that were available and delivered and allocated. It is a 
issue that the administration is working on now to try to 
improve the data. Certainly, we have heard from the National 
Governors as well about concerns about the reporting of the 
data and the doses that are coming to them, as well as the 
number of shots that are being given. So, I think it is a 
communication issue as well as a data issue. But we have on-
going work and are looking at that, and we will be happy to 
brief you----
    Ms. Watson Coleman. Thank you.
    Ms. Clowers [continuing]. When we have our report.
    Ms. Watson Coleman. Appreciate that. With all due respect, 
I think that there is an honesty, lack of transparency, 
incompetence issue that was at play in this former 
administration. Had we had more honesty, transparency, a 
recognition respect of the science, as well as competence, we 
wouldn't have to have this briefing today at this level.
    This question is for Dr. Ezike and Dr. Watson. Although 
there is a big focus on vaccines these days, it is important to 
remember what other mitigation measures like wearing a mask are 
proving to work. Over the past year, instead of setting an 
example for the country by wearing a mask, President Trump 
downplayed the virus and even mocked wearing masks for months. 
In fact, Trump berated Biden for wearing a mask. Even after 
contracting the virus himself, hosted campaign events which 
were subsequently considered super spreaders. Dr. Ezike and Dr. 
Watson, do you believe having our elected officials act as 
leaders and promote science-based mitigation measures is 
important in fighting this COVID-19? If this were done since 
the beginning of the knowledge of the pandemic, would we not 
have saved more lives?
    Dr. Ezike. Thank you for that question. We have seen that 
the example of our leaders carries significant clout. We have 
individuals that decide to vaccinate or not based on people 
that they trust getting vaccinated. Likewise, we had people 
turn against masking because there was a culture of anti-
masking or that masking wasn't necessary. So, absolutely, that 
is important.
    Ms. Watson Coleman. Thank you. Dr. Ezike, did you 
experience any problems with constituents in your State 
thinking that it would be safe to ingest bleach and other 
chemicals as a way of preventing the virus? If so, to what 
extent was that an issue for you?
    Dr. Ezike. Yes, ma'am. We did have several reports to our 
poison control center of individuals that were asking about the 
dangers associated with ingesting bleach after that--after that 
announcement.
    Ms. Watson Coleman. Thank you. Dr. Watson, do you have 
anything to add to this?
    Ms. Watson. I agree with my colleague, Dr. Ezike. I think 
there is no substitute for effective leadership in this type of 
a crisis. So, I think it is critically important.
    Ms. Watson Coleman. Do you agree that had we had that 
leadership or response in a timely manner when we first 
encountered the knowledge of this virus that we would not have 
the severe loss of life and infectious rate that we have in 
this country?
    Ms. Watson. I think that improved leadership and better 
communication would definitely have saved lives and I think 
people have died unnecessarily in this pandemic, certainly.
    Ms. Watson Coleman. Thank you to all 3 of you. Mr. 
Chairman, I yield back.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back. The Chair recognizes the gentleman from Michigan, 
Mr. Meijer, for 5 minutes.
    Mr. Meijer. Thank you, Chairman Thompson, and Ranking 
Member Katko, and to our guests who are here today. I want to 
circle back to a topic that both my colleagues, Representative 
Mariannette Miller-Meeks and Representative Slotkin mentioned 
around PPE and, specifically, domestic production and how that 
factors into not only the Strategic National Stockpile, also 
State-level stockpiles.
    I guess, I first want to start with Dr. Ezike. Can you, I 
guess, from your vantage point and your experience at the 
Illinois Department of Public Health, you know, thinking not 
just in the moment we are in right now, but once now that we 
have a little bit more light at the end of the tunnel, and we 
have the Johnson & Johnson emergency use authorization out, 
what can the Federal Government do to best provide States with 
the resources, with the guidance necessary so that those State-
level stockpiles cannot only be built back, but also adequately 
maintained so we don't experience the out-of-date or expired 
material issues that we saw on both the State-level stockpiles 
and the Strategic National Stockpile?
    Dr. Ezike. Yes, thank you for that question. So, I think it 
might be helpful just to establish National benchmarks. 
National benchmark in terms of levels that would be considered 
adequate. We had to dispense PPE not only to our 97 different 
local health departments, but also first responders, and also, 
long-term care facilities. I mean, the needs and the requests 
came from every direction. So, being able to have established 
benchmarks and protocols in terms of numbers and levels of 
storage, being able to have back-up at the Strategic National 
Stockpile, being able to have plans in terms of when those 
products would be able to be reviewed that with on-going 
frequency, we would be able to determine whether things that 
had reached their expiration date could still be tested and 
still be determined to be effective for use versus needing to 
be removed. That kind of organization might be very helpful 
for, unfortunately, the next pandemic.
    Mr. Meijer. Doctor, just kind-of building on that. I know, 
you know, the analogy in a home especially if might be 
approaching a--or just from a disaster preparedness standpoint, 
is every product in your home has a shelf life, right? So, you 
get a little bit more than you need, you know, put the newest 
in the back. Take the oldest from the front. You know, do you 
think it is feasible to have a similar sort of paradigm at the 
State stockpile level where it is not just, you know, we have a 
mass purchase and we leave it there to sit. Then after a 
certain point, it expires, we have to throw it out and buy 
more. But have more of an evolving stockpile where hospitals 
aren't just relying on that sort-of just-in-time delivery, but 
there is that kind of deeper batch in material as well?
    Dr. Ezike. No, eventually that would the goal that we would 
get to. But as we think about replenishing all our stock now, 
everything that we would get now would all have the same 
expiration date. So, you would have to go through multiple 
evolutions before you would have that graduated expiration 
time.
    Mr. Meijer. Thank you, Doctor. I guess, quickly for Ms. 
Clowers. I know, and again, I just wanted to--Representative 
Slotkin's desire to have to really hit home on this issue of 
making sure that either onshoring or, frankly, an issue that I 
want to kind-of get your thoughts on, the issue around some of 
the domestic manufacturers who have spun-up their production 
capability since the start of the pandemic. You know, some 
existing manufacturers like 3M but others and Prestige 
Ameritech, but other kind-of smaller entities have also spun-up 
to meet that, but are having issues accessing, frankly, markets 
for their products even while we do have PPE shortages because 
of legacy supply chain dynamics of either large hospital 
systems or State-based purchasing efforts. Can you share a 
little bit more on how we can, frankly, keep some of those 
domestic manufacturers that have risen to the challenge to meet 
this need in the pandemic, how we can make sure that we not 
only are finding markets for them today, but also retaining 
that domestic capability around PPE manufacturing so we are not 
experiencing the supply chain risks and the shortages that we 
saw at the beginning of the pandemic.
    Ms. Clowers. Absolutely. This is an area that we have on-
going work looking at the medical supply chain. I would be 
happy to as we get further along in the work, to brief you in 
terms of what we are finding. But you are hitting on the key 
issues. It is both incentivizing the companies to do the 
necessary research and development for the medical 
countermeasures, for example. But then also, helping them find 
those markets. I think there are lessons that we can learn from 
existing programs. BARDA within HHS has a program that is 
designed to do this. It has not been utilized as much as it 
maybe will be going in the future, given the current pandemic. 
But there are other financial incentives the Government could 
bring to bear. Again, we are looking at all those issues and we 
will be happy to brief you when we have that work ready.
    Mr. Meijer. Thank you, Ms. Clowers. Mr. Chairman, I yield 
back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Florida, Ms. Demings, for 5 
minutes.
    Ms. Demings. Thank you so much, Mr. Chairman. Thank you so 
much for your leadership on this very important topic and 
important committee. You know, my friend and colleague from 
South Carolina said earlier that I am one that follows the 
data. That is a good thing. What we do know on this committee, 
every Member, is that Black and Brown communities have been 
hardest hit by contracting the virus, by hospitalizations, and 
by deaths. Black and Brown communities have been left behind in 
testing and now in vaccine distributions. The statistics that 
we have quoted several times earlier today that life expectancy 
has changed by 1 year, but for African American communities, it 
is by 3 years. That is the data.
    To identify and address equity gaps in vaccine 
distribution, the CDC requires all States to submit demographic 
data on those who receive vaccines. I am troubled though that 
today, only 34 States are doing it. Only 34 States think the 
data is important. This is why I have joined the Chairman in 
writing to FEMA to urge FEMA to double-down, redouble its 
efforts to secure such data from the States. Facts in Florida 
are also troubling, my home State, where 10 percent of White 
Floridians have been vaccinated, while 4 percent of African 
Americans and 4 percent of Hispanics have been vaccinated. I 
ask unanimous consent to submit that letter, Mr. Chairman, 
dated February 23 into the record.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Demings. You know, we are a Nation where we always go 
where the need is greatest. So, I have to ask the question, 
what is going on now? For a Nation who always goes where the 
need is greatest, but we see the data. So, Dr. Watson, I would 
like to start off with you because we are not doing well going 
into the areas where the need is greatest. Could you just talk 
a little bit about President Biden's Health Equity Task Force 
and how it can help us at this particular area?
    Ms. Watson. This is an excellent point. I think, 
unfortunately, going where the need is greatest sometimes is 
also the hardest thing to do, because we don't have established 
connections. We haven't prioritized reaching the most 
vulnerable populations in the past. So, what we need now is to 
make that a top priority to provide States with the resources 
to do that. To connect with community organizations in 
populations that we want to reach and to ensure that we are 
getting vaccination, we are getting testing, and we are getting 
access to health care in all these vulnerable populations.
    Ms. Demings. So, Dr. Watson, those are some of the lessons 
learned, as we come out of this public health pandemic and 
prepare, unfortunately, for the next one, those are some of the 
vulnerabilities that we as a response--the Nation that 
responds, suffers from. Is that what you are basically saying?
    Ms. Watson. Certainly. There are underlying factors that 
have been present long before COVID-19 that we need to address 
more systemically. But in this response, specifically, it will 
also take concerted effort to reach the people who we want to 
be vaccinated and protect.
    Ms. Demings. So, and we know better because we like to say 
this that we are supposed to do better. That is what we say. 
Ms. Clowers, in cases where States have not adequately made 
vaccinations available in Black and Brown communities, what are 
FEMA's thoughts in making trusted venues like churches, 
community centers, and senior centers designated sites?
    Ms. Clowers. That is exactly what the different agencies 
are working on right now, Representative. CDC, FEMA, and others 
looking at putting sites in places where people have better 
access to that are more familiar, but also places of trust as 
you mentioned. It is not only the location of those facilities, 
but it is also the messengers. Enlisting the community leaders 
that people trust and having them help educate everyone about 
the importance of the vaccine, for example.
    Ms. Demings. OK, thank you so very much. You say that is 
what they are currently working on. How would you assess those 
efforts because people are dying as we well know, everyday?
    Ms. Clowers. I would say it is very early. Unfortunately, 
it goes back to what Dr. Watson was saying. You know, we are 
building off historic health disparities in this country. 
Disparities and systematic biases that have been built into the 
system over years, and what the pandemic is revealing those to 
us. So, we need to undo those as we go forward. Hopefully not 
only with this pandemic, but in the future moving beyond.
    Ms. Demings. Part of our job as elected officials is to 
address those systematic biases. Thank you very much. Mr. 
Chairman, I yield back.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back. The Chair recognizes the other gentlelady from 
Florida, Ms. Cammack, for 5 minutes.
    Ms. Cammack. Well, thank you, Mr. Chairman. Thank you too 
Ranking Member Katko. Also, thank you to our witnesses for 
appearing before the committee today. There is absolutely no 
question that COVID highlighted the vulnerabilities in the U.S. 
domestic supply chain that had plagued us for decades from PPE 
to our domestic food supply. The United States relies heavily 
on China as a large source of components that are critical to 
our Nation's supply chain that are vital to U.S. operations and 
National security. I know that many of my colleagues share the 
same concerns on both sides of the aisle. It is crucial that we 
prioritize domestic production of these supplies that are 
critical to the National security, where possible. We need to 
diversify our sourcing elsewhere.
    Now, this question is specifically for Ms. Clowers. We have 
heard a lot today about supply chain concerns, but I want to 
dig in a little bit more on the sourcing of raw materials, for 
example. We saw major supply shortages that proved incredibly 
challenging in the beginning stages of the pandemic and 
highlighted our overdependence. But much of the materials 
required to manufacture critical PPE are produced overseas in 
loosely or non-regulated environments like China. Materials 
like polypropylene, which are melted down and sprayed to make 
the nonwoven medical masks, for example. My question to you is 
given the regulatory environment that we are facing in this new 
administration, how would you recommend bringing these critical 
base materials and raw materials back to the United States, 
given that this administration has stated that they are going 
to increase the red tape in regulatory environment?
    Ms. Clowers. Regarding the domestic supply chain as well as 
looking at how that fits into the global supply chain, you 
highlighted examples of the raw materials for devices of PPE. I 
would add that also affects drugs as well, as much of the 
active pharmaceutical ingredients that are used for drug 
manufacturing are overseas. As I mentioned earlier, a lot of 
that production occurs in countries like China and India. So, 
when there is a pandemic or other type of incident that affects 
the supply chain, it could have an immediate negative effect on 
the health care system as we saw now.
    I know that the current administration has announced plans 
to assess the supply chain and identify gaps and what measures 
are needed to be taken. That is something we will be monitoring 
and we will report on that progress and any challenges that we 
see in future reporting.
    Ms. Cammack. As a follow-up to that, what is the time line 
on that?
    Ms. Clowers. We have on-going reporting. We will be issuing 
our next report in March. Then we have specific looks looking 
at the supply chain and as it relates to specifically API that 
will be coming out later this year. I could get you those exact 
time frames. We are happy to, as that report is coming out, 
brief you and your staff on it.
    Ms. Cammack. I appreciate that. Thank you. My next question 
is addressing one of my top issues that I have here in 
Congress, which is access to broadband. One of my major 
priorities is increasing access and affordability to broadband, 
specifically, in rural and underserved communities. In a 
pandemic like we have been facing, access to real-time reliable 
information is especially important. So, with so many people 
lacking reliable internet access, especially in these rural and 
urban communities that are underserved, how can the Federal and 
State government ensure that everyone has knowledge of and 
access to COVID information and vaccine availability? I am 
opening this up to anyone on the panel who would like to answer 
this.
    Dr. Ezike. Thank you for this important issue. So, we have 
seen that that digital divide affects individuals in 
educational settings. It affects adults who may be trying to 
get information about COVID. So, we have expanded call centers, 
increased the number of operators so that people have the 
option to just call if, you know, searching through internet is 
not an option. That people can talk to a live person who can 
assist with getting vaccination, especially are trying to focus 
on our over-65 population. In Illinois, which is consistent 
with what is happening across the country, 85 percent of the 
deaths for COVID have occurred in individuals over 65. So, it 
is really a priority to make sure that those individuals have 
access to the vaccine, whether they have access to the internet 
or not.
    Mr. McMahon. I would add, as well, that the digital divide 
has been real throughout the pandemic. Broadband is something 
as a country we have to address immediately. But specifically, 
to vaccine rollout, our seniors are confused by the multiple 
distribution points. So, to date, what we have done locally as 
well, is we have created call centers. We have created waiting 
lists where seniors can call the call center and then we are 
logging in their waiting lists so that they--and then we are 
calling the seniors, not just emailing the seniors when they 
have appointment times. So, you really have to adapt and meet 
the need all hands on deck with this divide that we have right 
now.
    Ms. Cammack. OK, thank you so much. With that I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from California, Ms. Barragan, for 5 
minutes.
    Ms. Barragan. Thank you, Mr. Chairman, for holding this 
very important hearing. I have heard a lot of discussion about 
the Biden administration's effort to restore asylum processing 
at the Southwest Border. Let me be clear. No one in the MPP 
program tested positive, and testing is happening aggressively. 
I was just there. So, so disturbed to hear some of the 
commentary and make we get accurate information.
    Now, FEMA recently opened 2 managed vaccination sites in my 
home State of California, each with the capacity to vaccinate 
6,000 people a day. This is an amazingly great development. But 
more FEMA sites need to be added, especially in districts like 
mine where I have a district that is almost 90 percent Latino, 
African American, the fourth-poorest in California, and has 
been hit especially hard during this pandemic. Dr. Ezike, what 
are the benefits of having the Federal Government run vaccine 
centers to augment State capabilities?
    Dr. Ezike. Thank you for that question. So, of course, this 
pandemic has stretched every public health department well 
beyond their natural abilities. So, in addition to vaccination, 
of course, there is testing. There is contact tracing. There is 
genomic sequencing. Of course, on top of the normal work of 
public health, looking out for lead, STIs, tuberculosis. So, 
being able to have that Federal support in terms of FEMA with 
these very productive high-throughput sites, that allows us to 
shift energy on harder-to-reach populations that may not be 
able to get to the vaccination sites sponsored by FEMA, but 
need mobile teams that the health department can focus on 
getting those very hard-to-reach communities as well. So, we 
just need that coordinated large-scale effort to make sure that 
all of this important work gets done.
    Ms. Barragan. Great, thank you. Ms. Clowers and Dr. Watson, 
as I said earlier, I support FEMA aggressively making 
vaccination efforts. It is important that the location 
selection prioritize availability to those at greatest risk. 
This includes underserved communities and communities of color, 
like in communities--communities very much like my very 
district that have been hit very hard. Due to the----
    Chairman Thompson. I think we lost your connection, 
Congresswoman. Can you hear me?
    Ms. Barragan [continuing]. As FEMA considers supporting 
sites.
    Ms. Clowers. I'm sorry, Representative, I missed the 
question.
    Ms. Barragan. Sure.
    Chairman Thompson. We had some technical difficulties. I 
will yield back to the lady an additional minute to get her 
questions through.
    Ms. Barragan. Great. Dr. Watson, back to FEMA aggressive--I 
support FEMA aggressively helping vaccination efforts including 
serving underserved communities. What are your thoughts on how 
vaccine equity can be addressed as FEMA considers supporting 
sites?
    Ms. Watson. So, I think that is a very good question. 
Obviously, making these vaccination sites accessible by 
communities of color, in particular, but also other underserved 
communities. Then also working directly with health departments 
who know their communities very well to understand how to do 
some more microtargeting of communities to help them understand 
about vaccination. To get them appointments for a vaccination 
and get them access. So, it is a combination of these large 
sites, which FEMA is well-placed to help with. But then also 
working with established networks through public health and 
other parts of your State to really understand how to target 
vaccination more specifically.
    Ms. Barragan. Thank you. Ms. Clowers, is there anything you 
would like to add?
    Ms. Clowers. In addition to what my panel member mentioned, 
I do know that FEMA is also conducting a pilot program with 
vaccination sites including in California. Where they are going 
to be using CDC data on using the vulnerability index, as well 
as other census data to help locate where those sites should 
be. I think that is a positive development. We will monitor 
closely how that pilot runs.
    Ms. Barragan. Great, thank you. One of the outbreaks in my 
district and we have seen is the complex ports. It is the ports 
of Los Angeles and Long Beach. There have been serious COVID-19 
outbreaks. My concern is of a possible shutdown and what the 
implications can be to National security if something were to 
happen to the ports and, you know, the serious outbreak. But, 
Dr. Watson, given how vital ports are to this country 
especially the largest by container volume in my very district, 
are to the economy, should COVID-19 outbreaks at these 
facilities be treated as a serious threat to National security?
    Ms. Watson. I think it is really important to maintain our 
infrastructure and as you said, ports are very important to our 
National security. So, fortunately, there are public health 
mitigation measures including frequent testing and contact 
tracing and supporting people to stay home when they are sick, 
and if they have to quarantine because of a significant 
exposure. So, all of these measures are things we can do for 
the broader population. But if they are a little bit more 
targeted, then we can help prevent these big outbreaks at 
ports.
    Ms. Barragan. Great, thank you. I just want to thank you 
again, Mr. Chairman, for having this hearing. We know that we 
have a new administration who has come in and is taking this 
seriously. Who has put forward the American Rescue Plan and has 
involved the Federal Government in being a partner and now 
getting these FEMA sites up, which are great, and getting 
mobile units out. With that, Mr. Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentleman from Texas for 5 minutes, Mr. Pfluger.
    Mr. Pfluger. Mr. Chair, thank you. Panelists, thank you 
very much. I appreciate the discussion. Ms. Watson--Dr. 
Watson--my apologies--the strategy that the President has 
outlined, are you in agreement with that as being a strategy 
that can work for our country to halt this pandemic and fight 
back against it?
    Ms. Watson. I think in broad strokes, yes, I am in 
agreement with the current trajectory, yes.
    Mr. Pfluger. OK. What areas do you disagree with?
    Ms. Watson. I don't have any specific disagreements off the 
top of my head. But broadly, I am in agreement.
    Mr. Pfluger. OK. One question I want to ask you. When it 
comes to, you know, there was a couple of Executive Orders that 
were issued promoting COVID-19 safety in domestic and 
international travel, and also in the equitable response and 
recovery. How do we make those decisions? A lot of my 
colleagues have previously stated today that their districts 
are being hit particularly hard in underserved districts and in 
populations who may not have that access. How do we pick and 
choose who is going to get the vaccines? As I understand it 60 
million have been distributed so far.
    Ms. Watson. So, not being in Government and part of those 
conversations, it is hard for me to comment specifically. But I 
know there are, I think, it is population-based allocation 
primarily. But then also risk-based decision making also 
occurs.
    Mr. Pfluger. So, as I understand it and from your 
perspective, would you say that we have limited resources at 
this point in time to cover our whole population in a timely 
manner at this second?
    Ms. Watson. Yes, I don't think the supply that we have 
right at this moment meets the demand for vaccine.
    Mr. Pfluger. So, diverting supply away from the areas that 
need it the most would not be a good plan for us?
    Ms. Watson. I think we need to assess where we need 
vaccination the most, but we need broad coverage across the 
country. There has been considered planning in terms of who 
should be vaccinated and in what order. So, we need to 
continually reassess that to ensure that it is going in the way 
that we want it to.
    Mr. Pfluger. Do you believe it is going in the way you said 
in broad strokes you agree with the plan?
    Ms. Watson. Yes, I think the sequenced rollout of vaccine 
is reasonable. Obviously, I think we have some underserved 
populations that are not being reached at this moment. So, we 
need to reassess how we can get vaccine to be more equitably 
distributed. But I think the general plan is reasonable for the 
country.
    Mr. Pfluger. Thank you very much. Dr. Ezike, do you also 
believe that, you know, the limited resources that we have in 
this country should be applied, you know, I think it is, you 
know, broad strokes, you know, throughout the country, but also 
to places that need it the most?
    Dr. Ezike. Yes, sir. I believe that we have to get as much 
vaccine out as quickly as possible, but it needs to--that plan 
has to be infused with equity to prevent additional disparity.
    Mr. Pfluger. What would you say about the rural areas, 
underserved rural areas?
    Dr. Ezike. I think that is an area that needs particular 
attention. That there is geographic equity that needs to be 
considered as well. We also know that, at least in the State of 
Illinois, we have rural areas, southern regions of the State, 
that have some of the worst health outcomes. So, those are 
high-risk settings that have higher risks that actually need 
concerted attention and efforts.
    Mr. Pfluger. So glad to hear you say that. Ms. Clowers, do 
you also agree that those rural areas need help as do urban 
areas, underserved areas?
    Ms. Clowers. Yes. We documented that in our work as well in 
terms of rural access and how access to health care facilities 
and treatment can affect those populations.
    Mr. Pfluger. Very good. I appreciate you-all's discussion 
on that. My main concern right now, Mr. Chairman, is the fact 
that any diversion of any of our resources away from those in 
this country who need it the most, is a tragedy. Whether it is 
rural, or urban, or underserved, or any population in the 
country that needs to get access to vaccines. My district is 
incredibly rural and we have a very difficult time with the 
access to that. So, when it comes to folks that need it the 
most, we need to make sure that they are getting that. 
Specifically, in my case, a rural district. So, I have a very 
hard time understanding how the President's plan does not take 
into account a strategy when it comes to international travel, 
especially overturning immigration policy that would put us 
further at risk and not get those resources and vaccines to 
those who actually need it the most, as all of our witnesses 
have just agreed to. With that, Mr. Chairman, I yield back. 
Thank you very much.
    Chairman Thompson. Thank you very much. The gentleman 
yields back. The Chair recognizes the gentleman from New 
Jersey, Mr. Gottheimer, for 5 minutes.
    Mr. Gottheimer. Thank you, Mr. Chairman. COVID-19 has taken 
an immense toll on communities I represent in northern New 
Jersey, where we were hit early, unfortunately, and found 
ourselves in the eye of the COVID-19 storm. Almost a year 
later, we are still working hard to get through the pandemic. I 
recently visited vaccine sites across northern New Jersey, 
including in Teaneck at Barada Community Center run by Holy 
Name Medical Center, at Bergen's New Bridge Medical Center, at 
the Sussex County Fairgrounds, and the Meadowlands. Thanks to 
our front-line personnel who have done such a great job of 
setting those up and running them. As you know, many of the 
vaccine distribution systems are still being set up and we are 
working hard to expand vaccine availability. I was very 
encouraged by the President when he recently announced that 
there will be an increased flow of vaccine doses headed to the 
States----
    Chairman Thompson. I think the gentleman from New Jersey is 
having some challenges. We will work through those challenges. 
Mr. Torres, if you are ready. We will yield to you at this 
time. Mr. Torres, if you can get on, we will go to you while we 
work out the challenges with Mr. Gottheimer. Well, it must be a 
New York, New Jersey thing. We will go to the other gentleman 
from New Jersey.
    Mr. Torres. Mr. Chair, I'm sorry. Did you call? Mr. Chair, 
I'm sorry. I see Josh is back.
    Mr. Gottheimer. I'm sorry, Mr. Chairman. It appears I had 
internet problems.
    Chairman Thompson. Well, it looks like everybody's having 
problems. Mr. Garbarino, are you available to talk? We are 
still not able to hear any of our last 3 members. Must be a 
system adjustment. Well, we are not really sure what it is. Mr. 
Torres, can you hear me?
    Mr. Torres. I can hear you, Mr. Chair.
    Chairman Thompson. Well, if you could hear me, please go 
ahead with your 5 minutes.
    Mr. Torres. OK. Thank you, Mr. Chair. It is refreshing to 
have a new President who is committed to crushing the virus 
rather than crushing our democracy. When it comes to pandemic 
response, timing is a matter of life and death. Delay is 
deadly. The longer the delay, the higher the death toll. If the 
Trump administration had put in place social distancing 
restrictions at the beginning of March, it would have cut the 
death rate by as much as 90 percent. We as a Nation have paid a 
heavy price and the lives of a half a million Americans for the 
lethal incompetence of the Trump administration.
    My first question is about the way forward. There is no 
return to normality without population immunity. What is the 
time line for achieving a population immunity? Are we confident 
that population immunity can be achieved given the systematic 
failure to sufficiently vaccinate communities of color? 
Communities of color like mine are often the first to be hit 
the hardest and the last to be vaccinated. This question is for 
the Government Accountability Office.
    Ms. Clowers. In terms of when we will reach societal 
immunity, I think it is a question to be determined. I have 
seen some suggest it could be earlier this spring. To some, 
that it will be much later into the year. Certainly, a number 
of factors would drive that. One is the how well we do with the 
vaccinations over the next several months. Are we able to get 
the supplies that we need in terms of doses and get them out 
and into the arms of Americans? That is really going to drive 
in terms of how quickly maybe we can get back to somewhat 
normal life.
    But in terms of--we have also heard the experts talk about 
that we will be continuing to need to utilize public health 
measures such as social distancing and masking for the 
foreseeable future because of hard-to-reach communities and 
making sure that everyone in the United States is vaccinated to 
the extent that they can be. But also, we live in a global 
society and until we are--see the containment of the virus 
across the world, all of us are at risk. So, it will be many 
months, but it is something that we will be watching very 
closely.
    Mr. Torres. Is there a concern that we might fail to 
achieve population immunity before the emergence of new strains 
that render the vaccines ineffective? Is that a concern?
    Ms. Clowers. Well, that is certainly--it is certainly a 
concern among the public health community and my colleagues 
might want to address that. But it is a race with the 
vaccination against new variants. Viruses are constantly 
mutating. A lot of those mutations don't prove effective for 
them, so, they die out. But certainly, as long as there is host 
in order for them to continue to mutate, that is a problem. 
That is why we want to get as many people vaccinated as quickly 
as we can.
    Mr. Torres. I do have a question for Dr. Watson about the 
future of SARS-CoV-2. You know, some viruses like SARS-CoV-1 
and MERS get eradicated. Some viruses like influenza remain 
endemic. Is COVID likely to remain with us in a post-COVID 
world? Knowing influenza kills tens of thousands of people 
every year, is COVID going to kill tens of thousands of 
Americans in a post-COVID world?
    Ms. Watson. I am not a virologist and so, and I don't even 
think my colleagues who are virologists know the answer to this 
yet. But I do think we are seeing increasing information that 
makes it more likely that COVID, SARS-CoV-2 will remain with us 
not just in this pandemic, but beyond. It maybe something that 
we face on an annual basis. So, we need to gather more data and 
try to understand what that looks like. But then also pay close 
attention to our vaccination efforts and determine whether we 
need to update vaccinations over time and people need to be 
revaccinated. But there are so many unknowns with this right 
now.
    Mr. Torres. My final question is what can be done to 
bolster the rates of vaccination within communities of color? I 
just find the rates to be alarmingly low. It is going to 
undermine our ability to achieve some semblance of normalcy. 
So, any thoughts of what can be done to bolster vaccination 
within communities of color?
    Dr. Ezike. I can take that. I think there is hope. You are 
correct that our communities of color have lower acceptance 
rates of the vaccine. But all of the individuals that have said 
no--many people who have been offered the vaccine and said no, 
they do fall into different buckets. There are individuals that 
are simply not first. They weren't ready to get it when it was 
first offered. They didn't want to be amongst the first 
individuals to get it. As other people have gotten it, as the 
tincture of time has passed, they have come around and have 
come maybe on a second and third visit, third offering, have 
not taken it.
    We have some people that were just not sure and so, they 
still needed to gather more information. They needed to seek 
reassurance from trusted messengers whether it is in the faith 
community or medical providers that are trusted. Then there are 
some that are, you know, not ever. So, you know, I think the 
not ever are a smaller group.
    So, there is still lots of work to be done in terms of 
community engagement and working with trusted messengers. 
Giving out culturally appropriate messages, virtual town halls. 
Using venues and people that can be trusted to share the 
message. We have had lots of physicians and medical individuals 
of color who have been documenting their COVID vaccine journey, 
and I think that has helped. We have lots of, you know, 
personalities that have come out to share their COVID journey. 
I think with time as people see the safety and the efficacy of 
this vaccine, you will have more of those individuals come. So, 
but we have to continue the engagement.
    Mr. Torres. Thank you.
    Mr. McMahon. Congressman, if could add on that, I think 
method of distribution matters. With our success, we have had 
within our minority populations, we have worked with credible 
messengers. We have worked with churches. We have had pop-up 
clinics at housing authorities. We have worked into our--
looking at library systems in the neighborhoods with pop-up 
clinic models. We have not had as much participation with new 
American communities in the traditional mass vaccination sites. 
Even though one of our mass vaccination sites is in the heart 
of a neighborhood in our downtown right next to one of our 
poorest neighborhoods. So, I think method of distribution 
really matters as well with credible messengers.
    Chairman Thompson. Absolutely. The Chair recognizes the 
gentleman from New York, Mr. Garbarino, for 5 minutes.
    Mr. Garbarino. Thank you, Mr. Chair. Is it working?
    Chairman Thompson. Yes, you're working.
    Mr. Garbarino. Wonderful, all right. Thank you very much. I 
just have a quick I think follow-up, a few questions. Dr. 
Ezike, you spoke about getting the vaccine out there as much as 
possible to all different sorts of groups. The Biden 
administration launched the first phase of the Federal Retail 
Pharmacy Program allowing pharmacies to distribute vaccine 
doses. Has this initiative been successful so far in Illinois?
    Dr. Ezike. Well, I think as with the entire vaccine 
rollout, with these very complicated vaccines, there are been a 
steady increase. Steady increase in the throughput, steady 
increase in the comfort of getting it done. So, I think we 
have--we are very excited that all of our long-term care 
facilities that were enrolled in the program, and we had many. 
We had over 1,400 facilities that were enrolled. But I think we 
have had all of our skilled nursing facilities have at least 
one visit. We expect all of them to be done in the coming 
weeks. We have already moved on to our long-term care 
facilities and other congregate care settings. So, you know, 
everything has been a learning curve, but we have been--we have 
had great partnership with our CVS and Walgreens partners. We 
have been working on the phone every week, multiple times a 
week to make sure that we iron out kinks. When we hear about 
long-term care facilities that have a complaint or an issue, we 
have been able to take that back to make sure that we keep 
correcting and improving the process as we go along.
    Mr. Garbarino. But so, the pharmacy--so far what you have 
seen with the pharmacy program with this like you said CVS and 
the Walgreens, it has been a positive? It is increasing, or is 
it--it is increasing the doses that are being administered? 
Would you say that?
    Dr. Ezike. Yes, it is helping us get more vaccinations in 
arms. So, we are grateful for the partnership. We need many 
different partners for this effort.
    Mr. Garbarino. Great. I appreciate that. Thank you. I just 
want to move on, Ms. Clowers. Hopefully, I got that right. 
There are 2 questions I had. No. 1, you talked about in your 
testimony you mentioned that HHS data on COVID-19 in nursing 
homes is incomplete because they didn't require the first--in 
the first 4 months of the pandemic to report data. Has there 
been any--and I apologize if this has been asked. But has HHS 
done anything to go back and get that data or anything to try 
to recap that data so we have a full picture?
    Ms. Clowers. They have not. We continue to believe that is 
a really important step for them to take. As you may know, that 
until May of last year, nursing homes did not have to report 
cases and deaths to CMS. In May, CMS put out information to 
them and said you are going to start at this point reporting 
that information to us going forward. But they didn't have the 
nursing homes go back to the beginning of the pandemic and 
report that information.
    We think it is really important that that information is 
captured because that is information that could help us better 
understand the spread. Especially during that period through 
that vulnerable population. I can give you a quick example of 
how this data affects and the types of data that we are 
missing.
    As you might remember, it was about this time last year one 
of the first sites of spread was in the Kirkland Nursing Home 
in Washington. If you look at the HHS data, it will show during 
that there were zero cases and zero deaths in the beginning 
months of the pandemic for that site. Well, of course, we know 
there was over 100 cases and unfortunately about 23 deaths in 
that nursing home. So, that is just one example of a piece of 
data that is missing. We think all that data needs to be 
collected. We think it can be done in a fairly non-burdensome 
way for nursing homes to report that information so we have 
better insight in terms of what was going on during that time 
period.
    Mr. Garbarino. That is great. That was my next question, 
whether or not we could get enough good data that it would 
actually make it because that is great. I agree with you, I 
think we should get that. As you know, my State of New York we 
have had quite a--this has been in the news quite a bunch 
lately. It is something I dealt with when I was in the assembly 
last year on the health committee. So, I think it is very 
important we get that information.
    Just another question, you know, a lot of documents have 
been, strategy documents have been issued in the last several 
years that may encompass a portion of the COVID response. You 
know, in 2005, HHS developed a pandemic influenza plan. The 
Biden administration just recently released the National 
Strategy for COVID-19 Response Epidemic Preparedness. Are there 
anything in these plans that--these strategic plans are 
missing? Is there something that are in these plans in your 
opinion that--or that are not in these plans, but should be?
    Ms. Clowers. In terms of the past plans that we have 
reviewed, we did find elements were missing. Everything from 
very clearly stating what the risks are, what our goals were. 
What would be benchmarks for success, consistent definitions, 
as well as the resources that are needed. The new 
administration has put out the response plan. We are currently 
evaluating that. We are also waiting for additional plans that 
are to be forthcoming that were required by Congress, the 
additional testing strategy that should be coming out at the 
end of March, and we will review that to see to make sure that 
it contains all the information that is necessary for an 
effective strategy. I will note, then it is really important 
that these strategies are publicly available so that everyone 
understands those roles and responsibilities.
    Mr. Garbarino. OK. I appreciate that and look forward to 
hearing more about it. Thank you. Last, Mr. McMahon, I just 
wanted to say my friend, Bill Barkley, says hello.
    Chairman Thompson. The gentleman's time has expired. The 
gentleman's time has expired. The Chair is going to recognize, 
again, the gentleman from New Jersey, Mr. Gottheimer.
    Mr. Gottheimer. Thank you, Mr. Chairman. Is this better?
    Chairman Thompson. Much better.
    Mr. Gottheimer. Sorry, about that. As I was saying last 
time, COVID-19 has taken an immense toll on northern New Jersey 
where I represent. We got hit early and very hard and found 
ourselves in the eye of the COVID-19 storm. Almost a year 
later, we are still working hard to get through the pandemic. I 
have recently visited vaccine sites across my district in 
northern New Jersey and Teaneck at a center run by Holy Name 
Medical Center, at Bergen New Bridge Medical Center, at the 
Sussex County Fairgrounds, and at the Meadowlands to thank our 
front-line personnel for helping distribute the vaccines.
    As you know, many of the vaccine distribution systems are 
still being set up and we are working hard to expand 
availability. I was deeply encouraged when the President 
recently announced that there will be an increased flow of 
vaccine doses headed to States and communities like ours. The 
administration also announced plans to buy 100 million 
additional doses of the Moderna and Pfizer vaccines and the 
Food and Drug Administration today endorsed the emergency 
authorization request from J&J, a great New Jersey company, for 
their new COVID vaccine. With the final authorization hopefully 
coming later this week. We need to keep up the pressure until 
we can fully deploy vaccines across the country to help us 
safely reopen. Dr. Watson, how can we help accelerate the 
production and deployment of vaccines? What sort of role can 
FEMA play in that effort?
    Ms. Watson. I think the Government is working really hard 
to accelerate the production. I don't have any specific 
comments on that although I think there are lessons that we can 
learn for the next pandemic there in improving production 
capacity in the United States. But in terms of roll-out, I 
think FEMA is an excellent partner as was discussed briefly 
earlier in setting up vaccination sites and helping States 
coordinate vaccination efforts. As long as it is being 
coordinated with the health department, I think that can be a 
great asset. So, it is one thing I think we need to look back 
at our previous plans and maybe reassess in the future what is 
FEMA's role in these types of public health emergencies because 
I think they haven't formally been engaged in our plans to the 
extent that we realized they have been needed in this response. 
So, I think that is a good thing for our after-action reviews.
    Mr. Gottheimer. Thanks, Doctor. Do you agree we should 
deploy these pop-up vaccine sites in every Congressional 
district including in rural areas to make sure we reach those 
underserved populations?
    Ms. Watson. Yes, I think as my colleague, said, every 
connection, every partner in this effort for vaccination is 
probably appreciated.
    Mr. Gottheimer. Thank you so much. I appreciate that. Mr. 
McMahon, as a county executive, you have experienced first-hand 
the immense challenges faced by our local counties, towns, and 
municipalities during the COVID-19 pandemic. Across Jersey, our 
communities have been hit hard. Some of them facing unfortunate 
tasks of having to lay off essential and front-line workers or 
making painful budget cuts to essential programs and services. 
Can you discuss how this is a bipartisan issue for States like 
New York and New Jersey and what the grim outlook is for our 
communities if we in Congress fail to provide robust aid to our 
State and local governments as part of our next relief package?
    Mr. McMahon. Yes, I really do see this as a bipartisan 
issue. Essentially, in New York what was unique with our 
situation is we didn't receive direct aid in the CARES Act, 
like many communities under half a million in their population. 
Because of that we had to make mid-year budget cuts in 2020. We 
had to incorporate those cuts into 2021 for my community. We 
are a $1.3 billion budget. In 2021, we made $84 million worth 
of cuts. We had retirement incentives. We had furloughs. We had 
layoffs. We want to bring back some of these people. I have 
people in my adult and long-term care department doing contact 
tracing. My social services doing contact tracing.
    There are other elements in the pandemic. I referenced 
earlier that the human services side of this pandemic is going 
to be glaring next year and later in 2021, when we are done 
vaccinating. So, the aid is important if we want to shore up 
our efforts. When you look at recovery efforts, we are large 
employers. We are large spenders. We buy capital. We pave 
roads. All these budgets got cut drastically in 2020 and `21.
    Mr. Gottheimer. Thank you so much. I yield back, Mr. 
Chairman. Thanks again for coming back to me despite the 
technological issues here.
    Chairman Thompson. Thank you very much. Well, given the 
level of Member participation in this hearing, obviously there 
has been great interest and impact more importantly in their 
respective areas. Let me thank the witnesses for their 
testimony and the Members for their questions. The Members on 
the committee may have additional questions for the witnesses. 
We ask that you respond expeditiously in writing to those 
questions.
    I don't want to underemphasize rural underserved 
communities. I have 26 counties in my district. Thirteen of 
those counties we don't have a Walmart. We don't have a 
Walgreens and we don't have a CVS. But we have churches. We 
have schools that have buildings and other things. So, I am 
working trying to get people to go beyond just what the printed 
paper requires in order to get people vaccinated. So, I really 
thank our witnesses for helping the committee. You have gotten 
us to a good point where we can work with this administration 
on overcoming this pandemic. Collectively we can do this. Your 
testimony adds immensely to getting us there.
    Without objection, the committee record shall be kept open 
for 10 days. Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:59 p.m., the committee was adjourned.]



                           A P P E N D I X  I

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                          A P P E N D I X  I I

                              ----------                              

    Questions From Chairman Bennie G. Thompson for A. Nicole Clowers
    Question 1. In January, GAO released a report documenting the Trump 
administration's inaction and failure to develop a clear and 
comprehensive vaccine distribution and communication plan. The report 
concluded that during the final months of the Trump administration, GAO 
remained ``deeply troubled by the lack of sufficient Federal action on 
critical gaps identified and by the lack of clear plans to address 
these gaps.'' Explain how the Trump administration's failure to produce 
a clear and comprehensive vaccine distribution strategy led to problems 
with our Nation's ability to vaccinate Americans.
    Answer. Informed by our past work reviewing the Federal response to 
H1N1 flu vaccine and our examination of the Federal efforts to prepare 
for the allocation, distribution, and administration of COVID-19 
vaccines, we reported early on in the pandemic about the importance of 
having and communicating a National vaccination plan. It is 
particularly important because of the scope and magnitude of the COVID-
19 pandemic. Multiple Federal agencies, commercial partners, and 
jurisdictions all have roles in implementing any COVID-19 vaccination 
program, which encompasses identifying priority groups for vaccination 
as well as allocating, distributing, and administering available 
vaccine. We found that clear and publicly-available National 
vaccination plan did not exist.
    The lack of a clear and timely National vaccination plan is an 
obstacle to effective coordination and communication among the Federal 
agencies, commercial partners, jurisdictions, and providers regarding 
COVID-19 vaccine distribution and administration. Further, without 
clear communication, including information about the availability of 
vaccines, it is difficult to manage public expectations about the 
progress and availability of vaccines. Clarity to manage public 
expectations was particularly important with a relatively limited 
initial vaccine supply.
    In September 2020, we recommended that HHS, with the support of 
DOD, establish a time frame for documenting and sharing a National plan 
for distributing and administering COVID-19 vaccines that, among other 
things, outlines an approach for how efforts would be coordinated 
across Federal agencies and non-Federal entities. To date, this 
recommendation has not been fully implemented. We maintain doing so 
would improve the Nation's vaccine distribution and administration 
efforts.
    Question 2. For months, we heard harrowing stories of health care 
workers having to perform their jobs without adequate protective 
equipment because the Strategic National Stockpile was not properly 
maintained and there was no Federal strategy to procure critical 
supplies, such as N-95 masks. Reports indicate that some hospitals are 
still rationing N-95 masks for doctors and nurses even though supply 
has stabilized and stockpiles of these masks are growing. From your 
work, do you have any thoughts on what the Federal Government do to 
build trust in the PPE supply chain?
    Answer. The COVID-19 Pandemic highlighted the fragility of the U.S. 
medical supply chain. We and other entities have documented persistent 
and evolving supply chain challenges throughout the pandemic. Based on 
our work examining medical supply chain and Federal efforts to manage 
it, we identified several issues that need Federal attention to improve 
the supply chain and help Federal, State, territorial, and Tribal 
stakeholders during the pandemic. Actions at the Federal level can 
facilitate improvements and build trust in the supply chain for 
remainder of the pandemic and also trust in preparedness for future 
pandemics.
    Actions needed to improve the medical supply chain and support 
stakeholders for the remainder of the pandemic include improved 
communication and coordination. For example, we recommended that the 
Department of Health and Human Services (HHS), in coordination with the 
Federal Emergency Management Agency (FEMA) should:
  <bullet> develop and communicate to stakeholders plans outlining 
        specific Federal Government actions that will be taken to help 
        mitigate supply gaps for the remainder of the COVID-19 
        pandemic,
  <bullet> document roles and responsibilities for supply chain 
        management functions transitioning to HHS, and
  <bullet> work with relevant stakeholders to devise interim solutions 
        to help States enhance their ability to track the status of 
        supply requests and plan for supply needs.
    While Federal agencies are taking steps to improve future 
preparedness by reassessing the medical supply management and 
strengthening the domestic medical supply, our work has identified 
areas where additional actions are needed. For example, as HHS develops 
a strategy to improve the medical supply chain to enhance pandemic 
preparedness, including re-thinking supply management, we recommended 
that the agency should regularly engage with Congress and non-Federal 
stakeholders as it refines and implements its supply chain strategy, 
including the role of the Strategic National Stockpile.
    Question 3. GAO has issued 44 recommendations to improve the 
Federal response to COVID-19--most originating from GAO's review of the 
Trump administration's execution of the CARES Act. Our understanding is 
that when the Biden administration began, only a few of the 
recommendations had been addressed by the prior administration. As 
President Biden intensifies efforts to combat COVID-19, which of the 
recommendations warrant the most urgent action?
    Answer. With the publication of our sixth comprehensive report on 
March 31, 2021, GAO has made 72 recommendations to Federal agencies, 
and raised 4 matters for Congressional consideration to improve the 
Federal Government's response efforts.\1\
---------------------------------------------------------------------------
    \1\ See https://www.gao.gov/coronavirus/ for our comprehensive 
reports and other COVID-19-related reports.
---------------------------------------------------------------------------
    Throughout our reporting on the Federal response to the COVID-19 
pandemic, we have made recommendations that align with key principles 
that are essential for an effective Federal response. While we maintain 
that all of the recommendations, if effectively and timely implemented, 
would improve the Government's public health response, we would 
highlight the importance of the following:
  <bullet> Supply Chain.--We recommended that HHS in coordination with 
        FEMA document roles and responsibilities for supply chain 
        management functions transitioning to HHS and further develop 
        and communicate to stakeholders plans outlining specific 
        actions the Federal Government will take to help mitigate 
        remaining medical supply gaps. In addition, HHS should work 
        with relevant Federal, State, territorial, and Tribal 
        stakeholders to devise interim solutions, to help States 
        enhance their ability to track the status of supply requests 
        and plan for supply needs for the remainder of the COVID-19 
        pandemic response.
  <bullet> Vaccine Plan.--We recommend that HHS, with support from the 
        Department of Defense, should establish a time frame for 
        documenting and sharing a National plan for distributing and 
        administering a COVID-19 vaccine and ensure it is consistent 
        with best practices for project planning and scheduling, and 
        outlines an approach for how efforts will be coordinated across 
        Federal agencies and non-Federal entities.
  <bullet> Testing Strategy.--We recommend that HHS develop and make 
        publicly available a comprehensive National COVID-19 testing 
        strategy that incorporates all the characteristics of an 
        effective National strategy.
  <bullet> COVID-19 Data.--To improve COVID-19 data, we recommend that 
        HHS make its different sources of publicly-available COVID-19 
        data accessible from a centralized internet location and take 
        steps to ensure the complete reporting of race and ethnicity 
        information for recipients of COVID-19 vaccinations. In 
        addition, we recommend HHS immediately establish an expert 
        committee or use an existing one to systematically review and 
        inform the alignment of on-going data collection and reporting 
        standards for key health indicators.
  <bullet> Nursing Homes.--To improve the monitoring and transparency 
        of nursing home vaccination efforts, we recommend that HHS 
        collect data specific to COVID-19 vaccination rates in nursing 
        homes and make these data publicly available. In addition, we 
        recommend that HHS require nursing homes to offer COVID-19 
        vaccinations to residents and staff and design and implement 
        associated quality measures. HHS, in consultation with CMS and 
        CDC, should develop a strategy to capture more complete data on 
        confirmed COVID-19 cases and deaths in nursing homes 
        retroactively back to January 1, 2020, and to clarify the 
        extent to which nursing homes have reported data before May 8, 
        2020.
    For the full list of recommendations in the March CARES Act report 
and the status of previous recommendations, see https://files.gao.gov/
reports/GAO-21-387/index.html#Recommendations and https://
files.gao.gov/reports/GAO-21-387/index.html#appendix49.
    Question 4. What recommendations does GAO have for how Federal 
agencies, like the CDC and FEMA, can construct and maintain robust and 
equitable COVID-19 vaccination operations?
    Answer. Based on our past work, including our review of the Federal 
response to the H1N1 pandemic, and our review of the on-going COVID-19 
pandemic, we have identified a National vaccination plan that is clear, 
timely, and communicated to the public and data that are complete and 
accurate as key elements to an effective and equitable COVID-19 
vaccination program.
    Vaccination Plan.--Coordination and communication among multiple 
Federal agencies, commercial partners, State and local jurisdictions is 
critical to effective deployment of vaccines and managing public 
expectations. While ensuring a continued supply of COVID-19 vaccine is 
key, it is also critical that all those involved in a vaccination 
program coordinate and communicate on the allocation, distribution, and 
administration of vaccines. This includes communicating changes in the 
expected supply of COVID-19 vaccines. In September 2020, we recommended 
that HHS, with the support of DOD, establish a time frame for 
documenting and sharing a National plan for distributing and 
administering COVID-19 vaccines that, among other things, outlines an 
approach for how efforts would be coordinated across Federal agencies 
and non-Federal entities.
    Data.--Complete, accurate, and consistent data is needed to inform 
decision making for the COVID-19 pandemic response, monitor for changes 
in trends in COVID-19 cases, communicate the status of the pandemic 
with citizens, and identify areas and populations that are experiencing 
a disproportionate burden from COVID-19. However, we have found that 
COVID-19 data being collected by the Federal Government is not complete 
or is inconsistently reported. Further, data collected and made 
available by the Centers for Disease Control and Prevention (CDC) 
suggest a disproportionate burden of COVID-19 cases, hospitalizations, 
and deaths exists among racial and ethnic minority groups, we found 
that data reporting is incomplete.
    The lack of complete and consistent data limits HHS's and others' 
ability to prioritize the allocation of health resources in specific 
geographic areas or among certain populations most affected by the 
pandemic. Further, lack of data limits the ability of HHS and others to 
monitor trends in the burden of the pandemic across States and regions, 
make informed comparisons between such areas, and assess the impact of 
public health actions to prevent and mitigate the spread of COVID-19.
    We have made 4 recommendations to HHS to improve the collection of 
complete and standardized data on COVID-19 health indicators data. See 
the Health Care Indicators enclosure (https://files.gao.gov/reports/
GAO-21-387/index.html#appen- dix2) and the Nursing Homes enclosure 
(https://files.gao.gov/reports/GAO-21-387/index.html#appendix5) in our 
March 2021 bi-monthly report. In addition, we have made 5 
recommendations to improve the collection of data on race and ethnicity 
on COVID-19 burden (cases, hospitalizations, and death) and 
vaccinations administered. See the Health Disparities enclosure in our 
March 2021 bi-monthly report (https://files.gao.gov/reports/GAO-21-387/
index.html#appendix18).
    Questions From Chairman Bennie G. Thompson for Crystal R. Watson
    Question 1. Many Americans are hearing and seeing a lot of 
misinformation in their social circles and on social media about 
vaccines and how they might be causing adverse reactions. Could you 
speak about vaccine hesitancy and share any recommendations on what can 
be done to counter such misinformation?
    Answer. Response was not received at the time of publication.
    Question 2. During this committee's hearing last year, your 
colleague, Dr. Inglesby, stressed the importance of developing a means 
to mass manufacture vaccine candidates before they were approved, due 
to the massive amount of demand in the United States and world-wide. 
Did the United States do enough to prepare for the mass manufacturing 
of vaccine candidates over the past year?
    Answer. Response was not received at the time of publication.
    Question 3. Looking down the road, what can Americans expect to see 
from the pandemic in the coming months, and what lessons can Congress 
and the Federal Government take from its experience with COVID-19 to 
better prepare for future public health threats?
    Answer. Response was not received at the time of publication.
      Question From Honorable Michael Guest for Crystal R. Watson
    Question. The University of Mississippi Medical Center is one of 
only 2 Nationally-designated HHS Centers of Excellence in telehealth. 
Despite their decades-long history of providing care through 
technology, they have seen an unprecedented increase in the use of 
telehealth in the State. More clinicians are using it and patients 
report a very favorable experience. As we look to the post-pandemic 
future, what role do you see telehealth playing in addressing public 
health? How can Government support the continued and expanded use of 
telehealth to reach rural populations and provide critical specialty 
care?
    Answer. Response was not received at the time of publication.
         Question From Honorable Michael Guest for Ngozi Ezike
    Question. The University of Mississippi Medical Center is 1 of only 
2 Nationally-designated HHS Centers of Excellence in telehealth. 
Despite their decades-long history of providing care through 
technology, they have seen an unprecedented increase in the use of 
telehealth in the State. More clinicians are using it and patients 
report a very favorable experience. As we look to the post-pandemic 
future, what role do you see telehealth playing in addressing public 
health? How can Government support the continued and expanded use of 
telehealth to reach rural populations and provide critical specialty 
care?
    Answer. Telehealth can play an important role in addressing public 
health, specifically in addressing health disparities. Telehealth can 
increase access to health care in rural and underserved communities and 
has the potential to reduce health care costs while improving outcomes. 
Reaching that potential will likely require facilitating utilization 
beyond the relatively few patients who used telehealth services and 
providers who furnished telehealth services prior to the COVID-19 
pandemic. Medicare Payment Advisory Commission (MedPAC) analysis of 
calendar year 2014 Medicare claims data showed only 0.2 percent of 
Medicare Part B fee-for-service beneficiaries (roughly 68,000 
individuals) accessed services using telehealth while 10 percent of 
distant site providers accounted for 69 percent of Medicare telehealth 
claims.\1\ Use expanded greatly during the pandemic. Telehealth 
accounted for 16 percent of total charges for physician services in 
April 2020 compared to 0.1 percent in April 2019.\2\ Regarding 
Medicaid, all 50 States and DC reimburse for some type of live 
telehealth services.\3\ Illinois officials reported to the U.S. 
Government Accountability Office that telehealth represented a very 
small portion of the overall Medicaid budget--less than $500,000 of the 
State's $20 billion spending in State fiscal year 2015--and was used 
primarily to provide psychiatric services.\4\
---------------------------------------------------------------------------
    \1\ Medicare Payment Advisory Commission. (2016, June). Report to 
the Congress: Medicare and the health care delivery system. Washington, 
DC: Author. http://www.medpac.gov/docs/default-source/reports/june-
2016-report-to-the-congress-medicare-and-the-health-care-delivery-
system.pdf.
    \2\ Medicare Payment Advisory Commission. (2021, March). Report to 
the Congress: Medicare payment policy. Washington, DC: Author. http://
www.medpac.gov/docs/default-source/reports/
mar21_medpac_report_to_the_congress_sec.pdf?sfvrsn=0.
    \3\ Center for Connected Health Policy. (2020). State telehealth 
laws & reimbursement policies. West Sacramento, CA: Author. https://
www.cchpca.org/sites/default/files/2020-10/
CCHP%2050%20STATE%20REPORT%20FALL%202020%20FINAL.pdf.
    \4\ U.S. Government Accountability Office. (2017, April). Health 
care: Telehealth and remote patient monitoring use in Medicare and 
selected Federal programs [GAO-17-365]. Washington, DC: Author. https:/
/www.gao.gov/products/gao-17-365.
---------------------------------------------------------------------------
    In order to increase access to telehealth in the future, the 
Federal Government can do the following:
    1. Improve reimbursement for telehealth.--In response to COVID-19, 
        the Centers for Medicare & Medicaid Services (CMS) issued 
        multiple waivers related to telehealth (offering flexibility in 
        geographic location for example) and also granted payment 
        parity between telehealth and in-person care for the Medicare 
        program. Even before the pandemic, providers and patient groups 
        identified inadequate payment for telehealth as a significant 
        barrier to use.\5\ Continuing payment parity with in-person 
        care after the pandemic subsides, could be a huge boon for 
        uptake of telehealth.
---------------------------------------------------------------------------
    \5\ GAO, 2017: https://www.gao.gov/products/gao-17-365.
---------------------------------------------------------------------------
    2. Improve service coverage.--CMS paid for 81 telehealth services 
        in the Medicare program as of 2016.\6\ In response to the 
        COVID-19 public health emergency, CMS temporarily added over 
        140 services to the list of covered telehealth services for 
        Medicare.\7\ As recommended by MedPAC, CMS should maintain the 
        telehealth expansions for a limited duration to gather more 
        evidence about the impact of telehealth on access, quality, and 
        cost, and use that evidence to inform any permanent changes.\8\
---------------------------------------------------------------------------
    \6\ GAO, 2017: https://www.gao.gov/products/gao-17-365.
    \7\ MedPAC, 2021: http://www.medpac.gov/docs/default-source/
reports/mar21_medpac_re- port_to_the_congress_sec.pdf?sfvrsn=0.
    \8\ MedPAC, 2021: http://www.medpac.gov/docs/default-source/
reports/mar21_medpac_re- port_to_the_congress_sec.pdf?sfvrsn=0.
---------------------------------------------------------------------------
    3. Increase access to broadband.--Increased access to telehealth 
        requires increased access to high-quality broadband services, 
        especially in rural parts of the country.\9\
---------------------------------------------------------------------------
    \9\ GAO, 2017: https://www.gao.gov/products/gao-17-365.
---------------------------------------------------------------------------

                                 [all]
</pre></body></html>
